U.S. Department of Housing and Urban Development
Office of Inspector General




          Semiannual Report to Congress
                     April 1, 2011, through September 30, 2011
Profile of Performance
                                      Audit profile of performance
                        for the period April 1, 2011, through September 30, 2011
    Results                                                             This reporting period                    FY 2011
    Recommendations that funds be put to better use1                           $78,150,866                    $845,883,869
    Recommended questioned costs             1
                                                                               $97,234,235                    $193,265,502
    Collections from audits                                                    $21,354,620                     $47,175,903
    Administrative sanctions                                                         5                               7
    Subpoenas issued                                                                 81                             116

                                  Investigation profile of performance
                        for the period April 1, 2011, through September 30, 2011
    Results                                                             This reporting period                    FY 2011
    Funds put to better use                                                   $487,847,800                    $546,680,040
    Recoveries/receivables                                                     $29,845,571                    $292,397,572
    Arrests2                                                                        643                            1,410
    Indictments/informations                                                        608                            1,301
    Convictions/pleas/pretrial diversions                                           492                             992
    Civil actions 3
                                                                                     52                             129
    Administrative sanctions                                                        458                             863
      Suspensions                                                                   110                             189
      Debarments                                                                    117                             194
      Limited denial of participation                                                 0                              3
      Removal from program participation                                             87                             202
      Evictions                                                                     142                             273
    Systemic implications reports                                                    2                               2
    Personnel actions4                                                               36                             55
    Search warrants                                                                  39                             90
    Subpoenas issued                                                                678                            1,488

                                     Hotline profile of performance
                        for the period April 1, 2011, through September 30, 2011
    Results                                                            This reporting period                     FY 2011
    Funds put to better use                                                     $751,320                       $1,551,293
    Recoveries/receivables                                                       $51,153                         $99,355


1
  This represents all cost transactions during the period in which dollar amounts were reported with any recommendation.
2
  Included in the arrests is our focus on the nationwide Fugitive Felon Initiative which amounts to 46 arrests. For more
information on the Fugitive Felon Initiatives, see page 35.
3
  Civil actions include fraud injunctions, civil money penalties, complaints, judgments, settlements, seizure warrants, referrals,
and dismissals pertaining to forfeitures, adjudications, the False Claims Act, and the Program Fraud Civil Remedies Act.
4
  Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, State, or local
governments or of Federal contractors and grantees, as the result of OIG activities.
A Message from the Acting Deputy
Inspector General
                                      It is an honor to present to you the U.S. Department of Housing
                                   and Urban Development (HUD), Office of Inspector General’s (OIG)
                                   Semiannual Report to Congress for the second half of fiscal year 2011.
                                   HUD OIG employees–auditors, agents, attorneys, and support staff–
                                   remain dedicated in their mission to safeguard the integrity of HUD
                                   programs and services.

                                       The scope and impact of HUD programs have always resulted in
                                   a robust agenda for OIG oversight responsibilities. Over the past few
                                   years, these responsibilities have significantly expanded as the result of
                                   legislation and of Administration and departmental initiatives. Likewise,
                                   OIG’s investigative, audit, evaluative, and legal activities continue to
                                   evolve to keep pace with these changes.

                                       During this reporting period, we had $566.7 million in funds put to
                                   better use, questioned costs of $97 million, and $51 million in recoveries
and receivables while issuing 114 audits. We also had 608 indictments and informations, 492 convictions,
and 643 arrests during this reporting period. This exceptional work has had a marked impact on reducing
fraud and the misuse of taxpayer dollars.

    Our high profile audits and investigations continue to complement the Department’s strategic initiatives,
with the health of the Federal Housing Administration’s (FHA) mortgage insurance fund receiving particular
attention. HUD OIG staff continues to work with the Department to improve HUD’s effectiveness and as a
result, has developed and implemented better and more effective audit recommendations.

     One of our audits, a review of the Municipality of San Juan, PR’s HOME Investment Partnerships
program, found that the Municipality disbursed more than $3.4 million for four activities that showed signs
of slow progress without assurance that the activities would generate the intended benefits. In addition, it
failed to ensure that more than $2.5 million of a community housing development organization’s proceeds
was used for housing efforts.

    We recommended that HUD determine the eligibility of more than $4.8 million disbursed from HOME
funds on activities that showed signs of slow progress and for unsupported program costs. We also
recommended that HUD require the Municipality to develop and implement an internal control plan
to ensure that (1) its HOME-funded activities meet the program objectives, (2) its HOME program has a
financial management system that complies with HUD requirements, and (3) the program has controls
and procedures which ensure that HOME requirements are followed and accurate information is reported
to HUD.

   Additionally, we audited the New Orleans Redevelopment Authority in New Orleans, LA, a $29.7 million
HUD Neighborhood Stabilization Program 2 (NSP2) grantee, to determine whether the Authority’s use of
NSP2 funding was in accordance with Federal regulations. We found that the Authority did not always
use its NSP2 funds in accordance with Federal regulations. As a result, it could not provide reasonable
assurance that it had adequately fulfilled the requirements of its agreement with HUD.




A Message from the Acting Deputy Inspector General                                                              iii
         In our last report, we featured an important investigation of Taylor, Bean & Whitaker Mortgage
     Corporation (TBW), a former FHA-approved direct endorsement lender and Government National
     Mortgage Association (Ginnie Mae) issuer. Since that report, the case has been concluded. As a result, Lee
     Farkas, the former chairman of TBW; Paul Allen, the former TBW chief executive officer; Ray Bowman,
     the former TBW president; Desiree Brown, the former TBW treasurer; Sean Ragland, the former TBW
     accounting supervisor; and former Colonial Bank employees Catherine Kissick and Teresa Kelly were
     collectively sentenced in U.S. District Court, Alexandria, VA, to 604 months incarceration, 18 months home
     detention, and 192 months supervised release for their earlier conviction of or guilty pleas to committing
     a conspiracy to commit bank, wire, and securities fraud or making false statements to Federal agents. In
     addition, Farkas was ordered to forfeit $38.5 million. Between 2002 and August 2009, Kissick and Kelly
     conspired with other individuals and provided funding to TBW for phony or previously pledged loans, and
     Farkas and the remaining defendants conspired with other individuals; sold phony and previously pledged
     loans to investors in the secondary mortgage market; and caused TBW to submit false statements to
     HUD, Ginnie Mae, and other financial entities.

         In the area of community planning and development investigations, Belinda Exon, the former owner
     and escrow administrator for Rehab Financial Corporation, an organization that manages HUD community
     planning and development and Community Development Block Grant funds for a number of California
     municipalities, was sentenced in U.S. District Court, Los Angeles, CA, to 37 months incarceration and 3
     years probation and ordered to pay several California municipalities more than $3.85 million in restitution
     for her earlier guilty plea to committing embezzlement of property from organizations that receive Federal
     funds. From September 2002 to October 2008, Exon diverted and used about $3.9 million in HUD funds
     for personal investments.

         As we continue to address an expanding mission to protect HUD’s vital programs, I would once again
     like to express my appreciation to Congress and to the Department for their sustained commitment to
     supporting the important work of our office.




        John P. McCarty
        Acting Deputy Inspector General




iv                                                                    Message from the Deputy Inspector General
                                   Audit reports issued by program


                                                                           Single-family housing, 15%
                                                                           Multifamily housing, 3%
                                                                           Public and Indian housing, 37%
                                                                           Community planning and
                                                                           development, 35%
                                                                           Other programs, 10%




                          Audit monetary benefits identified by program


                                                                           Single-family housing, 10%
                                                                           Multifamily housing, 2%
                                                                           Public and Indian housing, 20%
                                                                           Community planning and
                                                                           development, 49%
                                                                           Other programs,* 19%



* Other programs include financial and information system audits.


                     Audit monetary benefits identified in millions of dollars
                                                                         $85.9
          $90
          $80
          $70
          $60
          $50
                                                       $35.5                          $33.0
          $40
          $30           $18.1
          $20
          $10                           $2.9

           $0
                 Single-family    Multifamily     Public and         Community       Other
                    housing        housing      Indian housing      planning and   programs
                                                                    development




Audit Charts                                                                                                v
        Investigative cases opened by program area (total: 467)


                                               Single-family housing, 36% (167)
                                               Public and Indian housing, 44%
                                               (204)
                                               Multifamily housing, 4% (20)
                                               Community planning and
                                               development, 11% (53)
                                               Other, 5% (23)




     Investigative recoveries by program area (total: $29,845,571.32)

                                               Single-family housing, 39%
                                               ($11,541,222.91)
                                               Public and Indian housing, 30%
                                               ($8,852,181.44)
                                               Multifamily housing, 8%
                                               ($2,550,745.44)
                                               Community planning and
                                               development, 23% ($6,890,881.53)
                                               Other, >1% ($10,540.00)




         Investigative cases closed by program area (total: 579)


                                               Single-family housing, 30% (176)
                                               Public and Indian housing, 45%
                                               (259)
                                               Multifamily housing, 9% (52)
                                               Community planning and
                                               development, 12% (67)
                                               Other, 4% (25)




vi                                                                  Investigation Charts
Acronyms List
ARIGA           Assistant Regional Inspector General for Audit
ARRA            American Recovery and Reinvestment Act of 2009
ASAC            Assistant Special Agent in Charge
AUSA            assistant U.S. attorney
CDBG            Community Development Block Grant
CDBG-R          Community Development Block Grant-Recovery
CHDO            Community housing development organization
CFD             Civil Fraud Division
CFPB            Consumer Financial Protection Bureau
CFR             Code of Federal Regulations
CPD             Office of Community Planning and Development
DAIGA           Deputy Assistant Inspector General for Audit
DHAP            Disaster Housing Assistance Program
DOE             U.S. Department of Energy
DRGR            Disaster Recovery Grants Reporting
EIV             Enterprise Income Verification
ESG             Emergency Shelter Grant
FA              forensic auditor
FAR             Federal Acquisition Regulation
FBI             Federal Bureau of Investigation
FDIC            Federal Deposit Insurance Corporation
FEMA            Federal Emergency Management Agency
FFI             Fugitive Felon Initiative
FFMIA           Federal Financial Management Improvement Act of 1996
FHA             Federal Housing Administration
FIFO            first in, first out
FY              fiscal year
GAO             U.S. Government Accountability Office
Ginnie Mae      Government National Mortgage Association
HAMP            Home Affordable Modification Program
HECM            home equity conversion mortgage
HERA            Housing and Economic Recovery Act of 2008
HIFMIP          HUD’s Integrated Financial Improvement Project
HOME            HOME Investment Partnerships Program
HOPWA           Housing Opportunities for Persons With AIDS
HPRP            Homelessness Prevention and Rapid Re-Housing Program


Acronyms List                                                          vii
       HPS      HUD Procurement System
       HUD      U.S. Department of Housing and Urban Development
       IAA      interagency agreement
       IDIS     Integrated Disbursement and Information System
       IED      Inspections and Evaluations Division
       MAP      Multifamily Accelerated Processing
       N/A      Not applicable
       NAHRO    National Association of Housing and Redevelopment Officials
       NSC      National Servicing Center
       NSP      Neighborhood Stabilization Program
       OIG      Office of Inspector General
       OMB      Office of Management and Budget
       PHA      public housing agency
       PIH      Office of Public and Indian Housing
       RAMPS    Recovery Act Management and Performance System
       REO      real estate-owned
       RIGA     Regional Inspector General for Audit
       SA       special agent
       SAC      Special Agent in Charge
       SBA      Small Business Association
       SFA      supervisory forensic auditor
       SHP      Supportive Housing Program
       SPS      Small Purchase System
       SSA      Social Security Administration
       SSN      Social Security number
       TCAP     Tax Credit Assistance Program
       U.S.C.   United States Code
       USDA     U.S. Department of Agriculture




viii                                                                          Acronyms List
Table of Contents
Executive Highlights                                                                     1
Chapter 1 - HUD’s Single Family Housing Programs                                         7
      Audit                                                                              8
      Investigations                                                                    15
      Inspections and Evaluations                                                       23
Chapter 2 - HUD’s Public and Indian Housing Programs                                    25
      Audit                                                                             26
      Investigations                                                                    33
Chapter 3 - HUD’s Multifamily Housing Programs                                          39
      Audit                                                                             40
      Investigations                                                                    43
Chapter 4 - HUD’s Community Planning and Development Programs                           47
      Audit                                                                             48
      Investigations                                                                    54
      Inspections and Evaluations                                                       59
Chapter 5 - American Recovery and Reinvestment Act of 2009                              61
      Introduction and Background                                                       62
      Audit                                                                             63
      Investigations                                                                    87
Chapter 6 - Disaster Grant Programs                                                     89
      Introduction and Background                                                       90
      Audit                                                                             91
      Investigations                                                                    93
Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                      97
      Audit                                                                              98
      Investigations                                                                    101
      Inspections and Evaluations                                                       102
      OIG Hotline                                                                       103
Chapter 8 - Outreach Efforts                                                            105
Chapter 9 - Legislation, Regulation, and Other Directives                               117
      Enacted Legislation                                                               118
      Notices and Policy Issuances                                                      119
Chapter 10 - Audit Resolution                                                           123
      Audit Reports Issued Before the Start of the Period With No Management Decision   124
      Significantly Revised Management Decisions                                        128
      Significant Management Decision With Which OIG Disagrees                          133
      Federal Financial Management Improvement Act of 1996                              133
Appendix 1 - Peer Review Reporting                                                      135
Appendix 2 - Audit Reports Issued                                                       137
Appendix 3 - Tables                                                                     147




Table of Contents                                                                             ix
    Reporting Requirements
    The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by
    the Inspector General Act of 1988, are listed below:
    Source/Requirement                                                                              Pages
    Section 4(a)(2)-review of existing and proposed legislation and regulations.                          123
    Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to      1-105, 123
    the administration of programs and operations of the Department.
    Section 5(a)(2)-description of recommendations for corrective action with respect to                7-105
    significant problems, abuses, and deficiencies.
    Section 5(a)(3)-identification of each significant recommendation described in       Appendix 3, Table B
    previous semiannual report on which corrective action has not been completed.
    Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                      7-105
    prosecutions and convictions that have resulted.
    Section 5(a)(5)-summary of reports made on instances in which information or                 No Instances
    assistance was unreasonably refused or not provided, as required by Section 6(b)(2) of
    the Act.
    Section 5(a)(6)-listing of each audit report completed during the reporting period and        Appendix 2
    for each report, where applicable, the total dollar value of questioned and unsupported
    costs and the dollar value of recommendations that funds be put to better use.
    Section 5(a)(7)-summary of each particularly significant report and the total dollar value         7-105
    of questioned and unsupported costs.
    Section 5(a)(8)-statistical tables showing the total number of audit reports and      Appendix 3, Table C
    the total dollar value of questioned and unsupported costs.
    Section 5(a)(9)-statistical tables showing the total number of audit reports          Appendix 3, Table D
    and the dollar value of recommendations that funds be put to better use by
    management.
    Section 5(a)(10)-summary of each audit report issued before the commencement Appendix 3, Table A
    of the reporting period for which no management decision had been made by the
    end of the period.
    Section 5(a)(11)-a description and explanation of the reasons for any                                128
    significant revised management decisions made during the reporting period.
    Section 5(a)(12)-information concerning any significant management decision with which the           133
    Inspector General is in disagreement.
    Section 5(a)(13)-the information described under section 05(b) of the Federal Financial               133
    Management Improvement Act of 1996.




x                                                                                      Reporting Requirements
Executive Highlights
    Strategic Initiative 1
    HUD Strategic Goal: Strengthen the Nation’s Housing Market To Bolster the
    Economy and Protect Consumers
    Office of Inspector General (OIG) Strategy: Contribute to the increase in the effectiveness of
    single-family insurance programs through
    •   Audits of the single family program and civil reviews uncovering single-family and loan origination
        abuse
    •   Audits of the U.S. Department of Housing and Urban Development’s (HUD) internal policies to
        determine whether controls are adequate
    •   A national strategy for civil fraud initiatives and single-family mortgage fraud task forces
    •   Outreach to industry and consumer groups and the Department
    •   A review of the Federal Housing Administration’s (FHA) and Government National Mortgage
        Association’s (Ginnie Mae) ability and capacity to oversee their expanding market share

    Highlights: Results or impact of significant OIG work
    •   An audit of CitiMortgage’s management of its Preforeclosure Sale Program showed that Citi improperly
        submitted claims totaling $5 million for 63 of 68 preforeclosure sales reviewed.
    •   An audit of HUD’s preclosing and postclosing loan review of new FHA direct endorsement lenders
        showed that lenders did not always complete HUD’s requirements.
    •   HUD OIG audited various mortgage bankers including Ameritrust Mortgage Bankers and Countrywide
        Bank for compliance with FHA requirements for underwriting loans.
    •   An audit of FHA’s tracking of lenders with outstanding indemnifications showed that HUD needs to seek
        legislative and program changes to prevent lenders and corporate officers from reentering the FHA
        program.
    •   HUD OIG’s Special Operations Division participated in a civil fraud working group with the U.S.
        Department of Justice to analyze the scope of potential loan origination fraud work.
    •   HUD OIG special agents are participating in 70 mortgage fraud working groups and task forces
        throughout the country.
    •   HUD OIG, working with the Mortgage Fraud Working Group’s Policy Committee, prepared and
        submitted a letter to the Consumer Financial Protection Bureau (CFPB) recommending changes to
        the HUD-1 settlement statement. Specifically, HUD OIG recommends that the CFPB require all parties
        involved in a real estate transaction, including the seller and settlement agent, to sign the HUD-1 and,
        further, that the HUD-1 contain false statements warnings, pursuant to Title 18, United States Code,
        Section 1001.
    •   During the reporting period, special agents gave 24 presentations to mortgage industry partners.
    •   The Office of Investigation’s Inspections and Evaluations Division completed an evaluation of the
        Home Equity Conversion Mortgage (HECM) program to validate the HECM data and determine whether
        payments were made to the borrowers after their date of death.

    Emerging/Continuing Issues: Areas of OIG interest
    •   Effectiveness of loan modification programs in the prevention of foreclosures
    •   Review of mortgage servicers’ processing of foreclosures
    •   Continued concerns for the health and soundness of the FHA fund
    •   Loan modification fraud and foreclosure rescue schemes
    •   Short sale frauds
    •   HUD’s effectiveness in implementing the Emergency Homeowners Loan Program
    •   HUD’s management of real estate-owned properties


2                                                                                            Executive Highlights
Strategic Initiative 2
 HUD Strategic Goal: Meet the Need for Quality Affordable Rental Homes
 OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance programs
 through
 •   Focusing on grantees’ administration of American Recovery and Reinvestment Act (ARRA) funds
 •   Reducing erroneous payments
 •   Contributing to improving the performance of entities managing rental assistance programs
 •   Investigating initiatives involving corruption in the management of troubled public housing agencies
     (PHA), multifamily developments, and those in receivership
 •   Public and departmentwide outreach initiatives

 Highlights: Results or impact of significant OIG work
 •   HUD OIG audited a number of Section 8 Housing Choice Voucher programs to determine whether
     program funds were used in accordance with HUD’s requirements.
 •   HUD OIG audited the City of Long Branch, NJ’s administration of its Public Housing Capital Fund and
     Capital fund Financing Programs and found that the Authority received $1.4 million in add-on subsidy
     incentives to which it was not entitled.
 •   HUD OIG conducted a corrective action verification of the Saginaw, MI, Housing Commission’s Public
     Housing Capital Fund program and found that prior audit recommendations had not been implemented
     and program funds were used for ineligible purposes.
 •   HUD OIG audited HUD’s multifamily housing subsidy payment review process and found a 26.8 percent
     error rate in voucher processing.
 •   The Office of Investigation has coordinated efforts with housing authorities and local law enforcement
     throughout the country to target erroneous rental assistance payments for the benefit of program
     participants who fraudulently underreported household income, failed to report household
     composition, or allowed registered sex offenders to reside in public housing units.
 •   HUD OIG conducted numerous criminal investigations of grantees, officials and others who were taking
     advantage of a lack of oversight of ARRA funds, including cases where housing agency employees
     created and submitted false statements and diverted ARRA funds to their personal use.
 •   The Office of Investigation has focused investigative efforts on housing authority officials and public
     officials, including but not limited to investigations of bribery, embezzlement, bid rigging, and theft.
 •   HUD OIG completed 19 ARRA-related reviews of how HUD is administering the program and/or how the
     grantees are administrating the ARRA-related funds.

 Emerging/Continuing Issues: Areas of OIG interest
 •   Rental assistance fraud initiatives targeting PHAs in receivership or on HUD’s list of “troubled” housing
     authorities
 •   HUD’s oversight of grantee ARRA expenditures
 •   Review and analysis of management of smaller housing authorities
 •   HUD’s implementation of changes in the rental assistance program
 •   Congressional interest in the Moving to Work Demonstration program




Executive Highlights                                                                                             3
    Strategic Initiative 3
    HUD Strategic Goal: Build Inclusive and Sustainable Communities Free From
    Discrimination
    OIG Strategy:
    • Promote integrity, efficiency, and effectiveness of programs
    • Contribute to the reduction of fraud, waste, and abuse
    •   Audits of the Community Development Block Grant (CDBG), Supportive Housing, and HOME
        Investment Partnerships (HOME) programs
    •   Audits of disaster activities
    •   Investigative initiative to fight corruption in the administration of State or local community grant
        recipients
    •   Disaster relief fraud in HUD CDBG-funded programs
    •   Public dissemination of HUD OIG activities and outreach activities with State and local government
        agencies and other community affairs agencies
    •   Audits and investigations of disaster relief fraud in HUD CDBG-funded programs

    Highlights: Results or impact of significant OIG work
    •   The Office of Audit testified before the House Committee on Financial Services on the HOME program.
    •   HUD OIG audited the operations of the City of Buffalo, NY, pertaining to its administration of its CDBG
        program and found that grant funds were spent for ineligible and questionable expenses.
    •   HUD OIG audited the Municipality of San Juan, PR’s administration of its HOME program and found
        that the Muncipality disbursed more than $3.4 million for activities that showed signs of slow progress
        without assurance that the activities would generate the intended benefits.
    •   HUD OIG audited the Albuquerque, NM, Housing Authority’s use of capital funds and found that the
        ARRA formula grants were mismanaged.
    •   HUD OIG audited the Philadelphia, PA, Housing Authority’s use of capital funds under ARRA and found
        that payments to rehabilitate its scattered-site housing were not supported and did not comply with
        applicable requirements.
    •   HUD OIG audited the Lafayette Parish Housing Authority in Lafayette, LA, regarding the operations of its
        public housing program and Disaster Housing Assistance Program and found that the Authority could
        not provide reasonable assurance that more than $2.9 million in disbursements were spent properly.
    •   The Office of Investigation has targeted frauds against HUD programs, including HUD’s HOME program,
        by conducting numerous criminal investigations, including cases involving bribery of public officials by
        contractors, who submitted false and inflated invoices.
    •   The Office of Investigation continues to focus investigative efforts on disaster relief frauds in the Gulf
        States impacted by Hurricanes Katrina and Rita that received disaster relief funding.

    Emerging Issues: Areas of OIG interest
    •   Review of Green Retrofit Program activities
    •   Focus on disaster relief-funded infrastructure projects
    •   Emergency Shelter Grants and programs
    •   Congressional interest in the HOME program




4                                                                                             Executive Highlights
Strategic Initiative 4
 HUD Strategic Goal: Transform the Way HUD Does Business
 OIG Strategy:
 • Be a relevant and problem-solving advisor to the Department
 • Contribute to improving HUD’s execution of and accountability for fiscal responsibilities
    through
 •   Referring audits, civil reviews, and investigations to the Departmental Enforcement Center and other
     management officials to ensure the accountability of individuals and firms committing fraud
 •   Referring audits, civil reviews, and investigations to the U.S. Department of Justice for civil
     enforcement
 •   Audits of HUD’s financial statements
 •   Audits of HUD’s information systems and security management
 •   Participating in the U.S. Department of Justice Financial Fraud Enforcement Task Force and
     Procurement Fraud Task Force

 Highlights: Results or impact of significant OIG work
 •   HUD OIG conducted a civil fraud review of IndyMac Bank in Pasadena, CA, to determine whether FHA
     policies and procedures were followed when FHA-insured loans were originated. Based upon the
     review, the U.S. Attorney’s Office filed a civil complaint alleging that individuals made false statements
     in support of the loan application and devised a scheme to defraud a financial institution.
 •   HUD OIG audited HUD’s administration of interagency agreements throughout the Federal Government.
 •   HUD OIG audited the Office of the Chief Procurement Officer’s procedures for closing out expired
     Ginnie Mae contracts and found that the office did not close out expired contracts in a timely manner,
     follow the Federal Acquisition Regulation, or have access to Ginnie Mae’s financial system data.
 •   During this current reporting period, HUD OIG special agents submitted two systemic implication
     reports to HUD. The most recent report suggested that each page of the form HUD-1 should be signed
     or initialed by all parties involved in the transaction, including the buyer, seller, and settlement agent.
 •   The Office of Investigation’s Inspections and Evaluations Division evaluated HUD’s government
     purchase card program to determine whether transactions complied with prescribed policies and
     procedures.

 Emerging Issues: Areas of OIG interest
 •   Continued modernization and enhancement of HUD’s information systems
 •   Congressional interest on the use of contracts and procurements
 •   HUD’s implementation and execution of its Integrated Financial Management Improvement Project




Executive Highlights                                                                                               5
Chapter 1 - Single-Family Housing
Programs
        The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance
    to mortgage lenders that, in turn, provide financing to enable individuals and families to purchase,
    rehabilitate, or construct homes. In addition to the audits and investigations described in this chapter,
    the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG), has
    conducted a number of outreach efforts (see chapter 8, page 106).


    Audit
                        Strategic Initiative 1: Contribute to the reduction of fraud
                                   in single-family insurance programs
     Key program results                                 Questioned costs               Funds put to better use
            Audit                17 audits                    $8 million                       $8.9 million
             Our               Page 9     •    Review of CitiMortgage management of preforeclosure sale
            focus                              program
                               Page 9     •    Review of HUD’s preclosing and postclosing loan review of FHA
                                               direct endorsement lenders
                               Page 9     •    Mortgagees, loan correspondents, and direct endorsement
                                               lenders
                              Page 13     •    Review of FHA-Home Affordable Modification Program
                              Page 14     •    Review of FHA’s Title II single-family lender renewal process
                              Page 14     •    Review of FHA’s tracking of lenders with outstanding
                                               indemnifications



                    Chart 1.1: Percentage of OIG single-family housing audit reports
                                      during this reporting period



                                                                                          Region 1 - 0%
                                                                                          Region 2 - 12%
                                                                                          Region 3 - 0%
                                                                                          Region 4 - 12%
                                                                                          Region 5 - 12%
                                                                                          Region 6 - 23%
                                                                                          Regions 7/8/10 - 29%
                                                                                          Region 9 - 12%
                                                                                          Region 11 - (N/A)*




    * This does not include disaster relief audits. See chapter 6 for these reviews.




8                                                                            Chapter 1 - Single-Family Housing Programs
Review of CitiMortgage Management of Preforeclosure Sale Program

   HUD OIG audited 68 FHA claims submitted by CitiMortgage, Inc., of O’Fallon, MO, to determine
whether Citi properly determined that borrowers were eligible to participate in the Preforeclosure Sale
Program.

    Citi improperly submitted claims totaling nearly $5 million for 63 of the 68 preforeclosure sales
reviewed without properly determining borrower eligibility to participate in the Program. Citi did not
always verify that the borrowers had defaulted or were in imminent danger of default as a result of an
adverse and unavoidable financial situation. Additionally, it did not complete comprehensive reviews
of the borrowers’ financial records to demonstrate that the borrowers did not have sufficient income or
assets to sustain the mortgage.

    OIG recommended that HUD require Citi to reimburse HUD for the 63 improper claims and develop
and implement policies and procedures to ensure that it properly determines the eligibility of borrowers
to participate in the Program. (Audit Report: 2011-KC-1005)


Review of HUD’s Preclosing and Postclosing Loan Review of FHA
Direct Endorsement Lenders

    HUD OIG audited HUD’s preclosing and postclosing loan review of new FHA direct endorsement lenders
to determine whether HUD followed its guidance when (1) reviewing the initial loans underwritten by new
FHA direct endorsement lenders and (2) performing the postendorsement technical review of all initial
loans endorsed by newly approved direct endorsement lenders.

     Although improvements had been made, HUD continued to grant unconditional direct endorsement
authority to some new FHA direct endorsement lenders that did not successfully complete HUD’s
requirements for unconditional direct endorsement authority. Specifically, 7 of the 155 lenders reviewed did
not successfully complete the 15 required test cases but were granted unconditional direct endorsement
authority. In addition, HUD did not follow its guidance for the postendorsement technical review of all loans
initially endorsed by new lenders that were approved for unconditional direct endorsement authority. HUD
only performed the required reviews on approximately half of the initial loans endorsed. Further, there
was no single report available to properly monitor newly approved lenders, but officials were working to
create one.

    OIG recommended that HUD (1) require its Homeownership Centers to improve controls to ensure that
they follow the guidance for granting new lenders unconditional direct endorsement authority, (2) ensure
that the required number of cases endorsed by newly approved lenders is selected for review, and (3)
establish a report that can be used by the Homeownership Centers to properly monitor the performance
of these lenders. (Audit Report: 2011-LA-0002)

Mortgagees, Loan Correspondents, and Direct Endorsement Lenders
    HUD OIG audited Ameritrust Mortgage Bankers, Inc., a nonsupervised lender located in Lake Success,
NY, to determine whether Ameritrust officials (1) approved FHA-insured loans in accordance with HUD-
FHA requirements and (2) implemented a quality control plan in accordance with HUD-FHA requirements.




Chapter 1 - Single-Family Housing Programs                                                                      9
         Ameritrust officials did not always approve FHA-insured loans in accordance with HUD-FHA
     requirements. Specifically, 11 of the 20 loans reviewed exhibited material underwriting deficiencies, such
     as inadequately verified and documented borrowers’ income, assets, liabilities, and credit histories. As a
     result, the FHA insurance fund incurred actual losses of more than $183,000 on 1 loan and faces potential
     losses of more than $2.7 million on 10 loans, for total losses of more than $2.9 million. Ameritrust officials
     also charged the borrowers nearly $4,000 in unallowable fees without providing written justification and
     did not ensure that their quality control plan was implemented in accordance with HUD-FHA requirements.
     Consequently, the quality control plan provided no assurance that deficiencies in the loan origination and
     underwriting processes were promptly identified and appropriate corrective actions were taken to prevent
     recurrences.

          OIG recommended that HUD require Ameritrust officials to (1) indemnify HUD against future losses
     related to the 10 loans that were underwritten in violation of HUD-FHA requirements, (2) reimburse HUD for
     the claim and related fees paid on 1 loan, (3) ensure that borrowers have been reimbursed for unallowable
     excessive loan discount and second appraisal fees, and (4) establish procedures to ensure that the quality
     control plan is implemented in accordance with HUD-FHA requirements. If the lender officially ceases
     its operations, the recommendations applicable to the quality control finding are not warranted. (Audit
     Report: 2011-NY-1012)

                                                         nnn

         HUD OIG audited FHA-insured loans underwritten by Prospect Mortgage, LLC, in Sherman Oaks, CA,
     to determine whether Prospect complied with HUD’s requirements for (1) origination and underwriting
     relative to cash assets, income, and creditworthiness; (2) quality controls; and (3) branch office operations.

         Prospect did not always follow HUD’s underwriting and quality control requirements for FHA-insured
     loans. Specifically, it did not properly underwrite 25 of 33 loans reviewed, which placed the FHA insurance
     fund at risk for more than $550,000 in questioned costs and nearly $1.7 million in funds to be put to better
     use. It also did not properly implement quality controls over its underwriting process for a specific group of
     defaulted loans approved by high-default-rate underwriters at two of its branch offices. The quality control
     deficiencies placed the FHA insurance fund at a higher risk for losses on additional defaulted loans with
     mortgages totaling more than $26.1 million.

          OIG recommended that HUD take appropriate administrative action against Prospect for the underwriting
     and quality control deficiencies identified. Specifically, Prospect should be required to reimburse or hold
     HUD harmless against any losses for the 25 improperly underwritten loans and the improper management
     of its quality control function. OIG also recommended that HUD review Prospect’s underwriting for any of
     the defaulted loans that have already gone to claim or on which a claim is filed within 5 years of the loan
     endorsement dates. If HUD determines that the claim was filed for loans that did not meet requirements,
     Prospect should be required to reimburse HUD for the claim or loss on the loans or indemnify HUD from
     losses. (Audit Report: 2011-AT-1011)

                                                         nnn

         HUD OIG audited Crossfire Financial Network, Inc., d/b/a CFN Mortgage Capital, an FHA-approved
     direct endorsement lender in Miami, FL, to determine whether the lender followed HUD requirements
     when (1) originating and underwriting loans and (2) implementing its quality control program.

        Crossfire did not follow HUD requirements when it underwrote 10 loans for FHA insurance based
     on inaccurate and unsupported information. As a result, it approved loans that were not eligible for
     FHA insurance and increased the risk to the FHA insurance fund of more than $1.3 million. In addition,




10                                                                       Chapter 1 - Single-Family Housing Programs
Crossfire did not implement a quality control program that complied with HUD requirements. It did not
conduct quality control reviews in compliance with requirements, and its written quality control plan did
not contain the required provisions. As a result, Crossfire increased the risk to the FHA insurance fund
because it did not have assurance regarding the accuracy, validity, and completeness of its loan origination
and underwriting operations.

    OIG recommended that HUD (1) require Crossfire to indemnify HUD for the nine ineligible FHA loans
with an estimated potential loss of more than $1.1 million and reimburse HUD for the more than $210,000
in claims paid on three loans; (2) refer Crossfire to the Mortgagee Review Board for consideration of
administrative actions against the lender for not having a compliant quality control program in place; and
(3) require Crossfire to develop, implement, and enforce a quality control program that complies with
HUD requirements. (Audit Report: 2011-AT-1010)

                                                    nnn

    HUD OIG audited the FHA-insured loan process at Universal American Mortgage Company in Las
Vegas, NV, to determine whether Universal American complied with HUD regulations, procedures, and
instructions in the origination and quality control review of FHA-insured loans.

    Universal American did not follow HUD requirements in the origination or quality control review of FHA-
insured loans. Specifically, all 15 loans reviewed contained underwriting deficiencies and inappropriate
restrictive covenants that affected the insurability of the loan. In addition, 10 quality control reviews were
in violation of HUD regulations or the lender’s quality control policies.

    OIG recommended that HUD require Universal American to (1) indemnify HUD against losses for 9 of
10 FHA-insured loans with significant underwriting deficiencies and unallowable restrictive covenants of
more than $1.1 million; (2) reimburse the FHA insurance fund nearly $119,000 for losses resulting from the
claims and associated expenses paid on one loan with significant underwriting deficiencies or unallowable
restrictive covenants; (3) develop, implement, and enforce written controls to ensure that FHA-insured
loans are originated in compliance with HUD regulations; and (4) fully implement its quality control plan
and follow up to ensure that its quality control reviews are conducted in accordance with HUD regulations.
(Audit Report: 2011-LA-1017)

                                                    nnn

   HUD OIG audited All American Home Mortgage Corp., a nonsupervised lender in Brooklyn, NY, to
determine whether All American officials (1) approved FHA-insured loans in accordance with HUD-FHA
requirements and (2) implemented a quality control plan in accordance with HUD-FHA requirements.

    All American officials did not always approve FHA-insured loans in accordance with HUD-FHA
requirements. Specifically, material underwriting deficiencies were noted regarding 6 of the 20 loans
reviewed, such as inadequate verification of gift funds, the statutory minimum investment, and the source
of funds; improper calculation of income; and inconsistent information not reconciled. As a result, loans
were approved for potentially ineligible borrowers, which caused HUD-FHA to incur an unnecessary
insurance risk. All American officials also charged the borrowers unallowable fees and did not ensure that
their quality control plan was implemented in accordance with HUD-FHA requirements, resulting in a lack
of assurance that loan origination problems were identified and appropriate corrective action was taken.

    OIG recommended that HUD require All American officials to (1) indemnify HUD against future losses
related to five loans, which were underwritten in violation of HUD-FHA requirements; (2) reimburse HUD
nearly $182,000 in claims and associated fees paid on one loan; (3) ensure that borrowers have been




Chapter 1 - Single-Family Housing Programs                                                                       11
     reimbursed nearly $700 for unallowable wire and courier fees; (4) establish procedures to ensure that
     HUD-FHA underwriting requirements are properly implemented and documented; and (5) implement
     quality control procedures to ensure that management responses and planned corrective action are
     adequately documented and quality control reviews are always conducted in accordance with HUD-FHA
     requirements. (Audit Report: 2011-NY-1014)

                                                         nnn

        HUD OIG audited AmericaHomeKey, Inc., an FHA direct endorsement lender in Dallas, TX, to
     determine whether AmericaHomeKey originated manufactured home loans in accordance with HUD-FHA
     requirements for loans with beginning amortization dates between March 1, 2008, and February 28, 2010.

         AmericaHomeKey did not follow HUD-FHA underwriting requirements in 13 of 20 loan originations
     reviewed. As a result, it originated more than $1.7 million in ineligible loans that resulted in losses to
     FHA’s insurance fund totaling more than $538,000 and increased the risk to the insurance fund by more
     than $680,000.

         OIG recommended that HUD require AmericaHomeKey to (1) indemnify HUD for the eight ineligible
     FHA loans, (2) support or repay the FHA insurance fund nearly $24,000 for claims paid as of July 31, 2011,
     or the current total amount of claims paid for four insured loans, (3) reimburse the FHA insurance fund
     more than $514,000 for actual losses incurred on five insured loans, and (4) improve its quality control
     procedures to ensure that it consistently identifies and corrects underwriting deficiencies in a timely
     manner. OIG also recommended that HUD refer AmericaHomeKey to the Mortgagee Review Board
     for consideration of administrative actions against the lender for not having a compliant quality control
     program in place and take appropriate administrative actions against the underwriter responsible for the
     13 questioned loans. OIG further recommended that HUD impose appropriate administrative sanctions,
     including possible debarment or other remedies, against the underwriter responsible for the 13 questioned
     loans. (Audit Report: 2011-FW-1016)

                                                         nnn

         HUD OIG audited Countrywide Bank, FSB, an FHA supervised lender in Calabasas, CA, to determine
     whether (1) Countrywide complied with HUD’s regulations, procedures, and instructions in the underwriting
     of FHA-insured loans and (2) Countrywide’s quality control plan, as implemented, met HUD’s requirements.

         Countrywide did not comply with HUD’s regulations, procedures, and instructions in the underwriting of
     FHA-insured loans. Specifically, the loan files for 7 of the 14 loans reviewed contained material underwriting
     deficiencies. For these seven loans, Countrywide did not properly verify, analyze, or support borrowers’
     employment and income, source of funds to close, liabilities, and credit information. Additionally, it
     allowed borrowers to skip mortgage payments for refinance transactions. As a result, HUD paid more
     than $1 million in claims and incurred losses totaling more than $720,000 on the sale of the associated
     properties for the seven loans.

         Further, Countrywide did not fully implement its quality control program in accordance with
     HUD’s requirements. Specifically, it did not conduct quality control reviews in accordance with HUD’s
     requirements, and its written quality control plan did not contain all of the necessary provisions. As a
     result, Countrywide increased the risk to FHA’s insurance fund due to the lack of assurance of the accuracy,
     validity, and completeness of its loan underwriting activities.

         OIG recommended that HUD require Bank of America (which acquired Countrywide in 2008) to
     (1) reimburse HUD for the actual losses incurred on seven loans since the properties associated with
     these loans were sold, (2) reimburse HUD or provide sufficient documentation to support that more than



12                                                                       Chapter 1 - Single-Family Housing Programs
$3,000 in fees charged to four borrowers at settlement were reasonable and customary, (3) implement
an adequate quality control plan that complies with HUD requirements, and (4) perform a 100 percent
review of its early payment defaulted loans. Further, OIG recommended that HUD (1) perform a review of
Bank of America’s quality control program within 9 months to determine whether the required provisions
have been included in its written plan and quality control reviews are conducted in compliance with
HUD’s requirements and (2) pursue remedies under the Program Fraud Civil Remedies Act, where legally
sufficient, against Countrywide and/or its principals for incorrectly certifying to the integrity of the data or
that due diligence was exercised during the underwriting of seven loans. (Audit Report: 2011-CH-1016)

                                                     nnn

    HUD OIG audited 46 FHA loans that Pierce Commercial Bank in Tacoma, WA, underwrote as an FHA
direct endorsement lender to determine whether Pierce underwrote 46 loans in accordance with FHA
requirements.

   Pierce originated 1,912 FHA-insured loans between 2006 and 2009, primarily in Washington State, totaling
more than $475.8 million. It did not properly underwrite at least 25 of the 46 loans reviewed. For these 25
loans, the FHA insurance fund suffered an estimated net loss of more than $3.5 million after reducing the
proceeds from property sales from actual claims paid of more than $6.7 million. Pierce was closed by the
Washington Department of Financial Institutions on November 5, 2010.

    OIG recommended that HUD initiate debarment action against the Pierce employees responsible for
the material underwriting deficiencies identified. (Audit Memorandum: 2011-SE-1801)

Review of FHA-Home Affordable Modification Program
   HUD OIG audited HUD’s National Servicing Center’s (NSC) FHA-Home Affordable Modification Program
(HAMP) to determine whether NSC implemented and operated FHA-HAMP in accordance with rules and
regulations.

   Overall, NSC implemented and operated FHA-HAMP in accordance with the necessary rules and
regulations. However, OIG identified three areas that NSC needed to improve. These three areas were
identifying failed FHA-HAMP trial plans, identifying duplicate FHA-HAMP payments, and improving the
timeliness of trial payments.

     OIG recommended that HUD require NSC to (1) develop a default status code for failed FHA-HAMP
trial plans and (2) clarify its timeliness of trial payments. (Audit Report: 2011-FW-0001)

                                                     nnn

    HUD OIG audited Wells Fargo Home Mortgage in Fort Mill, SC, to determine whether it followed HUD
rules and regulations when processing defaulted loans for the FHA-HAMP loss mitigation option.

    Wells Fargo did not always correctly calculate gross income, include all necessary debts, put borrowers
in proper trial plans, or check for borrower eligibility. As a result, it approved more than $127,000 in FHA-
HAMP claims that it should not have approved. In addition, Wells Fargo used verbal financial information
to qualify four ineligible borrowers for the FHA-HAMP trial plan.

    OIG recommended that HUD require Wells Fargo to (1) reimburse HUD for the FHA-HAMP claims it
should not have approved and (2) ensure that it properly reports FHA-HAMP borrowers’ status in HUD’s
systems. (Audit Report: 2011-FW-1010)

                                                     nnn

Chapter 1 - Single-Family Housing Programs                                                                         13
         HUD OIG audited Midland Mortgage Company in Oklahoma City, OK, to determine whether Midland
     followed HUD rules and regulations when processing defaulted loans for the FHA-HAMP loss mitigation
     option.

         Overall, Midland complied with FHA-HAMP rules and regulations. However, it did not always check
     for borrower eligibility or assign the appropriate maturity date for FHA-HAMP partial claims. Midland had
     developed processes to ensure that it complied with FHA-HAMP rules and regulations for the two areas
     of noncompliance.

         OIG recommended that HUD require Midland to correct the maturity dates on the legal documents for
     three FHA-HAMP loans identified. (Audit Report: 2011-FW-1008)

     Review of FHA’s Title II Single-Family Lender Renewal Process
        HUD OIG audited FHA’s Title II single-family lender renewal process to determine whether FHA’s controls
     were adequate for determining whether lenders met FHA annual renewal requirements.

         Although FHA had taken significant steps to strengthen its controls over the lender renewal process,
     the process still had weaknesses related to Mortgagee Review Board referrals, lender financial information
     review, and data and renewal fee calculations in FHA’s lender recertification tracking system. These
     weaknesses resulted in an increased risk that noncompliant lenders were allowed to continue participating
     in the FHA program, FHA’s reduced ability to effectively monitor lenders, and lenders paying lower fees
     than required.

        OIG recommended that HUD require FHA to improve controls over the lender recertification process
     and make changes to the Institutional Master File system to ensure data integrity. (Audit Report: 2011-
     KC-0001)

     Review of FHA’sTracking of Lenders with Outstanding Indemnifications
        HUD OIG audited FHA to determine whether it prevented corporate officers from participating in FHA
     programs after those officers left other lenders that did not honor their FHA indemnification agreements.

          FHA did not prevent lenders’ corporate officers from participating in FHA programs after those officers
     left other lenders that did not honor their FHA indemnification agreements. OIG found 12 corporate officers
     who participated in the FHA program after leaving 7 lenders that did not honor their indemnification
     agreements and had lost their FHA approval. However, FHA lacked the authority to prevent these corporate
     officers from reentering the FHA program.

        OIG recommended that FHA seek legislative and program rule changes to prevent lenders and their
     corporate officers with unsatisfied indemnification agreements from reentering the FHA program as the
     same or a new lender. (Audit Report: 2011-KC-0004)

                                                        nnn




14                                                                     Chapter 1 - Single-Family Housing Programs
Investigations
   Some investigations discussed in this report were generated from leads provided by HUD single-family
housing program staff and conducted jointly with Federal, State, and local law enforcement agencies.
The results of various significant investigations are described below.


                   Strategic Initiative 1: Contribute to the reduction of fraud
                              in single-family insurance programs
    Key program                Cases                 $            Convictions/pleas/         Admin/civil
       results                 closed            recovered            pretrials               actions

    Investigations               176             $11,541,223                 109                    141
         Our                   Page 16       •   Loan origination fraud
        focus                  Page 19       •   Home Equity Conversion Mortgage program fraud
                               Page 20       •   Civil and administrative actions
                               Page 21       •   Other single-family fraud




       Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                                during this reporting period

                                                                                   Region 1 - 5%
                                                                                   Region 2 - 8%
                                                                                   Region 3 - 4%
                                                                                   Region 13 - 13%
                                                                                   Region 4 - 13%
                                                                                   Region 14 - 4%
                                                                                   Region 5 - 10%
                                                                                   Region 15 - 15%
                                                                                   Region 6 - 5%
                                                                                   Regions 7/8 - 10%
                                                                                   Region 9 - 6%
                                                                                   Region 10 - 7%
                                                                                   Region 11 - 0%




Chapter 1 - Single-Family Housing Programs                                                                 15
     Loan Origination Fraud

         Lee Farkas, the former chairman of Taylor, Bean & Whitaker
     Mortgage Corporation (TBW), a former FHA-approved direct
     endorsement lender and Government National Mortgage Association
     (Ginnie Mae) issuer; Paul Allen, the former TBW chief executive officer;
     Ray Bowman, the former TBW president; Desiree Brown, the former
     TBW treasurer; Sean Ragland, the former TBW accounting supervisor;
     and former Colonial Bank employees Catherine Kissick and Teresa
     Kelly were collectively sentenced in U.S. District Court, Alexandria,
     VA, to 604 months incarceration, 18 months home detention, and
     192 months supervised release for their earlier conviction of or guilty
     pleas to committing a conspiracy to commit bank, wire, and securities
     fraud or making false statements to Federal agents. In addition, Farkas
     was ordered to forfeit $38.5 million. Between 2002 and August 2009,
     Kissick and Kelly conspired with other individuals and provided
     funding to TBW for phony or previously pledged loans, and Farkas
     and the remaining defendants conspired with other individuals; sold
     phony and previously pledged loans to investors in the secondary
     mortgage market; and caused TBW to submit false statements to HUD,
     Ginnie Mae, and other financial entities. HUD, Ginnie Mae, and other
                                                                              Copyright2011.OcalaStarBanner,Ocala,FL.
     financial entities realized losses in excess of $1.9 billion.            Reprinted with permission.

                                                            nnn

         Leroy Hayden, a former servicing manager for the now defunct U.S. Mortgage Corp. (U.S. Mortgage),
     and Amer Mir, a former loan officer for United Home Mortgage, were collectively sentenced in U.S. District
     Court, Newark, NJ, to 70 months incarceration, 24 months probation, and 36 months supervised release
     and ordered to pay a number of victims more than $2.3 million in restitution and forfeit $210,000 for their
     earlier conviction of or guilty plea to committing a conspiracy to commit wire fraud. In addition, former
     U.S. Mortgage president Michael McGrath, Jr., who previously pled guilty to committing a conspiracy to
     commit money laundering, was debarred from procurement and nonprocurement transactions with HUD
     and throughout the Executive Branch of the Federal Government for an indefinite period; former U.S.
     Mortgage loan officer David Cobianchi, who previously pled guilty to committing a conspiracy to make
     false statements to HUD, was debarred for 36 months; and former ReMax Property Center realtor Michael
     Eliasof was debarred for an indefinite period. Between 1998 and February 2009, the above defendants and
     other individuals fraudulently sold credit union mortgage loans to Fannie Mae, used $139 million in illicit
     proceeds to fund personal and business investments or U.S. Mortgage operations, provided fraudulent
     documents used by unqualified borrowers to obtain FHA-insured and conventional mortgages, or placed
     fraudulent conventional mortgaged properties into the Paterson Housing Authority or the City of Paterson
     Section 8 programs. HUD realized losses of about $2.7 million after 100 mortgages defaulted.

                                                          nnn

         Former real estate appraiser Greg Buzarde was sentenced in U.S. District Court, Los Angeles, CA, to
     27 months incarceration and 60 months supervised probation and ordered to pay HUD more than $2.6
     million in restitution for his earlier guilty plea to committing a conspiracy and mail fraud. From March
     1998 to September 2001, Buzarde and other individuals conspired and provided fraudulent appraisals for
     FHA-insured properties. HUD realized losses in excess of $2.6 million after 20 mortgages defaulted.

                                                          nnn


16                                                                        Chapter 1 - Single-Family Housing Programs
    Toshia Ramsey, a former real estate
agent for Stanfield Realtors, pled guilty in U.S.
District Court, Fort Worth, TX, to committing
a conspiracy to make false statements to
HUD. From December 2002 to June 2003,
Ramsey and other individuals conspired and
created or provided fraudulent documents
used by unqualified borrowers to obtain
FHA-insured mortgages. HUD realized losses
of $1.3 million after 30 mortgages defaulted.

                      nnn

    Morris Olmer, a former attorney; Wendy
Werner, a former real estate agent for WB
Realty; Rab Nawaz; and Marshall Asmar were
collectively sentenced in U.S. District Court,
Hartford, CT, to 250 months incarceration
and 12 years supervised release, and Werner Copyright 2011. The Fort Worth Star Telegram, Fort Worth, TX.
was fined $100,000 for their earlier convictions Reprinted with permission.
of making false statements or committing
wire or mail fraud, obstruction of justice,
a conspiracy to commit wire fraud, or a conspiracy to defraud the United States. In addition, Olmer and
attorney Richard Novak were each suspended from procurement and nonprocurement transactions with
HUD and throughout the Executive Branch of the Federal Government pending the outcome of criminal
proceedings or any related debarment actions. Between August 2006 and April 2010, the above defendants
and other individuals conspired and provided false information or fraudulent documents used by unqualified
borrowers to obtain FHA-insured and conventional mortgages. HUD realized a loss of $350,000 after two
mortgages defaulted.

                                                    nnn

    Eric Wendlandt, a mortgage broker and owner of Precise Mortgage (Precise), and Precise employees
Roni Watkins and Pleasz Daniels were collectively sentenced in U.S. District Court, Grand Rapids, MI,
to 57 months incarceration and 36 months probation and ordered to perform 450 hours of community
service and pay HUD $237,632 in restitution for their earlier guilty pleas to making false statements to HUD
or committing a conspiracy. From February 2008 to April 2010, the above defendants produced or provided
fraudulent documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD realized
losses of $237,632 after six mortgages defaulted.

                                                    nnn

    A.J. Adewunmi, a former owner of Re/Max Associates Plus (Re/Max) and Cots Realty, and former Re/
Max realtor Christian Juan were collectively sentenced in U.S. District Court, St. Louis, MO, to 12 months
incarceration and 36 months probation and ordered to pay HUD $127,100 in restitution for their earlier
guilty pleas to making false statements to HUD and committing mail fraud. In addition, Richard Rodawald,
an unlicensed real estate closer for Dedicated Closing, was sentenced to 30 months incarceration and
ordered to pay a number of victims $98,980 in restitution for his earlier guilty plea to committing mail fraud.
Between 2003 and 2010, Adewunmi and Juan provided false information or assisted unqualified borrowers
who fraudulently obtained FHA-insured and conventional mortgages, and Rodawald created about 1,100




Chapter 1 - Single-Family Housing Programs                                                                        17
     false HUD-1 settlement statements for FHA-insured mortgages that included $98,900 in prohibited fees
     and disbursements. HUD realized losses of $127,100 after four mortgages defaulted.

                                                        nnn

         Carmen Diaz De Leon, a former loan officer for Assured Mortgage, pled guilty in U.S. District Court,
     Chicago, IL, to committing bank fraud. From June 2001 to April 2003, De Leon provided false documents
     used by unqualified borrowers to obtain FHA-insured and conventional mortgages. HUD realized losses
     of $118,700 after three mortgages defaulted.

                                                        nnn

          Gennaro Rauso, the owner of D&B Property Investors, was sentenced in U.S. District Court, Philadelphia,
     PA, to 160 months incarceration and ordered to pay a not yet determined amount of restitution for his
     earlier guilty plea to committing equity skimming and mail, bank, bankruptcy, and access device fraud;
     failing to file Federal income tax returns; and filing false Federal income tax returns. From January 2005 to
     January 2009, Rauso enticed more than 200 distressed property owners to transfer their property deeds to
     him, including four properties with FHA-insured mortgages; filed fraudulent bankruptcy petitions to delay
     foreclosure proceedings; and failed to file or filed false Federal income tax returns. HUD realized losses
     of about $118,000 after four mortgages defaulted.

                                                        nnn

         David and Meggan Alexander were collectively sentenced in U.S. District Court, Cedar Rapids, IA, to
     25 months incarceration and 8 years supervised release and ordered to perform 100 hours of community
     service and pay HUD $113,113 in restitution for their earlier convictions of making false statements. Between
     April 2007 and June 2008, David and Meggan Alexander provided false information or fraudulent documents
     to obtain or retain an FHA-insured mortgage. HUD realized a loss of $113,574 after their mortgage defaulted.

                                                        nnn

        Francisco Silva-Najera pled guilty in U.S. District Court, Grand Rapids, MI, to using a false Social
     Security number (SSN) and assaulting a Federal agent. In February 2003, Silva-Najera used a false SSN to
     obtain and later default on an FHA-insured mortgage. HUD realized a loss of $84,422 after his mortgage
     defaulted. In addition, Silva-Najera assaulted a U.S. Department of Homeland Security Immigration and
     Customs Enforcement special agent who was attempting to arrest a member of his family for allegedly
     committing immigration violations.

                                                        nnn

         Michael Conley was sentenced in U.S. District Court, Roanoke, VA, to 6 months home detention and
     60 months probation and ordered to pay Flagstar Bank $38,655 in restitution for his earlier guilty plea to
     making false statements. In October 2005, Conley provided false information and fraudulent documents
     to obtain an FHA-insured mortgage. HUD realized a loss of $38,655 after his mortgage defaulted.

                                                        nnn

        Lucilene Guido, a realtor for Atlantic International Realty, and mortgage consultant and loan officer
     Simone Fernandes each pled guilty in U.S. District Court, Newark, NJ, to committing a conspiracy to commit
     wire fraud. In addition, Iodete Periera and Rosa Damasceno were collectively sentenced to 1 year and
     1 day incarceration and 2 years probation and fined $2,000 for their earlier guilty pleas to committing a
     conspiracy to commit bank and wire fraud, and former real estate broker Rui Talaia, former real estate


18                                                                      Chapter 1 - Single-Family Housing Programs
agent Eugenio Mendes, and Stop Realty Group, LLC, were each suspended from procurement and
nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
pending the outcome of criminal proceedings or any related debarment actions. Between June 2008
and May 2010, the above defendants and other individuals conspired and created or provided fraudulent
documents used by unqualified borrowers to obtain FHA-insured and conventional mortgages. HUD losses
have not yet been determined.

                                                   nnn

     Alan Greer, a realtor for CNR & I; Nicole Johnson, also known as Nicole Jones; and Johnnie Webb were
collectively sentenced in Cook County Circuit Court, Chicago, IL, to 12 months probation and fined $2,000
for their earlier guilty pleas to committing deceptive practices or a fraudulent land conveyance. From 2007
to 2009, the above individuals provided false information, fraudulent documents, or downpayment funds
used by unqualified borrowers to obtain FHA-insured and conventional mortgages. HUD losses have not
yet been determined.

                                                   nnn

    Alexandre Pinheiro, Fahim Choudhary, and Mauricio Midence were collectively sentenced in U.S.
District Court, San Francisco, CA, to 12 months and 107 days incarceration for their earlier guilty pleas
to committing a conspiracy to commit bank fraud. From January to April 2010, the above defendants
conspired and provided fraudulent documents used by an unqualified borrower who obtained and later
defaulted on an FHA-insured mortgage. HUD losses have not yet been determined.

                                                   nnn

    Tina Hill entered into a pretrial diversion filed in Wayne County Circuit Court, Detroit, MI, and agreed
to serve 12 months probation, perform 60 hours of community service, and pay PNC Bank $4,000 in
restitution. In April 2008, Hill allegedly used false employment information to obtain and later default on
an FHA-insured mortgage. HUD losses have not yet been determined.

                                                   nnn

   Frederick Noland pled guilty in U.S. District Court, St. Louis, MO, to making false statements to HUD.
From September to December 2008, Noland provided false documents used by an unqualified borrower,
who obtained and later defaulted on an FHA-insured mortgage. HUD losses have not yet been determined.

Home Equity Conversion Mortgage Program Fraud

    Louis Gendason, John Incandela, and Marcos Echevarria, 1st Continental Mortgage Company loan
officers, and Kimberly Mackey, the owner and president of REO Land Services, each pled guilty in U.S.
District Court, Fort Lauderdale, FL, to committing a conspiracy to commit wire fraud. From May 2009
to November 2010, the above defendants conspired and fraudulently provided inflated appraisals used
by unqualified borrowers who obtained more than $2.5 million in home equity conversion mortgages
(HECM). In addition, Mackey fraudulently closed the reverse mortgages, failed to pay existing mortgage
loans, and diverted more than $988,086 into accounts controlled by Gendason and Incandela. HUD losses
have not yet been determined.

                                                   nnn




Chapter 1 - Single-Family Housing Programs                                                                     19
         Mary Fulbright pled guilty in U.S. District Court, Rochester, NY, to committing bank fraud. From October
     to December 2008, Fulbright used a quit claim deed and fraudulently changed the ownership of her father’s
     property, provided false information and documents to certify and close on a HUD HECM loan in her
     father’s name, and obtained $176,364 in reverse mortgage loan proceeds she was not entitled to receive.

     Civil and Administrative Actions

         Beechwood, Inc. (Beechwood), doing business as Beechwood Realty and Beechwood Services of
     Moreno Valley, CA, entered into a Financial Institutions Reform, Recovery, and Enforcement Act of 1989
     civil settlement filed in U.S. District Court, Los Angeles, CA, and agreed to pay the U.S. Treasury $100,000.
     From 2008 to 2010, Beechwood allegedly provided false information and fraudulent documents used by
     unqualified borrowers to obtain FHA-insured mortgages. HUD losses have not yet been determined.

                                                         nnn

         John Murphy, the former president of Alliance Mortgage Banking Corporation (Alliance) who was
     previously sentenced in U.S. District Court, Central Islip, NY, for his earlier guilty plea to committing bank
     fraud, was debarred from procurement and nonprocurement transactions with HUD and throughout the
     Executive Branch of the Federal Government for an indefinite period. From January to August 2007, Murphy
     fraudulently used Alliance Mortgage warehouse line-of-credit funds for Alliance operations. HUD losses
     have not yet been determined.

                                                         nnn

        Henry Ruby, the owner of Primetime Mortgage Services who was previously sentenced in U.S. District
     Court, Philadelphia, PA, for his earlier guilty plea to making false statements to HUD and committing
     wire fraud and aiding and abetting, was debarred from procurement and nonprocurement transactions
     with HUD and throughout the Executive Branch of the Federal Government for 4 years. From July 2007 to
     March 2009, Ruby and other individuals provided fraudulent documents and obtained two FHA-insured
     mortgages.

                                                         nnn

         Juan Hernandez, a former loan officer for National City Mortgage who was previously indicted in
     U.S. District Court, Providence, RI, for allegedly committing a conspiracy and bank and wire fraud, was
     suspended from procurement and nonprocurement transactions with HUD and throughout the Executive
     Branch of the Federal Government pending the outcome of criminal proceedings or any related debarment
     actions. From October 2006 to August 2007, Hernandez and other individuals allegedly conspired and
     assisted unqualified borrowers who obtained conventional mortgages.

                                                         nnn

         Celeste Montoya and Maria DeLeon, former employees of the Team Realty Group, entered into Financial
     Institutions Reform, Recovery, and Enforcement Act of 1989 civil settlements filed in U.S. District Court, Los
     Angeles, CA, and each agreed to pay the U.S. Treasury $200,000 (suspended if they perform 320 hours of
     community service). Between April 2007 and December 2008, Montoya and DeLeon admittedly conspired
     and fraudulently certified themselves or other unqualified borrowers for FHA-insured mortgages. HUD
     losses have not yet been determined.




20                                                                       Chapter 1 - Single-Family Housing Programs
Other Single-Family Fraud


   Kenneth Perkins, a realtor for Virtual Realty Funding Company, was sentenced in U.S. District Court,
Phoenix, AZ, to 36 months probation and ordered to pay HUD $79,782 in restitution for his earlier guilty
plea to committing a misprision of a felony. From June 2003 to October 2004, Perkins failed to report that
an unnamed investor acted as a straw borrower and fraudulently obtained and resold HUD real estate-
owned properties. HUD realized losses of $440,000 after 20 mortgages defaulted.

                                                   nnn

    Alex Soria, a former loan officer for Amwest Capital Mortgage (Amwest), was indicted in U.S. District
Court, Las Vegas, NV, for allegedly committing mail fraud and aiding and abetting. From May 2008 to
January 2010, Soria allegedly created fraudulent Amwest loan preapproval letters and induced FHA Hope
for Homeowners program applicants to provide him with about $100,000 in upfront fees for mortgage
loans that were never approved.

                                                   nnn

    Michael Primeau, the former president of Ideal Mortgage Bankers, an FHA-insured direct endorsement
lender doing business as Lend America, pled guilty in U.S. District Court, Central Islip, NY, to committing
bank fraud. From January 2009 to February 2010, Primeau provided false statements and fraudulent
documents and misappropriated more than $55 million in Lend America warehouse line-of-credit funds
that related to more than 400 FHA-insured and Ginnie Mae mortgages. HUD and Ginnie Mae losses have
not yet been determined.

                                                   nnn

   Ruth Vetri, the owner and president of Surety Title Corporation, pled guilty in U.S. District Court, Fort
Meyers, FL, to making false statements to HUD. Between April and October 2008, Vetri created fraudulent
HUD-1 settlement statements for a number of FHA-insured mortgages. HUD losses have not yet been
determined.

                                                   nnn

    Antone Thompson, doing business as TnT Engineering, pled guilty in U.S. District Court, Salt Lake City,
UT, to making false statements to HUD. From February 2005 to July 2008, Thompson fraudulently certified
and submitted more than 70 manufactured housing engineering reports to HUD after his engineering
license had been suspended. HUD losses have not yet been determined.

                                                   nnn

    Kenyuano Jones, a HUD Good Neighbor Next Door program participant and assistant principal for the
Detroit Public School System, entered into a pretrial diversion filed in Wayne County Circuit Court, Detroit,
MI, and agreed to serve 12 months probation, perform 60 hours of community service, and pay HUD $22,500
in restitution. In March 2005, Jones obtained a HUD-owned property and received a $22,500 discount, but
Jones allegedly failed to reside in the property or report his nonresidency on HUD certifications.

                                                   nnn




Chapter 1 - Single-Family Housing Programs                                                                      21
        Scott Archer, the founder of Dominion Investment Group, was sentenced in Genesee County District
     Court, Flint, MI, to 29 to 60 months incarceration for his earlier guilty plea to making false pretenses and
     committing attempted racketeering. From September 2009 to February 2010, Archer falsely claimed
     ownership of 70 homes, including two HUD real estate-owned properties, and fraudulently transferred the
     ownership of these properties to other individuals. HUD losses have not yet been determined.

                                                           nnn

         William Huston, Jr., a former owner of All-Star Mortgage, was sentenced in Madison County Superior
     Court, Anderson, IN, to 8 years incarceration, 2 years home detention, and 8 years probation and ordered
     to pay First American Title $202,000 in restitution for his earlier guilty plea to committing financial institution
     fraud and misappropriation or conversion of money received or held in a title insurance escrow account.
     In July 2008, Huston originated a $217,700 FHA-insured refinance mortgage but failed to pay off the first
     mortgage and diverted $217,700 into his personal accounts.

                                                           nnn




22                                                                          Chapter 1 - Single-Family Housing Programs
Inspections and Evaluations
    The HUD OIG Office of Investigation’s Inspections and Evaluations Division’s activities are designed to
promote economy, efficiency, and effectiveness in the administration of HUD programs; detect and deter
fraud and abuse in HUD programs and operations; and ensure compliance with applicable laws and
regulations. The office conducts inspections and evaluations using various study methods and evaluative
techniques to provide timely information to improve policies, programs, and procedures.

Evaluation of Home Equity Conversion Mortgage Loan Payments Made
After Death of Borrower
    HUD OIG conducted an evaluation of HECM loan payments made after the death of borrowers. A
query of the HUD Single Family Data Warehouse disclosed that servicers of HECM loans were making
payments to borrowers after the borrowers’ date of death. Therefore, OIG conducted a review to validate
the HECM data and to determine whether such payments resulted in a financial loss to HUD.

     Although scheduled payments were not made after the date of death of the borrower, they were
incorrectly recorded in HUD’s Insurance Accounting Collection System by lenders. Additionally, loan
proceeds from the sale of property and claims paid by HUD were not credited to HECM loan balances in a
timely manner, resulting in inaccurate information being reported in the Single Family Data Warehouse and
unreliable financial data being used by HUD. While a few instances were noted, in which unscheduled
advance payments were made after the death of the borrower, which resulted in overstated claims being
paid by HUD, this does not appear to be a systemic problem. Instances in which HECM loan servicing
files contained indications of suspicious or potentially fraudulent transactions were also noted; however,
there was no evidence that such matters were referred to HUD for further action.

   The timely reconciliation of HECM loan payment data by lenders and a more comprehensive policy of
detecting and reporting fraud will benefit the HECM program. (I&E Report: IED-11-004R)

                                                  nnn




Chapter 1 - Single-Family Housing Programs                                                                    23
Chapter 2 - Public and Indian
Housing Programs
         The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to 4,100
     public housing agencies (PHA) nationwide. Many PHAs administer both public housing and Section 8
     programs. HUD also provides assistance directly to PHAs’ resident organizations to encourage increased
     resident management entities and resident skills programs. Programs administered by PHAs are designed
     to enable low-income families, the elderly, and persons with disabilities to obtain and reside in housing
     that is safe, decent, sanitary, and in good repair. In addition to the audits and investigations described in
     this chapter, HUD’s Office of Inspector General (OIG), has conducted a number of outreach efforts (see
     chapter 8, page 111).


     Audit
                     Strategic Initiative 2: Contribute to the reduction of erroneous
                                       payments in rental assistance
      Key program results                              Questioned costs              Funds put to better use
            Audit               42 audits*                $21.4 million                     $12.7 million
             Our                 Page 27          •   Section 8 Housing Choice Voucher program
            focus                Page 29          •   Public Housing Capital Fund programs
                                 Page 30          •   Public housing program activities

     * The total public and Indian housing audits, questioned costs, and funds put to better use amounts include any
     American Recovery and Reinvestment Act of 2009 (29 audits) and disaster recovery (1 audit) type audits conducted
     in the public and Indian housing area. The writeups for these audits are shown separately in chapters 5 and 6 of
     this semiannual report.




                 Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                     during this reporting period



                                                                                          Region 1 - 12%
                                                                                          Region 2 - 9%
                                                                                          Region 3 - 12%
                                                                                          Region 4 - 2%
                                                                                          Region 5 - 17%
                                                                                          Region 6 - 10%
                                                                                          Regions 7/8/10 - 12%
                                                                                          Region 9 - 14%
                                                                                          Region 11 - 12%




26                                                                    Chapter 2 - Public and Indian Housing Programs
    During this reporting period, OIG reviewed HUD’s controls over the Section 8 Housing Voucher program,
the Public Housing Capital Fund (Capital Fund) program and public housing activities.

Section 8 Housing Choice Voucher Program
    Audits of the Section 8 Housing Choice Voucher program continued to be a priority during this
semiannual reporting period. PHAs were selected for audit based on risk analysis and/or hotline complaints.
While OIG’s objectives varied by auditee, the majority of reviews were to determine whether the units
met housing quality standards, the PHA managed the program according to HUD requirements, and the
eligibility of the tenants was correctly determined. The following section illustrates the audits conducted
in the Section 8 Housing Choice Voucher program area.

                                                   nnn

    HUD OIG audited the Section 8 Housing Choice Voucher program of the Cuyahoga Metropolitan Housing
Authority in Cleveland, OH, and found that the Authority failed to operate HUD programs according to
HUD’s and its own requirements. Its program administration regarding housing unit conditions was
inadequate. Of the 82 program units inspected, 76 did not meet minimum housing quality standards, and
50 had material violations that existed before the Authority’s previous inspections.

     The Authority did not always comply with HUD’s requirements, its action plan, and its program procedures
in administering its Family Self-Sufficiency program. It failed to maintain required documentation for 64 of
its 71 program participants with an escrow balance and all 22 of its graduates with escrow disbursements.
In addition, it failed to maintain accurate escrow balances for 69 participants with escrow balances or
issue accurate escrow disbursements to all of its graduates.

    The Authority did perform timely housing quality standards unit inspections. OIG reviewed 58,805
inspections for 14,344 tenants and determined that the Authority’s timeliness of inspections was sufficient.

     OIG recommended that HUD require the Authority to (1) reimburse its program from non-Federal funds
for the improper use of more than $100,000 in program funds, (2) provide documentation or reimburse
its program nearly $550,000 from non-Federal funds for the unsupported housing assistance payments,
and (3) implement adequate procedures and controls to address the findings cited to prevent nearly $9.6
million in program funds from being spent on excessive housing assistance payments over the next year.
(Audit Report: 2011-CH-1011)

                                                   nnn

   HUD OIG audited the Housing Choice Voucher program and Federal public housing programs at the
Weymouth, MA, Housing Authority and found that the Authority (1) approved rents without adequately
performing rent reasonableness determinations, (2) did not adequately perform and monitor the Housing
Choice Voucher program’s housing quality standards process, (3) did not have an adequate cost allocation
plan, (4) did not adequately perform procurements in compliance with HUD regulations and its own
procurement policy, and (5) did not have a policy to ensure that Housing Choice Voucher program receipts
were used only for the program. In addition, the Authority submitted its 2010 Section 8 Management
Assessment Program in late February 2011 and self-certified to items that it did not perform.

     OIG recommended that HUD require the Authority to (1) provide supporting documentation to show
that the rents were reasonable for units for which the Authority paid more than $1.7 million in housing
assistance in 2009 and more than $2 million in 2010 or repay from non-Federal funds any unsupported costs
to its housing assistance payment reserve account; (2) repay from non-Federal funds the Housing Choice



Chapter 2 - Public and Indian Housing Programs                                                                  27
     Voucher program housing assistance payment costs of nearly $12,000 that should have been abated for
     units that were materially noncompliant with housing quality standards; (3) reimburse the Federal public
     housing and Housing Choice Voucher programs more than $159,000 from non-Federal sources and any
     additional amounts determined to be improperly allocated based on an equitable cost allocation plan and
     supporting documentation; (4) support the use of nearly $70,000 paid for services that were not properly
     procured by soliciting price or rate quotations from three sources to procure a fee accountant, Housing
     Choice Voucher program inspector, attorney, and independent public accountant or reimburse the Federal
     programs for any unreasonable amounts paid; and (5) develop and implement a plan to ensure that the
     Authority records and reconciles interprogram fund transactions monthly to correct any imbalances. (Audit
     Report: 2011-BO-1009)

                                                         nnn

         HUD OIG audited the Housing Authority of the City of Camden, NJ’s administration of its housing quality
     standards inspection program for its Section 8 Housing Choice Voucher program and found that the Authority
     did not ensure that its program units met housing quality standards. Of 17 units inspected, 16 did not meet
     HUD’s housing quality standards, 10 of which were in material noncompliance with HUD’s standards. The
     Authority spent nearly $30,000 in program and administrative funds for these 10 units. In addition, it did
     not properly identify life-threatening violations, conduct timely reinspections or maintain documentation
     to show that owners made repairs within specified time limits, and abate assistance payments to owners
     for units that did not meet housing quality standards.

         OIG recommended that HUD require the Authority to (1) ensure that housing units inspected during the
     audit are repaired to meet HUD’s housing quality standards; (2) reimburse its program from non-Federal
     funds for the improper use of program and administrative funds for units that materially failed to meet
     HUD’s standards; and (3) develop and implement adequate controls to ensure that program units meet
     housing quality standards, inspectors are periodically provided training, quality control inspections are
     thorough, and the results are used to improve the program. OIG also recommended that HUD require the
     Authority to revise and update its administrative plan to ensure that violations are properly categorized and
     repairs are completed within the prescribed time limits and that it abates housing assistance payments in
     accordance with HUD requirements. (Audit Report: 2011-PH-1013)

                                                         nnn

         HUD OIG audited the Housing Choice Voucher program at the Fall River Housing Authority in Fall
     River, MA, and found that the Authority generally administered its program efficiently and effectively and
     in compliance with its annual contributions contract and HUD regulations. However, it did not always
     perform its housing quality standards inspections in a timely manner, adequately monitor the results of its
     contract inspectors, and properly abate rents if necessary. Thirty-eight housing quality standards inspections
     were late and clearly outside the timeframes required by HUD under the Authority’s third-party inspection
     contract. As a result, the Authority did not (1) earn a portion of the more than $7,000 in paid administrative
     fees, (2) always comply with HUD procurement regulations and its own procurement policy, and (3) ensure
     that travel incurred for Federal programs was in accordance with HUD regulations.

         OIG recommended that HUD require the Authority to (1) repay a portion of the unearned administrative
     fees paid by HUD and document the results of the remaining 17 housing quality standards inspections to
     determine whether rents needed to be abated; (2) update delegation and procurement policy to include
     duties assigned and delegated, maintain a program contract register, develop procedures to ensure that a
     cost benefit analysis is conducted and documented, and document the method for conducting technical
     evaluations of bid responses and proposals; and (3) revise its travel policy and obtain approval of the policy
     from the Authority’s board of commissioners. (Audit Report: 2011-BO-1011)



28                                                                   Chapter 2 - Public and Indian Housing Programs
Public Housing Capital Fund Programs
    HUD OIG audited the Housing Authority of the City of Long Branch, NJ’s administration of its Capital
Fund and Capital Fund Financing Programs to determine whether Authority officials obligated and disbursed
Capital Fund and Capital Fund Financing Program funds in accordance with HUD regulations and maintained
a financial management system that complied with program requirements.

    Authority officials generally obligated and disbursed Capital Fund and Capital Fund Financing Program
funds in accordance with HUD regulations and maintained a financial management system that complied
with program requirements. However, they received add-on subsidy incentive payments from HUD to repay
an energy performance contract loan to which they were not entitled because they had already used capital
funds for the repayment. In addition, Authority officials did not use proceeds from the sale of Authority
land for the activities initially approved by HUD. Consequently, the Authority received approximately
$1.1 million and was scheduled to receive more than $1.4 million in additional add-on subsidy incentive
payments to which it was not entitled and used $5 million to fund activities that, while allowable by HUD
regulations, were not for the purposes HUD had initially approved.

    OIG recommended that HUD (1) instruct Authority officials to repay the add-on subsidy incentive and
strengthen controls to ensure that HUD is informed in a timely manner of any changes to HUD’s approved
use of Authority funds and (2) deobligate the obligated add-on subsidy incentive to which the Authority
would have been entitled. (Audit Report: 2011-NY-1013)

                                                    nnn

   HUD OIG audited the Housing Authority of the City of Elizabeth, NJ’s administration of its Capital Fund
program to determine whether Authority officials (1) obligated and expended capital funds in accordance
with HUD regulations and (2) implemented a financial management system in compliance with program
requirements.

    Authority officials did not always obligate or expend capital funds in accordance with program regulations
or implement a financial management system in compliance with program requirements. Specifically,
they obligated and expended funds without adequate supporting documentation and did not ensure that
financial monitoring and reporting were complete and accurate. Consequently, approximately $1.8 million
was improperly recorded as obligated in HUD’s Line Of Credit Control System, nearly $96,000 was drawn
down without adequate documentation, reclassification of more than $394,000 in administrative costs to
other budget line items was unsupported, and the status of program funds was not effectively monitored.

    OIG recommended that HUD instruct Authority officials to ensure that program funds are properly
obligated, provide adequate supporting documentation for program drawdowns, provide documentation
to adequately support the reclassification of administrative costs to other budget line items, and strengthen
financial controls over the administration of its program funds. (Audit Report: 2011-NY-1011)

                                                    nnn

    HUD OIG performed a limited review of the Housing Authority of the City of Long Branch, NJ’s
administration of its Capital Fund and Capital Fund Financing Programs based on an earlier audit finding
(Audit Report: 2011-NY-1013) that Authority officials had not accurately accounted for some transactions
with its affiliated entities. The objective was to review the Authority’s processes for recording these
transactions.

   Authority officials did not properly allocate, among the Authority’s seven asset management projects,



Chapter 2 - Public and Indian Housing Programs                                                                   29
     funds received from its for-profit entity as reimbursement for services the Authority’s maintenance staff
     provided to this entity. As a result, one asset management project was credited with approximately $1,000
     in excess reimbursement, and Authority officials did not properly reflect the operating cost of the Authority’s
     asset management projects. In addition, Authority officials transferred more than $12,000 in Section 8
     certificate reserves set aside for the purchase and renovation of local houses to fund its for-profit entity’s
     startup costs and $53,000 to its redevelopment fund. As a result, funds were used for purposes other than
     those initially approved by HUD.

         OIG recommended that HUD instruct Authority officials to reallocate the excess credit to the appropriate
     asset management project(s), thereby ensuring that each project’s costs are proper, and request HUD
     approval of the use of the reallocated Section 8 certificate reserves of more than $65,000 to ensure that
     the funds were reallocated in accordance with 24 CFR (Code of Federal Regulations) 982.155(b)(1), thus
     ensuring that all funds are put to better use. (Audit Memorandum: 2011-NY-1803)

     Public Housing Program Activities
         HUD OIG audited the Saginaw, MI, Housing Commission’s Capital Fund program to determine whether
     selected recommendations from audit report number 2006-CH-1018 had been implemented and whether
     the Commission used HUD funds for unapproved purposes.

        The Commission did not fully implement prior audit recommendations and continued to use its program
     funds for ineligible purposes. HUD and the Commission did not enter into a repayment agreement for
     recommendations 1C and 2A from audit report number 2006-CH-1018 until January 24, 2011. The repayment
     agreement stated that the Commission agreed to make payments beginning February 1, 2011, and ending
     March 1, 2014. The Commission made its first payment on June 7, 2011. It also continued to use program
     revenues for ineligible purposes.

         The Commission did not effectively administer its HUD programs and violated HUD’s and its own
     requirements. Specifically, it did not ensure that capital funds were drawn and expended for eligible
     purposes. The Commission inappropriately used more than $1.5 million in capital funds, was unable to
     support the use of nearly $395,000 in capital funds, maintained capital funds on hand in excess of $411,000,
     caused the U.S. Treasury to lose more than $71,000 in interest, inappropriately earned more than $13,000
     in interest from its bank, and did not appropriately categorize nearly $822,000 in capital fund draws from
     HUD’s system.

        The Commission did not ensure that it’s Public Housing Operating Fund, Section 8 Housing Choice
     Voucher, and Homeownership program funds were used for eligible purposes. It inappropriately used
     nearly $181,000 and was unable to support the use of more than $30,000 in program funds.

          The Commission did not ensure that the Capital Fund and Operating Fund program funds were used
     for eligible purposes. It inappropriately used more than $127,000 in capital funds to demolish structures at
     its inappropriately obtained property and used nearly $108,000 in operating funds to operate and maintain
     the property.

         OIG recommended that HUD require the Commission to (1) reimburse its program from non-Federal
     funds for the improper use of more than $2 million in program funds, (2) provide documentation or
     reimburse its program more than $836,000 from non-Federal funds for the unsupported payments, and (3)
     implement adequate procedures and controls to address the findings cited. (Audit Report: 2011-CH-1012)

                                                         nnn




30                                                                   Chapter 2 - Public and Indian Housing Programs
    HUD OIG audited HUD’s oversight of tenants who improperly received multiple housing subsidies in
the Section 8 and public housing programs to determine whether HUD ensured that housing authorities
resolved items listed on the Enterprise Income Verification (EIV) system’s multiple subsidy report in a
reasonable amount of time.

    HUD did not ensure that housing authorities resolved an estimated 3,636 items listed on the EIV multiple
subsidy report in a reasonable amount of time to eliminate the occurrence of an estimated nearly $341,000
in improper subsidy payments.

    OIG recommended that HUD (1) notify housing authorities of the possible imposition of sanctions
on those housing authorities that fail to recover or attempt to recover improper subsidy payments or to
properly use the EIV system, (2) modify the EIV multiple subsidy report to show the date that the tenant was
flagged as potentially receiving multiple rental assistance and include an aging table to identify how long
tenants have appeared on the report, and (3) implement a process to monitor and follow up with housing
authorities on all tenants listed on the EIV multiple subsidy report that have been flagged for 6 months
or more and ensure that housing authorities implement appropriate corrective action(s) to eliminate the
occurrence of improper subsidy payments. (Audit Report: 2011-KC-0003)

                                                   nnn

    HUD OIG audited the Housing Authority of the City of Mountain Grove, MO, to determine whether
the Authority complied with contract procurement regulations and properly disposed of property assets.

    The Authority did not comply with HUD procurement regulations or its own procurement policies.
It did not ensure a fair and competitive procurement process, selected the highest quotations without
justification, and did not retain records pertinent to the procurement of three contracts. The Authority
lacked detailed operational procedures to implement its procurement policies and improperly disposed
of an Authority vehicle and more than 200 appliances without obtaining board approval, establishing fair
value, and consistently documenting the disposal. Management disregarded existing asset management
policies, and the Authority lacked detailed operational procedures to implement its policies.

    OIG recommended that HUD (1) ensure that the Authority develops and implements detailed operational
procedures that fully implement its procurement and assets disposal policies; (2) require the Authority to
provide justification for two awards given to the highest bidder or refund HUD; and (3) take appropriate
administrative actions, up to and including debarment, against an Authority board member for her part in
the procurement violations identified. (Audit Report: 2011-KC-1004)

                                                   nnn

    HUD OIG audited HUD’s controls over PHAs’ reporting and accounting for pension and other
postemployment benefit obligations to determine whether HUD verified that PHAs (1) submitted
independent public accountant reports that complied with HUD and Governmental Accounting Standards
Board requirements when reporting on accrued pension liability and other postemployment benefit
obligations, (2) properly reported supporting information for their computations of the pension and other
postemployment liability costs, and (3) reported that they set aside the necessary amount of monetary
assets to meet their accrued pension and other postemployment benefit obligations.

   HUD had procedures to generally ensure that PHAs properly reported and accounted for pension and
other postemployment liabilities and reported that they reserved sufficient funds to cover these costs.
Specifically, HUD (1) reasonably verified that PHAs submitted financial data schedules and independent
public accountant reports that generally complied with HUD and Governmental Accounting Standards Board




Chapter 2 - Public and Indian Housing Programs                                                                 31
     requirements when reporting on accrued pension liabilities and other postemployment benefit obligations
     and (2) generally verified that PHAs properly reported supporting information for their computations of
     pension and other postemployment liability costs. However, improvements could be made in the financial
     reporting process.

         OIG recommended that HUD require PHAs to report more information on pension and other
     postemployment benefit obligations by prescribing a contra-asset line item in the restricted monetary asset
     section of its financial data schedule template where PHAs can report amounts (such as contributions,
     earmarks, forfeitures, etc.) that they will use to pay their future pension and other postemployment benefit
     obligations. (Audit Report: 2011-NY-0002)

                                                        nnn




32                                                                 Chapter 2 - Public and Indian Housing Programs
Investigations
   Some investigations discussed in this report were generated from leads provided by HUD public
and Indian housing program staff and conducted jointly with Federal, State, and local law enforcement
agencies. The results of various significant investigations are described below.


                Strategic Initiative 2: Contribute to the reduction of erroneous
                                  payments in rental assistance
    Key program                Cases                     $             Convictions/pleas/       Admin/civil
       results                 closed                recovered             pretrials             actions

    Investigations               259                 $8,852,181                  283                    294
         Our                   Page 34           •   Public housing agency theft/embezzlement
        focus                  Page 34           •   Rental assistance fraud
                               Page 35           •   FedRent Initiative
                               Page 35           •   Fugitive Felon Initiative
                               Page 36           •   Civil and administrative actions
                               Page 37           •   Other fraud/crimes




                Chart 2.2: Percentage of OIG public and Indian housing closed
                       investigation cases during this reporting period


                                                                                       Region 1 - 8%
                                                                                       Region 2 - 6%
                                                                                       Region 3 - 7%
                                                                                       Region 13 - 7%
                                                                                       Region 4 - 6%
                                                                                       Region 14 - 7%
                                                                                       Region 5 - 10%
                                                                                       Region 15 - 8%
                                                                                       Region 6 - 10%
                                                                                       Regions 7/8 - 10%
                                                                                       Region 9 - 8%
                                                                                       Region 10 - 9%
                                                                                       Region 11 - 4%




Chapter 2 - Public and Indian Housing Programs                                                                33
     Public Housing Agency Theft/Embezzlement
        Darlene McDaniel, the former Thomaston Housing Authority (Thomaston) assistant executive director,
     and Thomaston contractor Lance McDaniel were each convicted in U.S. District Court, Macon, GA, of
     committing a conspiracy. From October 2009 to July 2010, Darlene and Lance McDaniel and other individuals
     conspired, created a fictitious company, and fraudulently obtained about $137,000 in Thomaston funds.

                                                           nnn

         Kerri Bizzell, a former Philadelphia Housing Authority (Philadelphia) contracting officer, pled guilty in
     U.S. District Court, Philadelphia, PA, to committing extortion and obstruction of justice. From December
     2007 to May 2008, Bizzell solicited and accepted about $25,000 in kickbacks from Philadelphia contractors
     in exchange for housing authority contracts.

                                                           nnn

         Tim Kraus, the former Marshfield Community Development Authority (Marshfield) executive director,
     was sentenced in U.S. District Court, Madison, WI, to 3 months incarceration and 12 months supervised
     release and ordered to pay Marshfield $9,921 in restitution for his earlier guilty plea to committing theft
     from a program receiving Federal funds. From July 2008 to June 2009, Kraus increased his salary without
     authorization, used Marshfield funds for unauthorized expenditures, and obtained and used a Marshfield
     credit card for personal purchases.

                                                           nnn

         Edward Washburn, the former Cheyenne River Housing Authority (Cheyenne River) director of
     modernization, was sentenced in U.S. District Court, Pierre, SD, to 1 year and 1 day incarceration and 3
     years supervised release, ordered to pay Cheyenne River $7,500 in restitution, and fined $10,800 for his
     earlier guilty plea to corruptly accepting a thing of value and being influenced in a transaction involving
     Federal program funds. From September 2005 to October 2008, Washburn accepted more than $7,500 in
     kickbacks from a Cheyenne River contractor in exchange for housing authority contracts.

                                                           nnn

         George Robinson, the former Havre De Grace Housing Authority (Havre De Grace) executive director,
     was sentenced in U.S. District Court, Baltimore, MD, to 6 months home detention and 3 years supervised
     probation and fined $1,200 for his earlier guilty plea to committing bribery. In May 2009, Robinson accepted
     $1,200 in cash from a Havre De Grace employee in exchange for future housing authority contracts.

     Rental Assistance Fraud
         Ernestina Marimon, a New York City Housing Authority (New York City) public housing tenant, New York
     City Housing Preservation and Development Housing Choice Voucher program participant, and Section 8
     tenant through a number of HUD-subsidized multifamily housing developments, pled guilty in U.S. District
     Court, Manhattan, NY, to making false statements and committing theft of government funds. In addition,
     New York City housing recipients Ana Contreras, Yolanda Cuadrado, and Julienne Sialeu were collectively
     sentenced to 3 months incarceration, 6 months home detention, and 36 months supervised release and
     ordered to pay New York City $165,091 in restitution for their earlier conviction of or guilty pleas to committing
     theft of government funds or making false statements or transactions with HUD. Between July 2001 and
     December 2010, Marimon failed to report her nonresidency in four HUD-subsidized housing units, the




34                                                                     Chapter 2 - Public and Indian Housing Programs
remaining defendants failed to report income or assets on housing certifications, and they collectively
obtained more than $345,091 in housing assistance they were not entitled to receive.

    Eleven Palm Beach County, Boca Raton, Pahokee, and West Palm Beach Housing Authority or Florida
Housing Finance Corporation housing recipients were collectively sentenced in Palm Beach County
Circuit Court, West Palm Beach, FL, to 470 days incarceration and 288 months supervised release and
ordered to pay HUD or the above housing authorities $279,012 in restitution for their earlier guilty pleas
to committing grand theft, forgery, or public assistance fraud. Between February 2006 and May 2011, the
above defendants failed to report income or accurate household compositions on housing certifications
and collectively obtained $300,369 in housing assistance they were not entitled to receive.

Fed Rent Initiative
    HUD’s most recent study estimates the combined gross improper rental housing assistance payments
to have been more than $1 billion in fiscal year 2008. In an effort to combat administrative overpayments
and tenant fraud, HUD and HUD OIG commenced “Operation FedRent,” a joint effort to address rental
assistance fraud involving Federal employees. Operation FedRent compares HUD tenant data to current
and retired Federal employee information maintained by the U.S. Office of Personnel Management. After
the data comparison, an income eligibility determination is made, and the Social Security numbers for
family members 6 years of age and older are verified. If a discrepancy exists, an investigation is opened
and appropriate administrative or legal actions are initiated to collect any overpaid housing assistance.
Results of Operation FedRent during this semiannual reporting period are described below.

                                                    nnn

    Denise Davis, a former Newark Housing Authority (Newark) Section 8 tenant and legal assistant for
the U.S. Attorney’s Office, was convicted in U.S. District Court, Newark, NJ, of making false statements
to HUD and committing theft of HUD funds. In addition, former Newark Section 8 tenant and U.S. Postal
Service employee Violet Berry-Simmons was sentenced to 24 months probation and ordered to pay HUD
$27,288 in restitution for her earlier guilty plea to committing theft of government funds. Between July 2003
and April 2007, Davis and Berry-Simmons failed to report income on housing certifications and together
obtained about $145,288 in housing assistance they were not entitled to receive.

Fugitive Felon Initiative
     OIG supports a Fugitive Felon Initiative (FFI) by matching HUD housing assistance information with
fugitive felon data from the National Crime Information Center. OIG special agents actively participate in a
joint Federal, State, city, and county law enforcement effort to locate and apprehend fugitive felons wanted
for violent crimes. Conducted in most major cities throughout the United States and its territories, this
initiative places a strong emphasis on apprehending fugitive felons involved in gangs, homicides, sexual
assaults, or crimes against the elderly and children. Since the inception of the initiative, OIG has opened
and closed hundreds of cases, resulting in more than 8,847 arrests. OIG strongly supports this joint effort to
make HUD public and assisted housing safe places for families to live. Below are examples of FFI efforts.

                                                    nnn

    Seventeen Muskegon, Grand Rapids, Ann Arbor, Pontiac, Jackson, or Detroit Housing Commission
or Michigan State Housing Development Authority housing recipients or unauthorized residents were
arrested in Muskegon, Grand Rapids, Ann Arbor, Lincoln Park, Jackson, or Detroit, MI, on outstanding
State warrants for allegedly making false pretenses; failing to appear; committing kidnapping, assault and




Chapter 2 - Public and Indian Housing Programs                                                                   35
     battery, child neglect, welfare or unemployment fraud, or parole or probation violations; or manufacturing
     or delivering illegal substances.

                                                        nnn

         Ten Cuyahoga Metropolitan Housing Authority housing recipients and one unauthorized resident were
     arrested in Cleveland, OH, on outstanding State warrants for allegedly committing larceny, kidnapping,
     rape, or probation violations; possessing dangerous drugs; or failing to appear.

     Civil and Administrative Actions
        Doris Abeyta, the former Alamosa Housing Authority (Alamosa) executive director who previously
     pled guilty in U.S. District Court, Denver, CO, to committing embezzlement and money laundering, was
     debarred from procurement and nonprocurement transactions with HUD and throughout the Executive
     Branch of the Federal Government for 5 years. Between 1998 and 2006, Abeyta and other individuals
     embezzled more than $1.3 million in Alamosa funds when they generated or negotiated unauthorized
     housing authority checks.

                                                        nnn

         David Ford, the former Ripley Housing Authority (Ripley) executive director who was previously charged
     in U.S. District Court, Memphis, TN, with allegedly committing theft from a program receiving Federal
     funds and money laundering, was suspended from procurement and nonprocurement transactions with
     HUD and throughout the Executive Branch of the Federal Government pending the outcome of criminal
     proceedings or any related debarment actions. Between January 2009 and March 2010, Ford allegedly
     embezzled and personally used more than $250,000 in Ripley funds.

                                                        nnn

         Tracey White-Jenkins, the former Irvington Housing Authority (Irvington) Section 8 director who was
     previously sentenced in U.S. District Court, Newark, NJ, for her earlier guilty plea to committing theft of
     government funds and submitting a false Federal income tax return, was debarred from procurement and
     nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
     for 36 months. From November 2003 to May 2007, White-Jenkins fraudulently obtained, deposited, and
     personally used $106,376 in Irvington housing assistance payments.

                                                        nnn

         Sonny Vo, a former Norwood Housing Authority Section 8 landlord who previously pled guilty in U.S.
     District Court, Boston, MA, to committing mail fraud, was debarred from procurement and nonprocurement
     transactions with HUD and throughout the Executive Branch of the Federal Government for 3 years. From
     August 2001 to September 2008, Vo failed to report his residency in his subsidized housing unit and obtained
     $104,496 in housing assistance he was not entitled to receive.

                                                        nnn

         Rosilyn Brown, the former executive director of the Narragansett Indian Wetuomuck Housing Authority
     (Wetuomuck) who was previously charged in U.S. District Court, Providence, RI, with allegedly committing
     theft from a program receiving Federal funds, was suspended from procurement and nonprocurement
     transactions with HUD and throughout the Executive Branch of the Federal Government pending the




36                                                                 Chapter 2 - Public and Indian Housing Programs
outcome of criminal proceedings or any related debarment actions. From October 2008 to June 2009,
Brown allegedly embezzled and personally used more than $100,000 in Wetuomuck funds.

                                                    nnn

    Ann Jefferson, the South Delta Regional Housing Authority (South Delta) executive director who was
previously charged in U.S. District Court, Oxford, MS, with allegedly committing theft of government funds,
making false statements, and tampering with or retaliating against a government witness, was suspended
from procurement and nonprocurement transactions with HUD and throughout the Executive Branch of
the Federal Government pending the outcome of criminal proceedings or any related debarment actions.
From June 2010 to January 2011, Jefferson allegedly retaliated against three government witnesses who
were cooperating in an ongoing investigation involving South Delta.

Other Fraud/Crimes
    Niasha King, a St. John the Baptist Parish Housing Authority (St. John) public housing tenant, pled
guilty in U.S. District Court, New Orleans, LA, to committing wire fraud. In addition, Lester Gardner, Jr.,
and Orlando Brown were collectively sentenced to 75 months incarceration and 3 years probation and
ordered to pay St. John $864,651 and Union National Insurance Company $297,345 in restitution for their
earlier guilty pleas to committing wire fraud or aiding and abetting. The above individuals set fire to King’s
and other St. John housing units. HUD realized losses of about $573,480.

                                                    nnn

   Ernesto Casanova-Casanova, a former Puerto Rico Public Housing Administration (Puerto Rico) public
housing tenant, pled guilty in U.S. District Court, San Juan, PR, to committing a conspiracy to interfere with
commerce by threats or violence and a conspiracy to distribute narcotic controlled substances. From July
2006 to January 2009, Casanova-Casanova and other individuals conspired and extorted about $118,000
from North Constructors Group, Inc., a Puerto Rico Housing contractor.

                                                    nnn

    Nicole Hathaway, also known as Nicole Jones, a former loan officer doing business as Mortgage
Solutions II, LLC, pled guilty in U.S. District Court, Richmond, VA, to committing mail fraud. In addition,
Jodi Robinson, a former Richmond Redevelopment and Housing Authority (Richmond) and Central
Virginia Resource Corporation (Central Virginia) Housing Choice Voucher program landlord and real estate
agent, was sentenced to 51 months incarceration and 5 years supervised release and ordered to pay HUD
$105,047 and a number of financial institutions more than $1 million in restitution for her earlier guilty plea
to committing mail fraud. Between 2006 and 2010, Hathaway provided false documents or downpayment
funds used by Robinson, who fraudulently obtained conventional mortgages for six properties she placed
into the Richmond and Central Virginia Housing Choice Voucher programs. HUD realized losses of $105,000.

                                                    nnn

    Kim McAfee, a Washington Park, IL, police department detective and the owner of KLM Security
Services, an East St. Louis Housing Authority (East St. Louis) contractor, pled guilty in U.S. District Court,
East St. Louis, IL, to making false statements and committing mail and wire fraud. In February 2011,
McAfee caused the submission of false documents to East St. Louis that fraudulently claimed the payment
of $67,000 in retroactive pay for KLM employees.

                                                    nnn



Chapter 2 - Public and Indian Housing Programs                                                                    37
        Jerry Patton, a former Chicago Housing Authority (Chicago) Section 8 landlord, and Lashaun Dumas
     were collectively sentenced in U.S. District Court, Chicago, IL, to 12 months incarceration and 48 months
     probation and ordered to perform 500 hours of community service and pay HUD $20,804 and Deutsche
     Bank $40,184 in restitution for their earlier guilty pleas to committing wire fraud or theft of government
     funds. From December 2004 to June 2005, Patton and Dumas provided false information and fraudulent
     documents to obtain one FHA-insured and three conventional mortgages. In addition, Patton falsified
     property ownership documents, placed this property into the Chicago Section 8 program, and fraudulently
     obtained $20,804 in housing assistance payments he was not entitled to receive.

                                                       nnn

         Joshua Easter was sentenced in U.S. District Court, Gulfport, MS, to 84 months incarceration and
     5 years supervised release and ordered to pay Mississippi Regional Housing Authority VIII (Mississippi
     Regional) $6,380 in restitution for his earlier guilty plea to committing arson. In November and December
     2010, Easter set fire to two Mississippi Regional buildings.

                                                       nnn




38                                                                Chapter 2 - Public and Indian Housing Programs
Chapter 3 - Multifamily Housing
Programs
         In addition to multifamily housing developments with U.S. Department of Housing and Urban
     Development (HUD)-held or HUD-insured mortgages, the Department owns multifamily projects acquired
     through defaulted mortgages, subsidizes rents for low-income households, finances the construction or
     rehabilitation of rental housing, and provides support services for the elderly and handicapped.



     Audit
                      Strategic Initiative 2: Contribute to the reduction of erroneous
                                        payments in rental assistance
      Key program results                                 Questioned costs                Funds put to better use
             Audit                3 audits*                   $1.8 million                            ---
              Our                  Page 41           •   HUD’s multifamily housing subsidy payment review
             focus                                       process
                                   Page 41           •   Review of HUD’s Section 232 program
                                   Page 42           •   Owner and management agent operations




                      Chart 3.1: Percentage of OIG multifamily housing audit reports
                                       during this reporting period



                                                                                              Region 1 - 0%
                                                                                              Region 2 - 0%
                                                                                              Region 3 - 0%
                                                                                              Region 4 - 0%
                                                                                              Region 5 - 34%
                                                                                              Region 6 - 33%
                                                                                              Regions 7/8/10 - 0%
                                                                                              Region 9 - 33%
                                                                                              Region 11 - (N/A)*




     * This does not include disaster relief audits. See chapter 6 for these reviews.




40                                                                               Chapter 3 - Multifamily Housing Programs
HUD’s Multifamily Housing Subsidy Payment Review Process
   HUD’s Office of Inspector General (OIG) audited HUD’s multifamily housing subsidy payment review
process to determine whether HUD had adequate controls over the process.

    HUD’s oversight of its multifamily housing subsidy payment review process needs improvement.
Specifically, the review and processing of HUD’s multifamily housing subsidy payments relating to the
vouchers that exceeded the threshold amount, were submitted manually, or were submitted at least 1
year later than the voucher date were inadequate. HUD did not comply with its written voucher review
procedures. Of the 85 vouchers reviewed, the required information was not present in the system to
support nearly $589,000 of the more than $1.2 million in housing assistance payments for 30 vouchers.
In addition, more than $28.5 million was provided for 12 vouchers that were not in HUD’s Tenant Rental
Assistance Certification System and lacked a valid waiver for not being in the system, and a review of these
vouchers was not conducted as required by HUD’s regulations.

     As of May 13, 2010, HUD had paid 106 vouchers for contracts administered by traditional contract
administrators that totaled more than $2.5 million in housing assistance for the period October 1, 2008,
through November 30, 2009, without conducting a review as required by its system. In addition, based on
the review of four vouchers for contracts administered by performance-based contract administrators,
all four vouchers did not have the required information in the system to support more than $131,000 in
housing assistance payments.

    The system generated an incorrect message requiring a review of the vouchers by HUD for contracts
administered by performance-based contract administrators. As of January 27, 2010, 1,472 vouchers for
the period October 1, 2008, through November 30, 2009, had been identified by the system as requiring a
review by HUD. Also, the system did not select nine vouchers for which the voucher amount exceeded
the contract’s threshold amount, contrary to the voucher selection process. Further, staff other than
voucher specialists released payments on 34 vouchers for contracts administered by traditional contract
administrators without a review. As a result, HUD lacked assurance that housing assistance payments
totaling nearly $78,000 were provided in accordance with its regulations.

    OIG recommended that HUD (1) require the property owners or contract administrators to correct
deficiencies identified or offset subsidy payments totaling more than $830,000 and (2) implement adequate
procedures and controls to address the findings cited to correct an error in voucher processing at the rate
of 26.8 percent, or 1,054 of 3,932 vouchers. (Audit Report: 2011-CH-0002)

Review of HUD’s Section 232 Program
   HUD OIG audited HUD’s Section 232 program to determine whether HUD had implemented adequate
controls to properly monitor Section 232-insured mortgages.

    HUD had taken steps to strengthen the Section 232 program by implementing new monitoring controls.
However, additional steps can be taken to strengthen the controls, which were sometimes inconsistent or
vague, and ensure that punch lists are followed. Further, HUD could place a higher priority on enforcing
regulatory issues. By increasing these controls, it will more effectively monitor the program and be aware
of ongoing regulatory violations, which increase the likelihood of undetected program fraud, waste, and
abuse at its at-risk properties.

   OIG recommended that HUD develop and implement additional policies and procedures to strengthen
controls and detect, correct, and prevent regulatory violations. (Audit Report: 2011-FW-0002)




Chapter 3 - Multifamily Housing Programs                                                                       41
     Owner and Management Agent Operations
        HUD OIG reviewed the books and records of Saint Timothy’s Tower, a 114-unit HUD-insured (Section
     236) Section 8 multifamily project in Compton, CA, consisting of 1 high-rise elevator building, to determine
     whether the project was administered in accordance with HUD rules and regulations. Specifically, OIG
     wanted to determine whether project funds were used for eligible purposes and whether the project was
     decent, safe, sanitary, and in good repair.

         The owner-agent improperly used or lacked supporting documentation for the use of more than
     $286,000 in project funds. It inappropriately used more than $154,000 in project funds for nonproject
     (ineligible) purposes in violation of its regulatory agreement. The ineligible uses included nearly $95,000
     for senior enrichment; nearly $31,000 for a vacant lot; and more than $9,000 for lobbying, donations,
     and entertainment. Additional improper uses consisted of more than $8,000 paid to a resident to assist
     management in providing ineligible senior enrichment activities and unauthorized loans of more than
     $11,000. The owner also lacked documentation to support disbursements of more than $95,000 in office
     salaries and nearly $37,000 in bad debt expenses.

         The owner’s procurement activities were also not adequately supported in accordance with HUD
     requirements. As a result, the owner did not ensure that it obtained more than $146,000 in goods and
     services at a reasonable cost and in accordance with HUD rules and regulations. In addition, the owner
     did not always ensure that the project was decent, safe, sanitary, and in good repair. The inspections
     revealed that the building and 18 of the 32 units inspected did not meet HUD’s physical condition standards
     for HUD housing.

         OIG recommended that HUD require the owner-agent to (1) repay the project operating account more
     than $143,000 used for ineligible expenses from non-Federal sources; (2) support the bad debt expenses or
     repay the project’s operating account from non-Federal sources; (3) discontinue the practice of using project
     operating funds to pay for payroll advances; and (4) establish and implement controls and procedures
     to ensure compliance with the regulatory agreement and other HUD requirements for documenting
     payroll, using payroll advances, and maintaining procurement documentation and to ensure that all units,
     common areas, and the emergency call system are decent, safe, sanitary, and in good repair. OIG also
     recommended that HUD perform a limited review of St. Timothy’s Manor’s ineligible senior enrichment
     expenses. (Audit Report: 2011-LA-1011)

                                                        nnn




42                                                                        Chapter 3 - Multifamily Housing Programs
Investigations
   Some investigations discussed in this report were generated from leads provided by HUD multifamily
housing program staff and conducted jointly with Federal, State, and local law enforcement agencies.
The results of various significant investigations are described below.


                Strategic Initiative 2: Contribute to the reduction of erroneous
                                  payments in rental assistance
    Key program                Cases               $            Convictions/pleas/      Admin/civil
       results                 closed          recovered            pretrials            actions

   Investigations                52            $2,550,745                60                    43
         Our                   Page 44     •   Theft/embezzlement
        focus                  Page 44     •   Rental assistance fraud
                               Page 45     •   Other fraud/crimes




       Chart 3.2: Percentage of OIG multifamily housing closed investigation cases
                               during this reporting period



                                                                              Region 1 - 6%
                                                                              Region 2 - 8%
                                                                              Region 3 - 13%
                                                                              Region 13 - 10%
                                                                              Region 4 - 18%
                                                                              Region 14 - 4%
                                                                              Region 5 - 10%
                                                                              Region 15 - 6%
                                                                              Region 6 - 4%
                                                                              Regions 7/8 - 10%
                                                                              Region 9 - 7%
                                                                              Region 10 - 4%
                                                                              Region 11 - 0%




Chapter 3 - Multifamily Housing Programs                                                                43
     Theft/Embezzlement
        Danny Smith, an administrator for Hillcrest Hampton House, a HUD-subsidized multifamily housing
     development, pled guilty in U.S. District Court, Orlando, FL, to committing theft from a program receiving
     Federal funds. From November 2003 to March 2008, Smith fraudulently obtained, deposited, and personally
     used $248,770 in tenant rents.

                                                         nnn

        Wendy Barnett, an assistance manager for Vita Gardens, a HUD-subsidized multifamily housing
     development, was sentenced in New Jersey Superior Court, Newark, NJ, to 60 months probation and
     ordered to pay Bethel Non-Profit Housing Corporation $45,473 in restitution for her earlier guilty plea to
     committing theft by deception and forgery. From December 2008 to October 2009, Barnet falsified payroll
     records, forged signatures on checks, and obtained and personally used $45,473 in Vita Gardens operating
     funds.

                                                         nnn

         Betty Jefferson, the former president of St. Stephen Manor, Inc. (St.
     Stephen), a HUD-subsidized multifamily housing development, was
     sentenced in U.S District Court, New Orleans, LA, to 15 months home
     detention and 5 years probation and ordered to pay the State of Louisiana
     $604,581 in restitution for her earlier guilty plea to committing a conspiracy
     to commit mail fraud, aggravated identity theft, money laundering, and
     Federal income tax evasion. In addition, former State representative and City
     of New Orleans councilwoman Renee Pratt was convicted of committing a
     conspiracy to violate the Racketeer Influenced and Corrupt Organizations
     Act. From 1999 to 2006, Jefferson, Pratt, and other individuals conspired,
     embezzled, and personally used about $931,224 in Federal and State funds,
     including $9,230 in HUD housing assistance payments.

                                         nnn

         Joseph Driscoll, the maintenance director for ARCO Management,
     a former HUD management contractor who previously oversaw the
     management and maintenance of HUD-owned multifamily housing
     developments, was sentenced in U.S. District Court, Manhattan, NY, to 24
     months supervised release and fined $20,000 for his earlier guilty plea to
     making false transactions with HUD. In May and June 2000, Driscoll created
     false bids that enabled another contractor to receive a HUD contract, and in
     return, the contractor fraudulently subcontracted work to a company owned
                                                                                      Copyright 2011. The Times-
     and controlled by Driscoll.
                                                                                      Picayune, New Orleans, L A .
                                                                                      Reprinted with permission.
     Rental Assistance Fraud
         Bethel Wooten, a former Section 8 tenant at Academy Square Apartments, a HUD-subsidized multifamily
     housing development, was sentenced in Cook County Circuit Court, Chicago, IL, to 6 months incarceration
     and 3 years probation and ordered to pay HUD $124,000 in restitution for her earlier guilty plea to committing
     theft. Between 2001 and 2009, Wooten failed to report income on housing certifications and obtained
     $124,000 in housing assistance she was not entitled to receive.

                                                         nnn

44                                                                         Chapter 3 - Multifamily Housing Programs
    Jessica Almanzar, a former Section 8 tenant at Andrews Plaza Housing Association, a HUD-subsidized
multifamily housing development, was sentenced in U.S. District Court, Manhattan, NY, to 6 months home
confinement and 4 years probation and ordered to pay HUD $50,582 in restitution for her earlier guilty plea
to committing theft of government funds. From February 2006 to October 2010, Almanzar failed to report
income on housing certifications and obtained $50,582 in housing assistance she was not entitled to receive.

                                                   nnn

    John Martinez, a former unauthorized tenant at San Juan Del Centro Apartments (San Juan), a HUD-
subsidized multifamily housing development, was sentenced in Boulder District Court, Boulder, CO, to
12 months work release and 5 years probation and ordered to pay San Juan $43,886 in restitution for his
earlier conviction of committing theft and forgery and obtaining a signature by deception. From January
2000 to March 2010, Martinez duped a mentally challenged individual into claiming residency and providing
annual housing certifications for a subsidized housing unit, but Martinez resided in the subsidized housing
unit and fraudulently obtained $43,886 in housing assistance he was not entitled to receive.

Other Fraud/Crimes
    Jack Oliver and Megan Duckers, doing business as Metro Management, and Metro Management, entered
into a civil settlement filed in U.S. District Court, Kansas City, MO, and agreed to pay the U.S. Department
of Justice $30,000. From January 2001 to January 2004, Oliver, Duckers, and Metro Management allegedly
made unauthorized withdrawals from accounts related to Freedom House I, Freedom House II, and Hyde
Park Apartments, HUD-insured multifamily properties.

                                                   nnn




Chapter 3 - Multifamily Housing Programs                                                                       45
Chapter 4 - Community Planning and
Development Programs
         The Office of Community Planning and Development (CPD) seeks to develop viable communities
     by promoting integrated approaches that provide decent housing, suitable living environments, and
     expanded economic opportunities for low- and moderate-income persons. The primary means toward
     this end is the development of partnerships among all levels of government and the private sector. In
     addition to the audits and investigations described in this chapter, the U.S. Department of Housing and
     Urban Development, Office of Inspector General (HUD OIG), has conducted a number of outreach efforts
     (see chapter 8, page 113).


     Audit
                Strategic Initiative 3: Contribute to the strengthening of communities
      Key program results                             Questioned costs               Funds put to better use
            Audit               40 audits*               $56.4 million                     $29.5 million
             Our                 Page 49         •   Community Development Block Grant programs
            focus                Page 49         •   HOME Investment Partnerships Program
                                 Page 52         •   Neighborhood Stabilization Program
                                 Page 53         •   Supportive Housing Program and Housing Opportunities
                                                     for Persons With AIDS
     * The total CPD audits, questioned costs, and funds put to better use amounts include any American Recovery and
     Reinvestment Act of 2009 (29 audits) and disaster recovery (1 audit) type audits conducted in the CPD area. The
     writeups for these audits are shown separately in chapters 5 and 6 of this semiannual report.



                 Chart 4.1: Percentage of OIG community planning and development
                              audit reports during this reporting period



                                                                                         Region 1 - 2%
                                                                                         Region 2 - 15%
                                                                                         Region 3 - 5%
                                                                                         Region 4 - 30%
                                                                                         Region 5 - 7%
                                                                                         Region 6 - 8%
                                                                                         Regions 7/8/10 - 15%
                                                                                         Region 9 - 13%
                                                                                         Region 11 - 5%




48                                                      Chapter 4 - Community Planning and Development Programs
    HUD OIG audited the Community Development Block Grant (CDBG) program, the HOME Investment
Partnerships Program (HOME), the Neighborhood Stabilization Program (NSP), the Supportive Housing
Program (SHP), and Housing Opportunities for Persons With AIDS (HOPWA). While OIG’s objectives varied
by auditee, the majority of the reviews were to determine whether the grant funds were administered for
eligible activities and that the auditee met program objectives. The following section illustrates the audits
conducted in the CPD area.

Community Development Block Grant Programs
    HUD OIG audited the operations of the City of Buffalo, NY, pertaining to its administration of its CDBG
program and found that the City did not always follow applicable HUD regulations in its administration of
the program. In addition, it did not always ensure that CDBG funds were expended for eligible activities that
met a national objective of the program. Specifically, the City (1) disbursed CDBG funds for questionable
street improvement expenditures, (2) did not adequately monitor its subrecipient-administered economic
development program, and (3) charged ineligible and unsupported costs for clean and seal program
activities to the CDBG program. As a result, program funds were used for ineligible and unsupported
expenses, and the City’s ability to administer its CDBG program effectively and efficiently and ensure that
the program’s objectives were met was diminished. Consequently, the City was not able to demonstrate
that it made the best use of CDBG funds to meet the community’s needs.

    OIG recommended that HUD instruct the City to (1) reimburse from non-Federal funds more than
$467,000 for ineligible costs pertaining to street improvement projects not completed and clean and seal
code enforcement; (2) provide documentation to justify the more than $22.8 million in unsupported costs
for previously incurred general City maintenance expenses, transactions charged to the CDBG program
income account, and unsupported clean and seal program costs; (3) reprogram the more than $4.7 million
in remaining economic development project funds, if there is a lack of capacity, to ensure that these funds
are put to better use for other eligible program activities; and (4) ensure that more than $744,000 in fiscal
year 2010 clean and seal program funds will be put to better use by developing administrative control
procedures that will ensure compliance with CDBG program requirements. Any costs determined to be
ineligible should be reimbursed from non-Federal funds.

    Further, OIG recommended that HUD require the City to stop incurring costs or reimbursing itself for
costs paid from the City’s municipal general expense account for public facilities, economic development,
and clean and seal activities until HUD determines that the City has the capacity to carry out these activities
in compliance with HUD regulations. (Audit Report: 2011-NY-1010)

HOME Investment Partnerships Program
     HUD OIG audited the Municipality of San Juan, PR’s HOME program and found that the Municipality
disbursed more than $3.48 million for four activities that showed signs of slow progress without assurance
that the activities would generate the intended benefits. In addition, it failed to ensure that more than
$2.49 million of a community housing development organization’s (CHDO) proceeds was used for housing
efforts. The Municipality also disbursed more than $766,000 for two activities that were not carried out and
failed to reprogram more than $1.14 million in unexpended HOME funds for these terminated activities. As
a result, HUD had no assurance that funds were used solely for eligible purposes and that HOME program
objectives were met.

    The Municipality’s financial management system did not support the eligibility of more than $2.3 million
in disbursements and allowed the use of more than $2.2 million for ineligible expenditures. In addition,
the Municipality failed to disburse more than $2.8 million in HOME funds in a timely manner and did not




Chapter 4 - Community Planning and Development Programs                                                           49
     account for nearly $15,000 in HOME receipts. As a result, HUD lacked assurance that funds were adequately
     accounted for, safeguarded, and used for authorized purposes and in accordance with HUD requirements.

         The Municipality did not monitor the accuracy of commitments and other information reported in
     HUD’s Integrated Disbursement and Information System (IDIS). It reported to HUD more than $8.7 million
     in HOME commitments without executing written agreements and failed to reprogram and put to better
     use more than $1.6 million in unexpended HOME funds associated with terminated activities or for which
     additional disbursements were no longer needed. In addition, it provided inaccurate information on the
     amount of program income generated, amount of funding awarded, and program accomplishments. As a
     result, HUD had no assurance that the Municipality met HOME objectives, commitments, and disbursement
     requirements.

         OIG recommended that HUD determine the eligibility of more than $4.8 million disbursed from HOME
     funds on activities that showed signs of slow progress and for unsupported program costs. HUD should
     require the Municipality to reimburse the HOME program more than $3 million for ineligible project costs
     and activities that failed to meet program objectives. HUD should also require the Municipality to recapture
     or reprogram and put to better use more than $11.3 million in unexpended obligated funds, overstated
     commitments, and unexpended HOME funds maintained in its local bank account.

          OIG also recommended that HUD require the Municipality to develop and implement an internal control
     plan to ensure that (1) its HOME-funded activities meet the program objectives, (2) its HOME program
     has a financial management system that complies with HUD requirements, and (3) the program has
     controls and procedures which ensure that HOME requirements are followed and accurate information
     is reported to HUD. In addition, HUD should reassess the Municipality’s annual commitment compliance
     and recapture any amounts that have not been committed within HUD-established timeframes. (Audit
     Report: 2011-AT-1018)

                                                        nnn

          HUD OIG audited the Municipality of Mayaguez, PR’s HOME program and found that the Municipality
     disbursed more than $4.4 million for two activities that did not meet HOME program objectives and more
     than $2.8 million for an additional activity for which it could not support its compliance with HOME program
     objectives. As a result, HUD had no assurance that funds were used solely for eligible purposes and that
     HOME program objectives were met. Further, the Municipality’s financial management system did not
     support the eligibility of $1.5 million in disbursements and did not account for more than $23,000 in HOME
     receipts. In addition, the Municipality failed to disburse HOME funds in a timely manner and provided HUD
     with inaccurate information. As a result, HUD lacked assurance that funds were adequately accounted
     for, safeguarded, and used for authorized purposes.

         OIG recommended that HUD require the Municipality to (1) repay more than $4.7 million for ineligible
     expenditures that did not result in benefits to the HOME program, (2) provide supporting documentation
     to demonstrate the allocability and eligibility of more than $2.5 million in disbursements, (3) reprogram
     and put to better use more than $900,000 in unexpended funds for an activity that did not meet HOME
     program objectives, and (4) develop and implement an internal control plan to ensure that the HOME
     program has a financial management system that complies with HUD requirements and controls and
     procedures which ensure that HOME requirements are followed and accurate information is reported to
     HUD. (Audit Report: 2011-AT-1006)

                                                        nnn




50                                                     Chapter 4 - Community Planning and Development Programs
   HUD OIG audited the HOME program of the Idaho Housing and Finance Association in Boise, ID, and
found that Idaho Housing did not always comply with HOME project and cost eligibility requirements.
Specifically, it (1) did not always inspect acquisition and acquisition with rehabilitation projects for
compliance with property standards and (2) disbursed HOME funds to borrowers for ineligible and
unsupported costs.

    OIG recommended that HUD require Idaho Housing to perform or procure independent inspections for
property standards requirements and require owners to make necessary repairs. If repairs are not made
within a reasonable time, Idaho Housing should be required to reimburse its HOME trust fund from non-
Federal funds for the more than $2.6 million expended on these projects. In addition, Idaho Housing should
be required to (1) reimburse its HOME trust fund from non-Federal funds for about $58,000 expended on
ineligible costs, (2) provide supporting documentation for any portion of nearly $400,000 in expenditures
which it cannot support as being eligible, (3) implement effective policies and procedures, and (4) receive
technical assistance from HUD. (Audit Report: 2011-SE-1008)

                                                    nnn

    HUD OIG audited the City of Compton, CA’s HOME program and found that the City and its subrecipient
did not properly administer the program in accordance with HUD requirements. Required completion data
were not always entered to close out funded activities, and appropriate source documentation had not
been maintained to support activity costs or salary and wages charges. In addition, home-buyer eligibility
was not correctly determined, and HOME affordability requirements were not always maintained. Also,
HOME funds were not always used within the required timeframe, and program income was not always
appropriately processed to ensure compliance with HOME requirements.

    OIG recommended that HUD require the City to support or repay more than $2.2 million in HOME
withdrawals for unsupported activity expenditures, salaries, and wages. The City should also repay more
than $193,000 for two home buyers who were ineligible to receive assistance, $100,000 in HOME funds
used for a property that did not maintain affordability standards, and more than $72,000 that was drawn
for a cancelled activity. Policies and procedures should be established or revised as necessary for the
administration of the program, and the City should implement regular monitoring of its subrecipient.
(Audit Report: 2011-LA-1016)

                                                    nnn

     HUD OIG audited the City of Cleveland, OH’s HOME program and found that the City did not comply
with HUD’s requirements in its use of HOME funds to provide interest-free second mortgage loans to home
buyers through its Housing Trust Fund program and its use of recapture provisions for activities. It (1)
provided assistance for an ineligible activity, (2) lacked sufficient documentation to support that activities
were eligible, (3) did not implement appropriate recapture provisions for all of the activities reviewed,
and (4) did not ensure that its program was reimbursed for HOME funds used to assist a home buyer
in purchasing a home that was later sold through a sheriff ’s sale and ownership of the home had been
transferred. As a result, it inappropriately provided $20,000 in HOME funds to assist a household that was
not income eligible and was unable to support its use of $795,000 in HOME funds. Further, its program
was not reimbursed for $20,000 in HOME funds used for a home that was sold through a sheriff ’s sale and
ownership of the home had been transferred. In addition, the City is at risk of being required to reimburse
its program additional non-Federal funds if the ownership of additional homes acquired under its Housing
Trust Fund program is transferred through foreclosures.

    OIG recommended that HUD require the City to (1) reimburse its program from non-Federal funds
for the HOME funds inappropriately used to assist an activity, (2) provide supporting documentation or




Chapter 4 - Community Planning and Development Programs                                                          51
     reimburse its program $775,000 from non-Federal funds, (3) reimburse its program from non-Federal funds
     for the home that had been sold through a sheriff ’s sale and ownership of the home had been transferred,
     and (4) implement adequate procedures and controls to address the findings identified. (Audit Report:
     2011-CH-1014)

                                                       nnn

         HUD OIG audited the HOME program of East Orange Revitalization and Development Corporation in
     East Orange, NJ, and found that Corporation officials did not always comply with program requirements
     and applicable Federal regulations. Specifically, they (1) did not repay the City of East Orange’s HOME
     program nearly $38,000 in principal and accumulated interest for an overdue predevelopment loan and (2)
     expended more than $737,000 in HOME grants without maintaining adequate and complete documents
     to ensure their compliance with program requirements and applicable Federal regulations.

          OIG recommended that HUD instruct the City to (1) direct the Corporation to repay to the City’s HOME
     program a total of nearly $38,000 in principal and accumulated interest for an overdue predevelopment
     loan, (2) direct the Corporation to provide documents to support its compliance with HOME program
     requirements and applicable Federal regulations or reimburse the City’s HOME program more than $737,000,
     (3) obtain and review documents associated with the Corporation’s qualifications to determine whether
     it is qualified to be designated as a CHDO, and (4) direct the Corporation to establish and implement
     internal controls that will ensure compliance with HOME program requirements and applicable Federal
     regulations. (Audit Report: 2011-NY-1009)

                                                       nnn

        HUD OIG audited the City of East Orange, NJ’s compliance with the HOME program in regard to
     the eligibility of an awarded capacity-building grant and developer fees awarded to the East Orange
     Revitalization and Development Corporation.

        The City did not always comply with HOME program requirements, Federal regulations, and HOME grant
     agreements. Specifically, City officials authorized the Corporation to use HOME funds for (1) an ineligible
     capacity-building grant and (2) developer fees in excess of limits imposed by a HOME grant agreement
     between the City and the Corporation.

         OIG recommended that HUD instruct the City to (1) reimburse the HOME program’s line of credit more
     than $185,000 from non-Federal funds for the disbursed portion of the capacity-building grant that should
     not have been awarded to the Corporation; (2) reprogram nearly $15,000 associated with the undisbursed
     portion of the capacity-building grant to other eligible HOME program activities; (3) reimburse the HOME
     program’s line of credit nearly $95,000 from non-Federal funds for the disbursed portion of the excessive
     developer fees; (4) reprogram nearly $37,000 associated with the undisbursed portion of the excessive
     developer fees; and (5) establish and implement procedures to ensure that City officials comply with HOME
     program requirements, Federal regulations, and contractual agreements. (Audit Report: 2011-NY-1801)

     Neighborhood Stabilization Program
         HUD OIG audited the NSP administered by the City of Miami Gardens, FL, to determine whether the
     City administered its program in accordance with applicable HUD requirements. Specifically, OIG wanted
     to determine whether (1) expenditures were allowable and (2) activities met the program’s national
     objectives.

        The City met the national objective when it sold the eight program properties reviewed to qualified



52                                                    Chapter 4 - Community Planning and Development Programs
low-, moderate-, and middle-income persons. However, it did not adequately support salary expenditures
allocated to the program. Without supporting documentation to substantiate that the salary allocations
related to actual services performed by personnel, there was no assurance that the salary expenditures
were accurate and program related. As a result, nearly $427,000 allocated to the program for salaries was
unsupported.

     OIG recommended that HUD require the City to (1) provide supporting documentation or reimburse
its program nearly $427,000 for unsupported salary expenditures from non-Federal funds; (2) develop and
implement a salary allocation method that complies with 2 CFR (Code of Federal Regulations) Part 225;
and (3) develop, implement, and enforce written procedures for salary allocation among NSP and other
Federal and non-Federal programs to include documentation requirements for its employees. (Audit
Report: 2011-AT-1007)

Supportive Housing Program and Housing Opportunities for Persons
With AIDS
   HUD OIG audited the SHP and HOPWA competitive grants awarded to Pioneer Civic Services, Inc., in
Peoria, IL, to determine whether Pioneer effectively administered its SHP and HOPWA grants in accordance
with HUD’s and other Federal requirements.

    Pioneer did not effectively administer its SHP and HOPWA grants in accordance with HUD’s and other
Federal requirements. Specifically, Pioneer did not ensure that (1) its housing units met HUD’s habitability
standards and local code and (2) Riverside Apartments, a single-room occupancy rooming house for
chronically homeless persons with HIV-AIDS, and its four-unit apartment building (Perry Street) met Federal
and State accessibility requirements. Although Pioneer generally provided services to program participants
who were homeless with two exceptions, it inappropriately used funds from its SHP and HOPWA grants
to pay ineligible and unsupported expenses. As a result, HUD lacked assurance that more than $483,000
in funds from its SHP and HOPWA grants was used for eligible activities and to maintain its housing units
in decent, safe, and sanitary condition.

    OIG recommended that HUD require Pioneer to (1) certify that the applicable violations have been
corrected for the 30 housing units cited; (2) reimburse HUD $187,000 from non-Federal funds for the
housing units that failed to meet HUD’s habitability standards and local code; (3) implement adequate
procedures and controls to ensure that all of its units meet local and HUD habitability standards to prevent
funds from its SHP and HOPWA grants from being spent over the next year on units that do not comply with
applicable requirements; (4) ensure that its inspector is properly trained on HUD’s habitability standards
and local code; (5) discontinue funding for the operation of Riverside Apartments until Pioneer submits
written confirmation that the applicable accessibility code violations cited have been corrected; and (6)
implement adequate procedures and controls to ensure that the Perry Street building, including the one
accessible housing unit, complies with applicable accessibility requirements.

    OIG also recommended that HUD require Pioneer to (1) provide documentation to support the eligibility
of nearly $94,000 in SHP and HOPWA grant expenditures and reimburse HUD nearly $203,000 from non-
Federal funds for ineligible expenses, (2) develop and implement adequate procedures and controls to
ensure that funds from its SHP and HOPWA grants are only used for eligible activities, and (3) implement
adequate procedures and controls to ensure that it serves participants who are eligible to receive SHP
benefits. (Audit Report: 2011-CH-1017)

                                                   nnn




Chapter 4 - Community Planning and Development Programs                                                        53
                                                                                                                  54

     Investigations
         Some investigations discussed in this report were generated from leads provided by HUD CPD program
     staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
     significant investigations are described below.


                         Strategic Initiative 3: Contribute to the strengthening
                                             of communities
         Key program               Cases                  $             Convictions/pleas/      Admin/civil
            results                closed             recovered             pretrials            actions

        Investigations               67                $6,890,882               37                     19
              Our                 Page 55         •   Theft/embezzlement
             focus                Page 56         •   Civil and administrative actions
                                  Page 57         •   Other fraud/crimes




                 Chart 4.2: Percentage of OIG community planning and development
                       closed investigation cases during this reporting period


                                                                                      Region 1 - 8%
                                                                                      Region 2 - 3%
                                                                                      Region 3 - 3%
                                                                                      Region 13 - 10%
                                                                                      Region 4 - 10%
                                                                                      Region 14 - 3%
                                                                                      Region 5 - 3%
                                                                                      Region 15 - 4%
                                                                                      Region 6 - 5%
                                                                                      Regions 7/8 - 6%
                                                                                      Region 9 - 6%
                                                                                      Region 10 - 9%
                                                                                      Region 11 - 30%




54                                                    Chapter 4 - Community Planning and Development Programs
4
    Theft/Embezzlement
        Belinda Exon, the former owner and escrow administrator for Rehab Financial Corporation, an
    organization that manages HUD CPD and CDBG funds for a number of California municipalities, was
    sentenced in U.S. District Court, Los Angeles, CA, to 37 months incarceration and 3 years probation and
    ordered to pay several California municipalities more than $3.85 million in restitution for her earlier guilty plea
    to committing embezzlement of property from organizations that receive Federal funds. From September
    2002 to October 2008, Exon diverted and used about $3.9 million in HUD funds for personal investments.

                                                          nnn

        Yvette Goodwin was sentenced in U.S. District Court, Louisville, KY, to 12 months and 1 day incarceration
    and 3 years probation and ordered to pay HUD $831,752 in restitution for her earlier guilty plea to making
    false statements, committing a conspiracy, and obtaining kickbacks involving Federal funds. Between 2001
    and 2005, Goodwin and other individuals conspired and assisted previously sentenced Henry Humphrey,
    the former executive officer for Shiloh Baptist Church Community Renewal Center, an organization that
    received HUD Economic Development Initiative grant funds, when he fraudulently used more than $1.2
    million in HUD funding.

                                                          nnn

        Donald Miller, the president of Our Father’s Arms, Inc., an organization that receives HUD Special Needs
    Assistance program funds, pled guilty in U.S. District Court, Monroe, LA, to committing theft. From 2003
    to 2009, Miller fraudulently obtained and personally used $130,000 in HUD funds.

                                                          nnn

        Seth Butterfield, the former CDBG administrator for the City of Layton, UT, a municipality that receives
    HUD CDBG funds, pled guilty in U.S. District Court, Salt Lake City, UT, to committing a fraudulent transaction
    with HUD. Between October 2002 and July 2006, Butterfield, while employed as the Layton CDBG grant
    administrator, created a CHDO and became the CHDO executive director, awarded Layton CDBG contracts
    to fund the CHDO, and fraudulently obtained more than $116,000 in salary payments as the executive
    director of the CHDO at the same time he received salary payments as the Layton CDBG administrator.

                                                          nnn

        Ebony Nelson pled guilty in U.S. District Court, New Orleans, LA, to committing a conspiracy to steal
    government funds, and Sion Robert was sentenced to 3 years probation and ordered to pay HUD $16,935
    in restitution for her earlier guilty plea to committing a conspiracy to steal government funds. From July
    2006 to July 2008, Nelson, Robert, and other individuals conspired and stole $109,702 from House of Ruth,
    an organization that receives HUD SHP funds.

                                                          nnn

        Shakib Deria and Tabitha Goodner, employees of Ferguson Enterprises, Inc., and Excel Construction,
    each pled guilty in U.S. District Court, Detroit, MI, to committing a conspiracy to structure financial
    transactions or misprision of a felony. Between May 2003 and September 2010, Deria, Goodner, and
    other individuals conspired, rigged bids, structured financial transactions, submitted false documents,
    and fraudulently obtained more than $100,000 in HUD HOME and other program funds reserved for the
    rehabilitation of Gardenview Estates, a Detroit Housing Commission housing development.

                                                          nnn


    Chapter 4 - Community Planning and Development Programs                                                               55
         Arthur Johnson, the director of East St. Louis Community Development (Community Development), an
     organization that receives HUD HOME and other program funds, pled guilty in U.S. District Court, East St.
     Louis, IL, to corruptly accepting something of value in connection with a program receiving Federal funds
     and committing wire fraud and aiding and abetting. From April 2009 to March 2010, Johnson accepted cash
     payments from Kully Construction, Inc. (Kully), and approved fraudulent Kully expenses associated with
     the building of Bowman Estates, a low-income housing development partially funded with Community
     Development funds, in exchange for future employment with Kully. HUD realized losses of about $100,000.

                                                        nnn

        Anthony Jones, a former City of Perth Amboy, NJ, employee, pled guilty in New Jersey Superior Court,
     Trenton, NJ, to falsifying or tampering with records. Jones conspired with previously charged Perth Amboy
     Mayor Joseph Vas to rig a Perth Amboy lottery drawing that fraudulently awarded Jones $90,000 in HUD
     HOME program funds. HUD realized losses in excess of $90,000.

                                                        nnn

        Kimberly Schultz, a former director of Habitat for Humanity, an organization that receives HUD Self-
     Help Homeownership Opportunity and other program funds, was sentenced in Louisiana State Court,
     Covington, LA, to 96 months incarceration for her earlier guilty plea to committing theft. From June to
     November 2010, Schultz stole about $75,000 in cash from the Habitat for Humanity Re-Store.

                                                        nnn

         Gina Currera, a former employee of Tulane University Health Sciences Center (Tulane), an organization
     that receives HUD CDBG funds, was sentenced in Louisiana State Court, New Orleans, LA, to 6 months
     incarceration (suspended) and 6 months inactive probation and ordered to pay Tulane $29,517 in restitution
     for her earlier guilty plea to committing theft. From January 2008 to October 2010, Currera used a HUD-
     funded Tulane credit card and embezzled $29,517 in Tulane funds.

                                                        nnn

        Janice Morelock, a HUD HOME program participant through the Atchison County Housing Authority,
     was sentenced in Atchison County District Court, Atchison, KS, to 12 months probation for her earlier guilty
     plea to presenting a false claim. In September 2006, Morelock provided false information and fraudulently
     obtained $27,493 in HOME program funds.

                                                        nnn

         Mona Odom, the owner of Lurn-n-Ern, an organization that received HUD HOPWA grant funds, pled
     guilty in U.S. District Court, Washington, DC, to making a false statement. Between July and October
     2006, Odom created a fictitious employee, submitted a false invoice, and fraudulently obtained $15,180
     in HOPWA funds.

     Civil and Administrative Actions
         Josephine Moore, who previously pled guilty in U.S. District Court, Rochester, NY, to committing theft
     of government funds, was debarred from procurement and nonprocurement transactions with HUD and
     throughout the Executive Branch of the Federal Government for 3 years. Between March and October
     2008, Moore provided false information when she applied for and obtained $24,000 in HUD Community
     Block Lead Abatement Grant funds from the City of Rochester.

                                                        nnn

56                                                     Chapter 4 - Community Planning and Development Programs
    Brian Jeremiah, the former executive director of Shamokin Redevelopment Authority and clerk for
the City of Shamokin, PA, who was previously sentenced in U.S. District Court, Williamsport, PA, for his
earlier guilty plea to making fraudulent transactions with HUD, was debarred from procurement and
nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
for 2 years. From 2006 to 2007, Jeremiah misapplied or fraudulently used City of Shamokin HOME program
funds without authorization. HUD realized losses of $8,100.

                                                     nnn

    Mariano Vega, Jr., the former president of and councilman for Jersey City, NJ, who was previously
sentenced in U.S. District Court, Newark, NJ, for his earlier guilty plea to committing a conspiracy to
obstruct interstate commerce by extortion under color of official right, was debarred from procurement and
nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
for 5 years. From March to August 2009, Vega obtained $30,000 in bribes and illicit payments in exchange
for his assistance in securing approvals for proposed real estate projects in Jersey City, NJ, a municipality
that receives HUD CDBG funds.

Other Fraud/Crimes
    Former property developer Travis Soule pled guilty in U.S. District Court, Portland, ME, to committing
theft of government funds and submitting a false claim. Between June 2007 and May 2008, Soule submitted
false documents and fraudulently obtained $180,000 in HUD HOME program funds through the Lewiston
Office of Economic and Community Development, a HUD-funded organization.

                                                     nnn

    Malcolm Crawford, also known as Calvin Gamble, a former West Valley City Housing Authority (West
Valley) HOPWA program recipient, was sentenced in U.S. District Court, Salt Lake City, UT, to 21 months
incarceration and 36 months probation and ordered to pay West Valley, the Social Security Administration
(SSA), and Utah Workforce Services $181,658 in restitution for his earlier guilty plea to committing mail fraud.
From August 1993 to July 2010, Crawford used a number of names and Social Security numbers belonging
to other individuals, failed to report income on housing and other certifications, and fraudulently obtained
$21,884 in housing assistance and $159,774 in SSA and other benefits he was not entitled to receive.

                                                     nnn

    Timothy Ladika, a general contractor doing business as T.A. Ladika Construction, LLC, pled guilty in
U.S District Court, Harrisburg, PA, to committing theft of government funds. From July 2008 to October
2010, Ladika fraudulently obtained information on competing bids, was awarded HUD HOME program
contracts without submitting proper bids, and obtained HOME program funds for fictitious projects or
projects he failed to complete in exchange for kickbacks made to unnamed individuals. HUD realized
losses of $14,745.

                                                     nnn

   Dennis Elwell, the former Mayor of the Town of Secaucus, NJ, a municipality that receives HUD CDBG
funds, was convicted in U.S. District Court, Newark, NJ, of accepting a corrupt payment and acquitted of
committing a conspiracy to commit extortion and attempted extortion under official color. In addition,
Ronald Manzo, a business associate of Elwell, pled guilty to obstructing commerce by extortion under
color of an official right. From February to August 2009, Manzo agreed to give cash payments and other




Chapter 4 - Community Planning and Development Programs                                                            57
     benefits to public officials and candidates for office in exchange for their support of an unnamed real estate
     developer, and on May 28, 2009, Elwell accepted a $10,000 cash bribe in exchange for his assistance in
     securing approvals for proposed Secaucus, NJ, real estate projects.

                                                          nnn

         Anthony Sharpe, a former HUD Real Estate Assessment Center inspector, former City of Detroit building
     inspector, and owner of Sharpe Environmental; former City of Detroit building inspector MoReno Taylor,
     doing business as Taylor Environmental Sampling & Testing; and Sharpe Environmental were collectively
     sentenced in U.S. District Court, Detroit, MI, to 18 months incarceration, 4 months home detention, and
     7 years probation; ordered to pay Wayne Metropolitan Action Committee (Wayne Metropolitan) $1,600 in
     restitution; and fined $5,000 for their earlier guilty pleas to committing mail fraud or making false statements.
     From 2004 to 2007, Sharpe and Sharpe Environmental provided false residential lead inspection reports
     for Wayne Metropolitan, an organization that receives HUD CDBG funding. In addition, Sharpe, Taylor, and
     Sharpe Environmental created false lead inspection records for 11 HUD-subsidized multifamily housing
     developments located in Cincinnati, OH, and Detroit, MI.

                                                          nnn




58                                                       Chapter 4 - Community Planning and Development Programs
Inspections and Evaluations
    The HUD OIG Office of Investigation’s Inspections and Evaluations Division’s activities are designed to
promote economy, efficiency, and effectiveness in the administration of HUD programs; detect and deter
fraud and abuse in HUD programs and operations; and ensure compliance with applicable laws and
regulations. The office conducts inspections and evaluations using various study methods and evaluative
techniques to provide timely information to improve policies, programs, and procedures.

Inspection of the Washington, DC, Department of Housing and
Community Development’s Participation in the Emergency Shelter
Grant Program
   HUD OIG conducted an inspection of the Washington, DC, Department of Housing and Community
Development’s (DHCD) participation in HUD’s Emergency Shelter Grant (ESG) program to determine
whether DHCD (the grantee) and its subrecipients (1) appropriately used HUD grant funds for eligible
homeless assistance services and (2) accurately entered required information into IDIS.

    DHCD did not use HUD ESG funds inappropriately for the transactions reviewed. Further, the required
information was accurately entered into IDIS for the sample of transactions reviewed.

   OIG made no recommendations for corrective action. (I&E Report: IED-11-007M)

                                                  nnn




Chapter 4 - Community Planning and Development Programs                                                       59
Chapter 5 - American Recovery and
Reinvestment Act of 2009
     Introduction and Background
        The U.S. Department of Housing and Urban Development (HUD) has received $13.61 billion in funding
     under the American Recovery and Reinvestment Act of 2009 (ARRA) in several housing program areas.
     Table 1 shows the HUD program areas receiving funding and the amounts appropriated to each program.



                           Table 1: HUD programs receiving ARRA funding
                 Program                                    Area                         Funding amount
      Office of Public and Indian        •   Public Housing Capital Fund                  $4,000,000,000
      Housing                            •   Native American Housing Block                 $510,000,000
                                             Grant

      Office of Community                •   Community Development Block                  $1,000,000,000
      Planning and Development               Grant
                                         •   Neighborhood Stabilization Program           $2,000,000,000
                                         •   HOME Investment Partnerships                 $2,250,000,000
                                             Program-Tax Credit Assistance
                                             Program
                                         •   Homelessness Prevention Fund                 $1,500,000,000

      Office of Multifamily Housing      •   Assisted Housing Stability grant             $2,000,000,000
                                         •   Green Retrofit grant                          $250,000,000

      Office of Healthy Homes and        •   Lead Hazard Reduction                         $100,000,000
      Lead Hazard Control                    Demonstration program

                                                                                Total    $ 13,610,000,000



         ARRA also provided $15 million to the HUD Office of Inspector General (OIG). This funding is available
     until September 2012. The purpose of the funding is for “oversight and audit of programs, grants, and
     activities funded by this Act and administered by the Department of Housing and Urban Development.”

        Through its audit and investigative programs, HUD OIG will constantly tailor and adjust its short- and
     long-term activities for timely and effective oversight of the ARRA funds expended by HUD programs.
     OIG’s plans were adjusted as the HUD programs distributed their ARRA funds. OIG will continue outreach
     and training efforts for the prevention of fraud, waste, and abuse to the Department and recipients of
     ARRA funds.

                                                       nnn




62                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
Audit
    The Office of Audit has initiated a three-phased approach to conducting related audit work. The
actions it has taken and plans to take will help position it to meet the increased workload under ARRA and
protect the Federal investment over the long term.

  The Office of Audit’s overall oversight objectives for HUD funding under ARRA are to determine
whether

   •   Funds are awarded and distributed in a prompt, fair, and reasonable manner;
   •   The recipients and uses of all funds are transparent to the public, and the public benefits of these
       funds are reported clearly, accurately, and in a timely manner;
   •   Funds are used for authorized purposes, and instances of fraud, waste, error, and abuse are
       mitigated;
   •   Projects funded under ARRA avoid unnecessary delays and cost overruns; and
   •   Program goals are achieved, including specific program outcomes and improved results on
       broader economic indicators.

    In the prior semiannual reporting periods, HUD OIG reviewed HUD’s front-end risk assessments,
audited HUD’s formula allocation dictated in ARRA programs, and assessed the administrative capacity
of selected grantees to effectively administer ARRA funds. During this semiannual reporting period, our
audits are focusing on grantee expenditures and HUD’s oversight activities. .

    The following section demonstrates the audit work that has been completed during this reporting
period.


           Strategic Initiative 3: Contribute to the strengthening of communities
 Key program results                             Questioned costs              Funds put to better use
       Audit              64 audits*                $21.9 million                      $38 million
        Our                 Page 64         •   Public Housing Capital Fund audits and reviews
       focus                Page 72         •   Native American Housing Block Grant
                            Page 73         •   Community Development Block Grant audits and reviews
                            Page 76         •   Neighborhood Stabilization Program
                            Page 79         •   Tax Credit Assistance Program
                            Page 80         •   Homelessness Prevention and Rapid Re-Housing Program
                            Page 84         •   Office of Sustainable Housing and Communitites
                            Page 85         •   Lead Hazard Reduction Demonstration program
                            Page 85         •   Review of HUD’s compliance with obligation deadlines
                            Page 86         •   Review of Recovery Act Management and Reporting
                                                System
* The total ARRA-related audits consist of community planning and development, public and Indian housing, and
other audits. The questioned costs and funds put to better use amounts relate only to ARRA-related costs.




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                      63
         In addition to the audits described in this chapter, HUD OIG, has conducted a number of outreach
     efforts (see chapter 8, page 115).

     Office of Public and Indian Housing Audits and Reviews

     Public Housing Capital Fund Audits and Reviews

         HUD OIG audited the Housing Authority of the City of New Haven, CT’s Public Housing Capital Fund and
     Public Housing Capital Fund Stimulus Recovery Act Funded projects for compliance with environmental
     and labor law requirements to determine whether the Authority (1) funded Capital Fund projects for
     eligible activities in accordance with HUD requirements, (2) complied with environmental requirements
     for proper removal and disposal of asbestos waste for its Capital Fund and Recovery Act Capital Fund
     projects, and (3) complied with labor standards enforcement requirements.

         The Authority funded Capital Fund projects for eligible activities in accordance with HUD requirements.
     However, it did not always comply with environmental law requirements. Specifically, the Authority did
     not ensure that its abatement contractors complied with contract requirements for the proper disposal of
     asbestos waste removed from its Federal housing projects in accordance with its contracts. OIG reviewed
     nine abatement contracts with the Authority. Seven of the contractors could not support proper disposal
     of asbestos waste removed from the projects in accordance with contract requirements. As a result, the
     Authority could not support disposal costs associated with more than $2 million in abatement costs paid
     on these contracts.

          The Authority also did not always comply with labor standards enforcement requirements. Specifically,
     it did not (1) complete the required enforcement reports for at least seven contractors, in which at least
     six violations appeared to have been willful noncompliance; (2) ensure that all required information
     reported to HUD in its semiannual enforcement reports was complete and accurate; (3) always document
     that it performed a review of certified payrolls and followed up on payroll falsification indicators; (4)
     require contractors to sign a statement of future compliance when underpayment violations were
     identified; (5) establish an account to hold restitution collected for workers owed restitution but who
     were not found or for appeals by the contractor; or (6) ensure that its enforcement file system was
     complete. As a result, HUD did not have assurance that the Authority met its labor standards enforcement
     requirements. Additionally, there is a risk that the Authority may continue to use contractors that willfully
     violate labor standards requirements and continue to hire undocumented workers to work on federally
     funded projects, including ARRA-funded projects. Further, if the Authority does not provide complete
     and accurate enforcement reports to HUD, HUD cannot comply with its requirements to provide this
     information to the U.S. Department of Labor as required.

          OIG recommended that HUD ensure that the Authority’s written policies and procedures comply
     with requirements for ensuring that hazardous waste is properly disposed of and accounted for. OIG
     also recommended that HUD require the Authority to (1) ensure that its staff is trained on environmental
     monitoring requirements, (2) adequately monitor its environmental monitoring contractors to ensure that
     they meet the requirements of their contracts, and (3) support that asbestos waste removed from Federal
     projects was properly accounted for and disposed of or repay from non-Federal funds the disposal costs
     it cannot support from the abatement costs for the projects reviewed.

        OIG also recommended that HUD ensure that (1) the Authority’s written policies and procedures
     comply with requirements, include reporting responsibilities and sufficient management controls, and
     incorporate Davis-Bacon Act streamlining guidance and (2) Authority staff is trained on labor standards
     compliance. OIG further recommended that HUD require the Authority to (1) revise its contract with the



64                                                     Chapter 5 - American Recovery and Reinvestment Act of 2009
agency to ensure that it is more specific as to Authority and contractor responsibilities for labor standards
administration and enforcement and (2) report cases in which willful intent is apparent or in which
restitution for a single employer was $1,000 or more, including those reviewed, and make any needed
corrections to its semiannual enforcement reports. (Audit Report: 2011-BO-1008)

                                                    nnn

    HUD OIG audited the Allegheny County Housing Authority in Pittsburgh, PA, regarding its administration
of Public Housing Capital Fund grants that it received under ARRA, to determine whether the Authority
properly procured goods and services and obligated its ARRA capital funds according to ARRA and
applicable HUD requirements.

     The Authority did not always procure goods and services and obligate its ARRA capital funds properly.
It (1) did not have a written contract to support $1.3 million that it paid to a contractor, (2) did not always
comply with ARRA’s “buy American” requirement, (3) improperly obligated grant funds, (4) erroneously
drew grant funds from HUD, (5) did not amend its procurement policy for competitive grants as required,
and (6) allowed an apparent conflict of interest to occur.

   OIG recommended that HUD require the Authority to (1) provide documentation to support
expenditures totaling $1.8 million or reimburse HUD from non-Federal funds for any amount that it cannot
support, (2) reimburse HUD $102,000 from non-Federal funds for ineligible expenditures, (3) develop
and implement controls to demonstrate that funds it obligated for inspection services were related to
ARRA-funded work items, (4) stop erroneously drawing grant funds, and (5) ensure that it complies with
applicable conflict-of-interest requirements and seek exceptions on a case-by-case basis if applicable.
(Audit Report: 2011-PH-1014)

                                                    nnn

   HUD OIG audited Albuquerque, NM, Housing Services’ Public Housing Capital Fund Stimulus ARRA-
funded activities to determine whether Housing Services (1) properly obligated and expended its ARRA
formula grant in accordance with requirements, (2) followed ARRA requirements when procuring
contracts for goods or services, (3) maintained inventory controls over its fixed assets to ensure that ARRA
funds were used efficiently, and (4) accurately reported its ARRA activities.

   Housing Services mismanaged its ARRA formula grant. Specifically, it did not (1) properly obligate its
grant in accordance with requirements, (2) ensure that proper approval was obtained for disbursements
exceeding $25,000, (3) properly procure contracts, and (4) maintain inventory controls over its fixed
assets. However, it did ensure that expenditures were properly supported, and it properly reported its
ARRA activities. Nevertheless, Housing Services’ entire grant of more than $1.8 million was ineligible and
unsupported.

   OIG recommended that HUD (1) rescind more than $1 million in ineligible costs and deposit those
funds with the U.S. Treasury in accordance with ARRA as amended; (2) require Housing Services to
support or repay to the U.S. Treasury more than $711,000 in unsupported costs and adopt policies,
procedures, and internal controls; and (3) place Housing Services under direct review for procurements
and provide technical assistance and monitoring. (Audit Report: 2011-FW-1007)

                                                    nnn

    HUD OIG audited the Philadelphia, PA, Housing Authority’s use of the Capital Fund formula grant
that it received under ARRA to determine whether the Authority’s payments to rehabilitate its scattered-




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                        65
     site housing under ARRA were supported and complied with HUD regulations and other applicable
     requirements.

         The Authority’s payments to rehabilitate its scattered-site housing under ARRA were not supported
     and did not comply with applicable requirements. Specifically, the Authority could not support payments
     of almost $1 million in ARRA funds to rehabilitate 10 scattered-site units, virtually the entire amount
     reviewed, raising questions about the propriety of an additional $26.4 million it spent during the audit
     period to rehabilitate the units not reviewed. Also, the Authority’s tenants were subjected to health- and
     safety-related hazards, and the Authority failed to use its ARRA funds properly when it failed to ensure
     that the units it rehabilitated complied with local codes and other contract requirements. The Authority
     also made unsupported, unreasonable, and unnecessary payments to outside attorneys in an effort to
     obstruct the progress of the audit.

         OIG recommended that HUD require the Authority to (1) provide adequate documentation to support
     the unsupported costs or reimburse the applicable programs from non-Federal funds for any costs that
     it cannot support; (2) if it cannot support the unsupported costs, provide documentation to support the
     remaining ARRA funds used to rehabilitate its scattered sites or reimburse the applicable programs from
     non-Federal funds for any costs that it cannot support; (3) implement adequate procedures and controls
     to ensure that its payments for scattered-site rehabilitation comply with relevant laws and regulations and
     develop and implement controls to ensure that invoices for scattered-site rehabilitation are adequately
     verified and payments are made according to the terms of the related contracts; (4) implement appropriate
     measures to ensure compliance with applicable laws, ordinances, codes, rules, and regulations; and (5)
     task its OIG to periodically audit a sample of current and future payments for scattered-site rehabilitation
     to ensure that responsible personnel enforce contract requirements and payments are adequately
     supported, necessary, and reasonable. (Audit Report: 2011-PH-1010)

                                                        nnn

         HUD OIG audited the Greensboro, NC, Housing Authority regarding its capital funds awarded under
     ARRA to determine whether the Authority obligated and disbursed the funds in accordance with applicable
     HUD rules and regulations. The specific objectives were to determine whether the Authority (1) properly
     obligated funds, (2) complied with applicable procurement requirements, (3) properly drew down and
     expended funds for eligible activities, and (4) properly reported its ARRA activities.

        Although the Authority used its ARRA funds for eligible activities and complied with most program
     requirements, it could not support the eligibility of nearly $742,000 in obligations, contracts, and
     expenditures, and its reporting on ARRA activities contained errors.

        OIG recommended that HUD require the Authority to develop, implement, and enforce written
     procedures for its procurement, ARRA reporting, and obligations. The Authority must also provide support
     showing that more than $459,000 was awarded for contracts in accordance with procurement regulations
     and nearly $67,000 in obligations and nearly $216,000 in expenditures met HUD’s requirements. (Audit
     Report: 2011-AT-1013)

                                                        nnn

        HUD OIG audited the Public Housing Capital Fund Stimulus (formula) Recovery Act Funded grant
     awarded to the Springfield Metropolitan Housing Authority in Springfield, OH, to determine whether the
     Authority administered its grant in accordance with ARRA and HUD requirements.

          The Authority did not administer its grant in accordance with ARRA and HUD requirements. Specifically,
     it did not (1) properly obligate $152,000 in ARRA grant funds for eligible management improvement costs



66                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
and (2) adequately monitor its contractors for the enforcement of labor standards. As a result, its reporting
of ARRA-funded activities in FederalReporting.gov was inaccurate.

    OIG recommended that HUD require the Authority to (1) implement adequate procedures and controls
regarding the administration of its ARRA grant funds, (2) provide supporting documentation or reimburse
HUD nearly $111,000 for wages paid to its contractors, and (3) review all payments to its contractors’
employees to determine whether wage restitution is owed and provide the review results to HUD for
review and approval. If wage restitution is required, the Authority should make the restitution from non-
Federal funds and implement adequate procedures and controls regarding its contracting process to
ensure that its contractors’ employees are paid the appropriate Federal prevailing wage rates. OIG also
recommended that HUD recapture the ARRA capital funds that were improperly obligated for ineligible
management improvement expenses for transmission to the U.S. Treasury. (Audit Report: 2011-CH-
1015)

                                                   nnn

    HUD OIG audited the Housing Authority of the County of San Bernardino, CA’s ARRA Public Housing
Capital Fund formula and competitive grants to determine whether the Authority completed procurements
for ARRA capital funds in accordance with 24 CFR (Code of Federal Regulations) Part 85 and HUD’s ARRA
requirements.

   The Authority did not complete all procurements for its ARRA capital funds in accordance with 24
CFR Part 85 and HUD’s ARRA requirements. Specifically, it procured one vendor through noncompetitive
procurement without adequate justification, and the related contracts were missing 5 of 13 required
provisions. In addition, OIG identified an expired assurance of completion for ongoing work, a lack of
backup documentation for the independent cost estimates in two of the files reviewed, and a control
weakness in the Authority’s process for approving change orders. Therefore, the Authority may have
spent more ARRA funds toward its projects than it would have had it completed proper procurement
procedures.

    OIG recommended that HUD require the Authority to (1) support the reasonableness of the nearly
$248,000 contracted through noncompetitive procurement or repay the ARRA funding expended thus
far and ensure that no additional ARRA funding is disbursed under the contracts, (2) amend the ongoing
noncompetitive procurement contracts to include the missing contract provisions, (3) implement a policy
to ensure that its procurement and contracts manager reviews all contracts before they are executed,
(4) implement controls to ensure that assurance of completion documents are obtained and valid
for the duration of an ongoing contract, (5) implement controls to ensure that all contractor backup
documentation is retained and accessible, and (6) implement controls to ensure that all documents
requiring signature are approved by multiple parties as intended and that one person does not sign on
multiple lines. (Audit Report: 2011-LA-1019)

                                                   nnn

   HUD OIG audited the Public Housing Capital Fund Stimulus (formula) Recovery Act Funded grant
awarded to the Pontiac Housing Commission in Pontiac, MI, to determine whether the Commission
properly obligated and expended its formula grant and related procurements complied with HUD and
ARRA requirements.

    The Commission’s ARRA obligations and expenses were not properly supported, and its related
procurements did not comply with HUD’s and its own requirements. Specifically, the Commission did not
(1) ensure that its contractors complied with the Davis-Bacon Act, (2) comply with Federal and its own
contract administration requirements, and (3) properly administer and account for vacant unit turnovers


Chapter 5 - American Recovery and Reinvestment Act of 2009                                                      67
     by its force account. Further, the Commission created a conflict-of-interest relationship when it awarded
     a carpet installation contract to an employee. As a result, it used more than $148,000 in ARRA grant funds
     contrary to its annual contributions contract with HUD and its own procurement requirements, and HUD
     lacked assurance that it effectively managed its grant.

         OIG recommended that HUD require the Commission to obtain certified weekly payrolls from eight
     contractors and determine whether the contractors paid the correct wage rates to their employees. If
     the contractors failed to pay the correct wages, the Commission should pay wage restitution to these
     employees. HUD should also require the Commission to (1) pay wage restitution of more than $4,000
     to its two contractors’ employees and submit proof that the employees received the wage restitution,
     (2) develop written procedures for the enforcement of labor standards to ensure compliance with its
     own requirements regarding the enforcement of labor standards, (3) maintain a system of contract
     administration to ensure that its contractors perform in accordance with their contracts, (4) obtain
     missing contract administration documents and retain them in the contract files, (5) pay wage restitution
     of more than $66,000 to its force account staff and provide proof that the payments were made, (6)
     identify the specific units assigned to each maintenance staff member for phase II unit turnover work and
     to the contractor for phase III unit turnover work and provide support, and (7) reimburse HUD more than
     $38,000 from non-Federal funds for transmission to the U.S. Treasury for the inappropriate use of grant
     funds.

         OIG also recommended that HUD (1) prohibit the use of force account labor for future unit turnover
     work until the Commission can demonstrate that it has the capacity to perform the work; (2) follow
     established procedures for addressing public housing authorities designated as substandard physical,
     including but not limited to amending the Commission’s existing memorandum of agreement with HUD
     to incorporate the recommendations cited; and (3) recapture all funds that the Commission obligated for
     unit turnovers by its force account. (Audit Report: 2011-CH-1018)

                                                        nnn

         HUD OIG audited the Public Housing Capital Fund Stimulus (formula) Recovery Act Funded grant
     awarded to the Jefferson Parish Housing Authority in Marrero, LA, to determine whether the Authority
     followed ARRA requirements, specifically, whether it (1) expended ARRA funds in accordance with
     requirements, (2) maintained inventory controls over its fixed assets to ensure that ARRA funds were used
     efficiently, (3) obligated ARRA funds in accordance with requirements, (4) followed ARRA requirements
     when procuring goods or services, and (5) accurately reported its ARRA activities.

          The Authority generally ensured that it followed ARRA requirements when expending ARRA funds and
     maintaining inventory controls over its fixed assets, although minor deficiencies were identified. However,
     it did not properly obligate part of its ARRA funding by the obligation deadline and made purchases in
     excess of its need. In addition, the Authority did not always properly conduct its ARRA procurements.
     Consequently, it incurred nearly $80,000 in ineligible and $30,000 in unsupported costs and could not
     provide reasonable assurance that ARRA funds were used effectively and efficiently or to benefit program
     participants. Further, the Authority did not always completely or accurately report its ARRA activities and
     submitted its final ARRA report before it had expended all of its ARRA funds. Consequently, the public
     did not have access to accurate information, and the Authority’s use of ARRA funds was not transparent.

         OIG recommended that HUD require the Authority to (1) repay the ineligible costs and (2) support the
     unsupported costs or repay any amounts it cannot support. In addition, as related to its FederalReporting.
     gov submissions, HUD should require the Authority to (1) correct inaccurate data entered for the third and
     fourth quarters of 2009 and the first, second, and third quarters of 2010; (2) correct and resubmit its final




68                                                     Chapter 5 - American Recovery and Reinvestment Act of 2009
report in the correct reporting period; and (3) submit the missing reports for the fourth quarter of 2010 and
first quarter of 2011. (Audit Report: 2011-AO-1007)

                                                   nnn

    HUD OIG audited the Housing Authority of the County of Monterey, CA’s administration of more than
$2.9 million in ARRA Capital Fund grant funding to determine whether the Authority administered the
procurement and contracting of its grant funds in accordance with HUD laws and regulations.

    The Authority did not administer the procurement and contracting of grant funds in accordance with
HUD laws and regulations. It (1) did not follow HUD’s or its own procurement policies and procedures
when it procured grant-funded construction contracts and (2) included required geographic preference
clauses in its grant-funded construction contracts, which restricted the procurement process in a manner
that was not fair and open to competition.

    OIG recommended that HUD require the Authority to (1) provide to HUD documentation of at least
three written price quotations showing justification for nearly $100,000 in unsupported costs incurred
for the electrical wiring upgrades at 15 housing units or repay HUD from non-Federal funds for the
unsupported payments incurred; (2) conduct all future procurements in compliance with HUD laws
and regulations to ensure fair and open competition; (3) establish a record-keeping system that ensures
complete, consistent, and accurate documentation of all future procurements to ensure compliance with
HUD laws and regulations; and (4) provide appropriate training to responsible personnel to ensure a
better understanding of HUD procurement laws and regulations. (Audit Report: 2011-LA-1014)

                                                   nnn

    HUD OIG audited the Youngstown, OH, Metropolitan Housing Authority’s ARRA Public Housing Capital
Fund Stimulus formula and competitive grants to determine whether the Authority administered its grants
in accordance with ARRA, HUD’s, and its own requirements.

     The Authority’s procurement process had weaknesses. Specifically, the Authority did not ensure that
contracts were awarded to the contractor that provided the best overall value to the Authority. As a result,
it used nearly $98,000 in formula grant funds contrary to its annual contributions contract with HUD and
its procurement requirements. Therefore, HUD lacked assurance that the Authority effectively managed
its grant.

    OIG recommended that HUD require the Authority to (1) reimburse HUD from non-Federal funds for
transmission to the U.S. Treasury for the inappropriate use of grant funds and (2) implement adequate
procedures to ensure that its procurement policy requirement that a contract be made to the lowest
responsive and responsible bidder unless justified in writing based on price and other specific factors is
followed. (Audit Report: 2011-CH-1013)

                                                   nnn

    HUD OIG reviewed hazard-damaged units, which the Housing Authority of the City of Los Angeles,
CA, was rehabilitating using formula grant ARRA Public Housing Capital Fund program funds, to determine
whether the Authority’s use of ARRA program funds on hazard-damaged units subject to property
insurance reimbursements met HUD requirements.

    The Authority improperly charged its ARRA program more than $75,000 and an additional
pending amount of more than $8,000 without applying cost reductions or credits related to insurance
reimbursements to its program.



Chapter 5 - American Recovery and Reinvestment Act of 2009                                                      69
         OIG recommended that HUD instruct the Authority to (1) reimburse the ARRA program for the
     insurance reimbursements posted to other accounts, (2) confirm that the additional pending insurance
     reimbursements are appropriately posted to the ARRA program, and (3) revise its policies and procedures
     to ensure that cost reductions are applied before disbursing ARRA funds and that credits are applied once
     reimbursements are received by the Authority. This measure will assure HUD that capital funds, including
     those provided under ARRA, will be disbursed in accordance with applicable laws and regulations.
     In addition, OIG recommended that HUD determine legal sufficiency and if legally sufficient, pursue
     remedies under the Program Fraud Civil Remedies Act against the Authority, the appropriate personnel,
     or both for improperly charging its ARRA program. (Audit Report: 2011-LA-1802)

                                                       nnn

        HUD OIG audited the Public Housing Capital Fund Stimulus ARRA-funded activities of the Housing
     Authority of the City of Wichita Falls, TX, to determine whether the Authority followed ARRA rules and
     regulations when obligating and expending its ARRA capital funds and reported ARRA funds as required.

         Generally the Authority followed ARRA rules and regulations with two minor exceptions. It (1)
     properly used the formula grant funds to expand its extensive capital projects already underway, (2)
     met the time deadlines and provided support for both obligations and expenditures associated with the
     formula grant, and (3) reported its use of the funds in a timely manner. However, the Authority (1) relied
     on its architect’s statement that only one asbestos monitor could provide needed services, resulting in
     a contract being awarded without adequate competition, and (2) did not ensure that water heaters met
     Federal Energy Management Program requirements before purchase.

        OIG recommended that HUD require the Authority to provide support for nearly $17,000 spent for
     asbestos monitoring and nearly $17,000 spent for noncompliant water heater purchases. If the Authority
     cannot support the costs, HUD should return the unsupported funds to the U.S. Treasury. (Audit Report:
     2011-FW-1014)

                                                       nnn

        HUD OIG audited the Rockford, IL, Housing Authority’s ARRA Capital Fund Stimulus formula and
     competitive grants to determine whether the Authority administered its grants in accordance with ARRA
     and HUD requirements and its administrative plan.

         The Authority did not administer its Capital Fund grants in accordance with ARRA and HUD
     requirements and its administrative plan. Specifically, it did not ensure that (1) its contractors complied
     with “buy American” and Section 3 requirements and (2) construction work was complete before
     payments were issued. As a result, it was unaware that one of its contractors purchased nearly $18,000
     in materials manufactured outside the United States, and HUD and the Authority lacked assurance that
     the contractors followed HUD’s Section 3 requirements and work was complete before payments were
     issued. However, the Authority correctly reported its Recovery Act progress and disbursed its grant funds
     in a timely manner in accordance with HUD’s requirements.

        OIG recommended that HUD require the Authority to (1) provide documentation to ensure that
     Capital Fund grants were not used to reimburse its contractor for materials purchased contrary to the Buy
     American Act, (2) review the products purchased by its remaining contractors to ensure that they were
     manufactured in the United States, and (3) implement adequate procedures and controls to ensure that
     ARRA activities meet “buy American” and Section 3 requirements and construction work is complete
     before payments are made. (Audit Report: 2011-CH-1010)

                                                       nnn


70                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
   HUD OIG audited the Lafayette Parish Housing Authority in Lafayette, LA, regarding its Public Housing
Capital Fund Stimulus ARRA-funded grant to determine whether the Authority followed HUD and ARRA
requirements. Specifically, OIG wanted to determine whether the Authority (1) properly obligated and
expended its ARRA capital funds, (2) accurately reported its ARRA activities, and (3) followed ARRA
requirements when procuring contracts for goods or services.

     The Authority generally followed ARRA requirements when obligating and expending its grant. However,
it did not always (1) enter its ARRA activities into the Recovery Act Management and Performance System
(RAMPS), (2) report its ARRA activities by specified deadlines in either RAMPS or FederalReporting.gov,
or (3) enter accurate ARRA expenditure information into FederalReporting.gov as required. In addition,
the Authority could not justify its reported estimates of jobs created or retained. As a result, it provided
minimal transparency of and accountability for its ARRA activities.

     The Authority generally procured its ARRA contract in accordance with Federal regulations. However,
it did not (1) amend and label its written procurement policy for use with only ARRA grant procurements
as required or (2) include HUD-required provisions in its ARRA-funded contract. As a result, it was at
risk, during the ARRA funding period, of exposure to disputes over contract selections. Further, by not
having the proper contract provisions, the Authority may not have been able to enforce those regulatory
provisions with its contractors.

    OIG recommended that HUD require the Authority to (1) correct inaccurate ARRA expenditure
amounts reported in FederalReporting.gov for the second and fourth quarters of 2010 and (2) provide
justification for its estimates of jobs created or retained in FederalReporting.gov for the second, third, and
fourth quarters of 2010 and the first quarter of 2011. Since the Authority had completed its ARRA program,
OIG did not make a recommendation regarding the procurement violation. (Audit Report: 2011-AO-
0002)

                                                    nnn

   HUD OIG audited the Mississippi Regional Housing Authority VIII in Gulfport, MS, regarding its Public
Housing Capital Fund formula grant program to determine whether the Authority properly obligated and
expended its ARRA capital funds in accordance with requirements, followed ARRA requirements when
procuring contracts for goods or services, and accurately reported its ARRA activities.

    The Authority generally followed ARRA requirements in the obligation and expenditure of its ARRA
capital funds. Additionally, it ensured that procurements were made in accordance with Federal and
ARRA requirements. However, it did not accurately report required ARRA Capital Fund grant information
in FederalReporting.gov.

     For the seven quarterly reports reviewed, the Authority overreported the amount of funds received
in five quarters and underreported in one quarter. It also underreported the amount of funds expended
in four quarters and overreported in one quarter. In addition, it failed to provide a list of projects and
activities funded by name and incorrectly reported the primary place of performance in all seven quarters.

    OIG recommended that HUD (1) ensure that the Authority complies with HUD guidance and ensures
the assignment of a staff person responsible for becoming familiar with the guidance on the Web site
and reporting as required and (2) review the next quarterly report submitted to ensure that it is accurate.
(Audit Report: 2011-AO-1006)

                                                    nnn




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                       71
         HUD OIG audited the Housing Authority of the City of Las Cruces, NM’s Public Housing Capital Fund
     Stimulus (formula) Recovery Act Funded activities to determine whether the Authority (1) properly
     followed ARRA rules and regulations when obligating and expending its ARRA formula grant funds, (2)
     properly followed the environmental requirements for ARRA activities, and (3) accurately reported its
     ARRA activities.

        The Authority properly obligated and expended its ARRA funds. It met the required deadlines and
     properly supported its obligations and expenditures. However, it did not properly follow environmental
     requirements before performing ARRA activities. Fortunately, the activities performed using ARRA funds
     were categorically excluded; that is, no further assessments were required. Further, the Authority did not
     accurately report on its ARRA-funded activities.

        OIG recommended that HUD (1) require the Authority and the City of Las Cruces to establish a
     process to ensure that future projects have the proper environmental review performed in a timely
     manner and (2) provide guidance to the Authority and assist it in correcting the information submitted to
     FederalReporting.gov. (Audit Report: 2011-FW-1015)

                                                       nnn

         HUD OIG audited the Philadelphia, PA, Housing Authority’s compliance with HUD conflict-of-interest
     and financial disclosure requirements to determine whether there were apparent conflicts of interest
     involving responsible Authority employees and contractors that performed ARRA-funded rehabilitation of
     the Authority’s scattered-site housing units and whether the Authority complied with mandatory financial
     disclosure reporting requirements.

         No apparent conflicts of interest were found involving Authority employees and the contractor or
     subcontractors that completed ARRA-funded rehabilitation of the Authority’s scattered-site housing units.
     However, the Authority did not comply with provisions in its Moving to Work Demonstration program
     agreement with HUD that required it to comply with State and local laws because it failed to comply with
     financial disclosure provisions in the Pennsylvania Public Official and Employee Ethics Act.

         OIG recommended that HUD require the Authority (1) take immediate action to ensure that appropriate
     employees and board members file the required financial disclosures for calendar year 2010 and for the
     year following their termination of service and (2) fully implement and enforce the financial disclosure
     statement policies and procedures approved by its board on July 22, 2011. (Audit Report: 2011-PH-1016)

     Native American Housing Block Grant

         HUD OIG audited the Tule River Indian Housing Authority in Porterville, CA, to determine whether
     the Authority followed procurement and contracting requirements and used its ARRA Native American
     Housing Block Grant funding in accordance with HUD requirements.

         The Authority did not follow procurement and contracting requirements and did not use its ARRA Native
     American Housing Block Grant funding in accordance with 24 CFR 85.36 (Procurement), 29 CFR Parts 3
     and 5, and its own internal policies and procedures. It also did not have sufficient policies, procedures,
     and controls in place to ensure that it complied with Federal procurement and contracting requirements,
     which led to improper cash disbursements and a lack of segregation of duties in its program. As a result,
     it used nearly $37,000 for ineligible expenditures and failed to obligate nearly $96,000 in ARRA Native
     American Housing Block Grant funds.




72                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
    OIG recommended that HUD (1) require the Authority to reimburse its ARRA Native American
Housing Block Grant from non-Federal funds for the ineligible overpayments made to the contractor for
cabinet construction work, (2) recover the remaining unobligated ARRA grant funds from the Authority
for return to the U.S. Treasury, and (3) require the Authority to establish and implement sufficient written
procurement policies and procedures. In addition, OIG recommended that the Authority implement
sufficient written internal control procedures for cash disbursements, including proper segregation of
duties. (Audit Report: 2011-LA-1018)

Office of Community Planning and Development Audits and
Reviews

Community Development Block Grant Audits and Reviews

   OIG audited the City of Tulsa, OK’s Community Development Block Grant-
Recovery (CDBG-R) program to determine whether the City complied with HUD’s
CDBG-R obligation, procurement, expenditure, and reporting requirements.

    The City poorly managed its ARRA activities by selecting a subrecipient that
did not have the capacity to complete the project within the required time limit.
Further, the City did not adequately monitor the subrecipient, did not comply
with Federal requirements, and did not apply good financial controls. As a
result, it committed more than $3 million in Federal funds for a project that it
might not complete. Further, the City disregarded procurement requirements,
did not have policies or procedures regarding the disposal of hazardous waste,
and did not implement sound controls over the grant. Therefore, it could not
comply with regulations or ensure that its contractors followed requirements.

    OIG recommended that HUD require the City to select a subrecipient that
has the capacity, both financially and administratively, to complete and operate
the Shoppes on Peoria and to provide documentation by November 30, 2011. If
the City cannot obtain a subrecipient that can complete the project, it should
select another project that it can complete by September 30, 2012. Further, the
City should support or repay more than $49,000 that it spent without a contract
and improve its controls for its grants. Also, HUD should seek administrative
sanctions against the subrecipient and its related entities to protect HUD and the
City from future instances of noncompliance. (Audit Report: 2011-FW-1012)

                                      nnn

   HUD OIG audited the City of Memphis, TN’s administration of its Homelessness
Prevention and Rapid Re-Housing Programn (HPRP) and CDBG-R funds
received under ARRA to determine whether the City administered its HPRP and
CDBG-R funds in compliance with ARRA and other applicable requirements.
Specifically, the objective was to determine whether the City ensured that (1)
program participants were eligible, (2) program expenditures were supported
with adequate documentation, (3) program reporting requirements were met,
and (4) subgrantees were monitored and trained.
                                                                                     Copyright 2011. Tulsa World,
                                                                                     Tulsa, OK. Reprinted with
                                                                                     permission.



Chapter 5 - American Recovery and Reinvestment Act of 2009                                                          73
         Although the City complied with most ARRA requirements, its program administration was deficient
     in some areas. The City (1) procured an architectural and engineering contract using the incorrect
     procurement methodology and without an adequate cost analysis, (2) paid a contractor for work performed
     without an executed contract, (3) delayed the execution of a greening and demolition contract until the
     lowest bidder dropped out, (4) did not always comply with HUD guidance for implementing ARRA’s “buy
     American” provision, and (5) could not support the job figures reported in its most recent quarterly report
     for either the HPRP or CDBG-R grants. As a result, it incurred more than $619,000 in questioned costs
     related to its procurements and could not ensure compliance with all ARRA requirements.

         OIG recommended that HUD require the City to (1) provide adequate support and justification for
     the procurement deficiencies and repay its program any portion of the questioned costs that it cannot
     support, (2) provide staff training on procurement requirements, and (3) provide HUD assurance that it has
     sufficient controls in place to ensure compliance with applicable procurement and ARRA requirements.
     (Audit Report: 2011-AT-1015)

                                                        nnn

        HUD OIG conducted a review of the City of Dunkirk, NY, pertaining to its CDBG funds received under
     ARRA to evaluate the validity of congressional concern that the City used CDBG-R funds for an activity
     prohibited by the Recovery Act.

        The City’s water park ARRA project was an activity prohibited under Section 1604 of ARRA. Federal
     funding expended on the project was, therefore, ineligible for inclusion under CDBG-R. Accordingly, the
     remaining grant funding to the City should be reprogrammed to another eligible activity.

          OIG recommended that HUD instruct City officials to (1) reimburse the CDBG-R program line of credit
     for the nearly $135,000 expended on ineligible ARRA costs from non-Federal funds, (2) reprogram the
     nearly $19,000 in CDBG-R funding to other eligible activities and not use ARRA funds to support the water
     park project, (3) submit a plan to use nearly $154,000 in funds for a project that is eligible under ARRA and
     provide guidance on the allowable activities for CDBG-R funds, and (4) establish controls to ensure that
     all CDBG-R costs are only incurred for eligible activities that are supported by appropriate documentation.
     (Audit Report: 2011-NY-1802)

                                                        nnn

         HUD OIG audited Camden County, NJ’s administration of its CDBG-R funds to determine whether
     the County obligated, expended, and reported its CDBG-R funds according to ARRA and applicable HUD
     requirements.

         The County generally administered its CDBG-R funds in accordance with ARRA and applicable HUD
     requirements. However, it (1) approved a subrecipient to execute a change order for work which was
     outside the scope of the original contract, (2) could not demonstrate that the subrecipient performed a
     cost analysis for the change order work items, (3) did not ensure that a subrecipient fully complied with
     the Davis-Bacon Act, and (4) did not accurately report job creation information on the Federal reporting
     Web site. No evidence was found to substantiate complaints alleging misuse of Recovery Act funds.

         OIG recommended that HUD require the County to (1) provide documentation to demonstrate that
     nearly $38,000 expended for work performed under a change order was fair and reasonable or reimburse
     HUD from non-Federal funds for any amount it cannot support, (2) require a contractor to pay more than
     $1,000 to an employee to whom it paid less than the prevailing wage, and (3) report accurate job creation
     information for the reporting period ending September 30, 2011. (Audit Report: 2011-PH-1015)

                                                        nnn

74                                                     Chapter 5 - American Recovery and Reinvestment Act of 2009
    HUD OIG reviewed the administration expenses charged to the City of Brockton, MA’s CDBG program
to determine whether the City (1) properly accounted for and reported its planning and administrative
expenses for its grant and (2) prepared accurate consolidated annual performance and evaluation reports
that were adequately supported by operational results.

     The City generally accounted for expenses and did not charge the CDBG program for nonprogram
expenses. However, the City’s subcontractors did not establish and implement an adequate cost allocation
plan for salaries and administrative expenses, and one of its subcontractors paid unreasonable costs for
its fiscal year 2010 audit. The City and its subcontractors prepared consolidated annual performance and
evaluation reports that were supported by operational results.

    OIG recommended that HUD require the City and its subcontractor to (1) develop a formal policy
to address the allocation of salaries and all other administrative costs, (2) obtain HUD approval of its
allocation plan, (3) adapt its financial policies to provide for regular updates of the allocation plan, and (4)
train key staff. OIG also recommended that HUD (1) ensure that the City and its administrator honor their
commitment not to charge the nearly $33,000 paid to an auditor for the 2010 annual financial statements
to the CDBG program and (2) require the City and its subcontractor to obtain a minimum of three price
or rate quotations for the procurement of an independent public auditor for the subcontractor’s annual
audit for the fiscal year ending June 30, 2011, perform a price comparison of all price or rate quotations
obtained, and select the best applicant to conduct the annual audit for the fiscal year ending June 30,
2011. (Audit Report: 2011-BO-1010)

                                                     nnn

   HUD OIG audited Broward County, FL’s CDBG-R program funded under ARRA to determine whether
the County administered its program in accordance with applicable HUD and ARRA requirements,
specifically, whether the County’s program met the national objective(s), had allowable expenditures,
and met reporting requirements.

    The County demonstrated that it met the national objective, and its expenditures were allowable.
However, it did not accurately report program information on the ARRA Web site. As a result, the public
did not have access to accurate information on program funds.

    OIG recommended that HUD require the County to (1) recalculate the number of jobs created or
retained and (2) revise misstatements on the ARRA Web site. (Audit Report: 2011-AT-1017)

                                                     nnn

  HUD OIG reviewed the State of Montana’s CDBG-R program to determine whether the State used its
CDBG-R funds in accordance with ARRA rules and regulations.

     The State generally used its CDBG-R funds in compliance with ARRA rules and regulations. However,
it incorrectly negotiated and serviced loans with the final recipients of the funds. The State decided to
directly handle these high-risk loans instead of placing the risk on the nonprofits with which the counties
contracted for this function. Since the State serviced the loans, the nonprofits did not have direct access
to the program income generated by the CDBG-R loans.

    OIG recommended that HUD require the State to transfer the loan servicing of the CDBG-R loans to
the pertinent nonprofits. (Audit Report: 2011-DE-1005)




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                         75
     Neighborhood Stabilization Program
         HUD OIG audited the Disaster Recovery Grants Reporting (DRGR) system to determine whether
     adequate controls were in place to safeguard and accurately track and report $1.93 billion in ARRA funds
     allocated to the Neighborhood Stabilization Program 2 (NSP2).

         The improvements that HUD had made to the DRGR system within the last year were beneficial to
     the overall assurance that the system’s data were properly maintained, safeguarded, and in compliance
     with Federal regulations. However, for HUD to address ARRA requirements for accurate data, additional
     improvements should be made to the system.

         OIG recommended that HUD modify the DRGR system to improve its application controls and ensure
     that (1) the security documentation is updated, (2) the contingency plan is adequately tested, and (3) the
     system is included in the annual disaster recovery test as it is a mission-critical application. (Audit Report:
     2011-DP-0008)

                                                         nnn

          HUD OIG audited the New Orleans Redevelopment Authority in New Orleans, LA, a $29.7 million
     HUD NSP2 grantee, to determine whether the Authority’s use of the NSP2 funding, including the propriety
     of its ongoing activities, obligations, reports to HUD, and expenditures, was in accordance with Federal
     regulations.

         The Authority did not always use its NSP2 funds in accordance with Federal regulations. As a result, it
     could not provide reasonable assurance that it had adequately fulfilled the requirements of its agreement
     with HUD, and it and one of its consortium members improperly procured eight contracts. In addition, the
     Authority expended more than $178,000 in questioned costs. Further, at least $8.1 million of the remaining
     funds is at risk of being misspent and, therefore, not serving NSP2’s purpose, to stabilize neighborhoods,
     the viability of which has been and continues to be damaged by the economic effects of properties that
     have been foreclosed upon and abandoned.

        OIG recommended that HUD require the Authority to (1) establish policies and procedures regarding
     environmental reviews; (2) establish an internal audit function; (3) revise its appraisal, monitoring,
     procurement, and finance policies; (4) terminate its existing contract and ongoing services for its
     commercial appraisal services; (5) implement internal controls to adequately track NSP2 costs; (6) revise
     and submit its cost allocation plan to HUD for review and approval; (7) establish and implement policies
     and procedures regarding NSP2 reporting; (8) support or repay more than $178,000 in questioned costs;
     and (9) support the cost reasonableness for eight NSP 2-funded contracts.

          OIG also recommended that HUD (1) provide the Authority with training related to NSP2 and other
     requirements, (2) closely monitor the Authority’s expenditure and procurement activities for the duration
     of its NSP2 grant or until HUD is satisfied that the NSP2 expenditures and procurements meet Federal
     requirements, and (3) review the Authority’s listing of potential NSP2-assisted properties to ensure
     eligibility and the accuracy of information. In addition, OIG recommended that HUD ensure that the
     Authority corrects all of the deficiencies noted, conduct a risk analysis of the Authority, and provide the
     Authority with ongoing monitoring and technical assistance throughout the duration of the grant, thereby
     ensuring that program funds can be better used and used for eligible activities. (Audit Report: 2011-AO-
     1004)

                                                         nnn




76                                                      Chapter 5 - American Recovery and Reinvestment Act of 2009
    HUD OIG audited the State of Michigan’s Neighborhood Stabilization Program (NSP) administered
by the Michigan State Housing Development Authority to determine whether the State (1) complied with
Federal requirements in its award, obligation, and use of NSP funds under the Housing and Economic
Recovery Act of 2008 (HERA); (2) ensured that a subgrantee complied with HUD’s regulations when
procuring architectural services for its NSP-funded rehabilitation projects under HERA; and (3) complied
with Federal requirements in its reporting of NSP accomplishments under HERA and ARRA.

     The State did not comply with Federal requirements in its award, obligation, and use of NSP funds
under HERA; ensure that a subgrantee complied with HUD’s regulations when procuring architectural
services for its NSP-funded rehabilitation projects under HERA; and comply with Federal requirements
in its reporting of NSP accomplishments under HERA and ARRA. It (1) lacked sufficient documentation
to support its award of NSP funds under HERA for a project, (2) reported NSP obligations under HERA in
HUD’s DRGR system that did not qualify as obligations, (3) inappropriately disbursed NSP funds under
HERA for NSP obligations that did not qualify as obligations, (4) did not maintain sufficient documentation
to support the use of NSP funds under HERA for administrative expenses, (5) did not ensure that a
subgrantee complied with HUD’s regulations when procuring architectural services for its NSP-funded
rehabilitation projects under HERA, (6) did not comply with Federal requirements by posting the State’s
quarterly performance reports for NSP under HERA for the first through third quarters of 2010 on its
official Web site more than 30 days after the end of each quarter, and (7) did not maintain sufficient
documentation to support the number of jobs it reported as created or retained from the use of NSP funds
under ARRA for the first and second quarters of 2010.

    As a result, (1) HUD lacked assurance that the Authority awarded $1 million in NSP funds under
HERA for eligible project costs, (2) the Authority inappropriately reported NSP obligations of more than
$719,000 under HERA in HUD’s reporting system and disbursed NSP funds for more than $531,000 in NSP
obligations that did not qualify as obligations, (3) HUD lacked assurance that the Authority used nearly
$87,000 in NSP funds under HERA for eligible NSP administrative costs, (4) HUD and the Authority lacked
assurance that nearly $68,000 in NSP funds under HERA was used efficiently and effectively, (5) the public
did not have timely access to the State’s quarterly performance reports for NSP under HERA, and (6) HUD
and the public lacked assurance that the Authority accurately reported the number of jobs that the use of
NSP funds under ARRA created or retained.

     OIG recommended that HUD require the State to (1) provide sufficient documentation to support the
fair market value of the properties and that the Authority’s NSP funds awarded under HERA for the purchase
of the properties was reasonable or cancel the Authority’s award and award the NSP funds to an eligible
project(s), (2) reimburse HUD from non-Federal funds for the NSP funds under HERA inappropriately
disbursed for NSP obligations that did not qualify as obligations, (3) deobligate in HUD’s reporting system
the more than $719,000 in NSP funds under HERA that did not qualify as NSP obligations, (4) provide
sufficient supporting documentation or reimburse its NSP from non-Federal funds, as appropriate, for
the NSP funds under HERA used for unsupported administrative costs, (5) perform a formal cost or price
analysis to determine whether the NSP funds under HERA were reasonable for the architectural services
provided for a subgrantee’s rehabilitation projects, and (6) implement adequate procedures and controls
to address the findings cited.

    OIG also recommended that HUD recapture the more than $188,000 in NSP funds under HERA, which
the Authority obligated but did not disburse, that did not qualify as NSP obligations and reallocate the
funds in accordance with 42 U.S.C. (United States Code) 5306(c)(4). (Audit Report: 2011-CH-1008)

                                                   nnn




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                    77
         HUD OIG audited the NSP2 grant of Chicanos Por La Causa, Inc., in Phoenix, AZ, to determine whether
     the grantee administered its NSP2 grant in accordance with HUD’s program requirements.

         The grantee did not always administer its NSP2 grant in accordance with HUD’s program requirements.
     Specifically, it expended NSP2 funds for improper procurements, ineligible and unsupported expenditures,
     and inadequately secured program income. As a result, $754,000 in NSP2 funds was potentially unavailable
     for eligible activities.

          OIG recommended that HUD require the grantee to (1) provide HUD with supporting documents for
     $366,000 in NSP2 funds paid to improperly procured contractors or reimburse the unsupported costs to
     its NSP2 account from non-Federal funds, (2) reimburse its NSP2 account from non-Federal funds nearly
     $210,000 for ineligible and unsupported expenditures, and (3) discontinue payments on developers’
     fees to subrecipients totaling more than $178,000. Additionally OIG recommended that HUD require the
     grantee to update its NSP2 policies and procedures to include obtaining and reviewing all consortium
     member contracts. (Audit Report: 2011-LA-1015)

                                                        nnn

        HUD OIG audited the City of Reading, PA’s NSP2 to determine whether the City (1) met NSP2
     expenditure deadlines, (2) made NSP2 expenditures that were eligible and adequately supported, (3)
     properly awarded contracts, (4) met appraisal requirements, and (5) adequately monitored its NSP2.

        The City met NSP2 expenditure deadlines and generally ensured that expenditures were eligible and
     adequately supported and that contracts were properly awarded. Some improvements were needed,
     however, to ensure that some costs were adequately supported and that the City fully met property
     appraisal requirements and adequately monitored its NSP2.

         OIG recommended that HUD require the City to (1) provide documentation showing that more than
     $58,000 paid to four contractors without written contracts or detailed invoices was fair and reasonable
     or reimburse its NSP2 from non-Federal funds, (2) provide documentation showing that it reimbursed its
     NSP2 more than $8,000 from non-Federal funds for ineligible vehicle expenses, (3) ensure that all future
     contracts are in writing and adequately documented, (4) ensure that all required clauses are included
     in future solicitations and contracts, (5) ensure that it fully meets NSP2 appraisal requirements, and (6)
     adequately document its NSP2 monitoring and establish an internal audit function as required. (Audit
     Report: 2011-PH-1012)

                                                        nnn

         HUD OIG audited the NSP administered by Palm Beach County, FL, to determine whether the
     County’s administration of its NSPs complied with Federal requirements. Specifically, OIG wanted to
     determine whether (1) NSP1 activities met or will meet the low- and moderate-income national objective,
     (2) program income was properly accounted for, and (3) expended program funds were allowable. In
     addition, OIG wanted to determine whether expended NSP2 administrative costs were allowable.

         The County did not fully comply with Federal regulations when administering its NSP1 activities.
     Specifically, it did not (1) obtain HUD’s approval to waive the conflict-of-interest provision, (2) purchase
     properties at the required purchase discount, and (3) ensure that NSP1 funds expended did not exceed
     the amounts authorized. In addition, the County did not execute an agreement between its housing
     department and the facilities department administering the redevelopment activity. The deficiencies
     resulted in ineligible costs of $1.75 million to the NSP1 program. In addition, the County did not report
     accurate program income to HUD. Thus, HUD could not be assured that the County would use an




78                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
appropriate amount of its program income before drawing down NSP1 funds. As a result, the County had
program income of nearly $212,000 that could be put to better use.

    The County also did not maintain documentation to sufficiently support the administrative expenditures
recorded in its financial system. By not having effective controls, the County could not assure HUD that
reviewed administrative expenditures were justified and that accurate program financial results were
disclosed. As a result, the County drew down $10,000 in unsupported NSP2 funds.

   OIG recommended that HUD require the County to (1) reimburse the NSP1 program from non-Federal
funds for ineligible expenditures made from the program, (2) use the program income earned before
drawing down additional NSP1 funds, (3) provide supporting documentation or repay the NSP2 program
from non-Federal funds for the funds drawn down to reimburse the unsupported workers compensation,
and (4) implement policies and procedures to prevent future occurrences of the conditions identified.
(Audit Report: 2011-AT-1008)

Tax Credit Assistance Program
    HUD OIG audited HUD’s compliance with initial expenditure requirements related to six programs
funded by ARRA to determine whether (1) HUD grantees complied with their initial expenditure
requirements, (2) recaptures were properly recorded and controls over the recapture process existed
and complied with the Pay It Back Act, and (3) ARRA funds control plans were appropriately modified to
include Pay It Back Act requirements.

    HUD met the initial expenditure requirements for five of the six ARRA programs reviewed, and the
remaining program was on track to meet its initial expenditure requirement by its specific expenditure
deadline. However, HUD had $20.85 million in recaptured ARRA funds that must be returned to the U.S.
Treasury’s general fund. Additionally, $6.2 million in available funds, which were recaptured before the
Pay It Back Act, had not been reallocated and should be sent back to the U.S. Treasury. Also, the grant
closeout process for two of the six programs may have caused noncompliance with ARRA. Further, funds
control plans for the selected programs had not been modified to include Pay It Back Act requirements,
or modifications had not been reviewed and approved HUD.

    OIG recommended that (1) HUD immediately return the recaptured ARRA funds to the U.S. Treasury
general fund in accordance with the Pay It Back Act; (2) the Tax Credit Assistance Program (TCAP)
immediately recapture deobligated funds to ensure immediate return to the U.S. Treasury; (3) HUD direct
the ARRA program offices to review and, if necessary, revise grant closeout and fund retention policies
and procedures to ensure that funds are expended or recaptured in accordance with ARRA requirements;
and (4) HUD review all ARRA funds control plans to determine whether the plans have been appropriately
modified and approved to include Pay It Back Act requirements. (Audit Report: 2011-FO-0006)

                                                   nnn

   HUD OIG audited the ARRA-funded TCAP of the Missouri Housing Development Commission in
Kansas City, MO, to determine whether the Commission expended ARRA grant funds in accordance
with ARRA requirements and applicable HUD rules.

   The Commission did not always disburse TCAP funds in accordance with ARRA requirements and
applicable HUD rules. It disbursed more than $3.6 million in TCAP funds for ineligible and improperly
documented expenditures.




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                   79
          OIG recommended that HUD require the Commission to reimburse more than $137,000 to its
     U.S. Treasury line of credit from non-Federal funds for the ineligible expenditures. In addition, OIG
     recommended that the Commission provide supporting documentation showing the amount includable
     in the eligible basis for the more than $3.4 million in unsupported costs and reimburse its U.S. Treasury
     line of credit from non-Federal funds for the amount HUD determines to be ineligible or it cannot support.
     Further, OIG recommended that HUD verify the implementation of the Commission’s new review process
     for the approval of draw requests to ensure that only eligible TCAP expenditures are paid. (Audit Report:
     2011-KC-1003)

                                                        nnn

        HUD OIG audited Oregon Housing and Community Services in Salem, OR, to determine whether
     Oregon Housing established eligible grant projects, entered TCAP information into FederalReporting.gov
     correctly, and paid eligible TCAP expenditures in accordance with ARRA requirements.

         Oregon Housing complied with applicable ARRA and HUD rules and regulations in establishing
     eligible grant projects and entering TCAP information into FederalReporting.gov. However, it did not
     always disburse TCAP funds in accordance with program requirements. It disbursed TCAP funds to two
     project owners for unsupported legal fees and ineligible appraisal, market study, project compliance, and
     legal fees.

         OIG recommended HUD require Oregon Housing to (1) provide supporting documentation for more
     than $80,000 in unsupported costs or reimburse its U.S. Treasury line of credit from non-Federal funds
     for any costs that remain unsupported, (2) reimburse more than $20,000 to its U.S. Treasury line of credit
     from non-Federal funds for the ineligible expenditures, and (3) review the remaining TCAP projects for
     ineligible costs. As a result of the audit, on March 17, 2011, Oregon Housing reimbursed its U.S. Treasury
     line of credit for the unsupported and ineligible costs. (Audit Report: 2011-SE-1005)

     Homelessness Prevention and Rapid Re-Housing Program
         HUD OIG audited City of Buffalo, NY, pertaining to the administration of its HPRP funded under ARRA
     to determine whether the City efficiently and effectively administered its program in compliance with
     ARRA and other applicable requirements, specifically, whether City officials had adequate policies and
     procedures to ensure that (1) program funds drawn from HUD’s Line of Credit Control System were
     supported with adequate documentation, (2) subrecipients were properly procured, and (3) subrecipients
     were monitored to ensure compliance with all applicable requirements.

         City officials did not always administer the HPRP grant in accordance with applicable rules and
     regulations. They (1) made cash advances to a subrecipient that were not supported by the immediate
     cash requirements, (2) failed to provide adequate support for the selection of subrecipients, and (3)
     did not adequately monitor subrecipients. As a result, City officials could not assure HUD that they had
     effective control over and accountability for all funds and that those funds were used solely for authorized
     purposes.

         OIG recommended that HUD instruct City officials to (1) provide documentation to support advances
     of more than $138,000, (2) provide documentation to justify the costs of two subrecipients with contracts
     totaling more than $392,000, and (3) revise its monitoring policies and procedures to ensure that it
     monitors the day-to-day activities of all subrecipients during the term of the grant agreements. (Audit
     Report: 2011-NY-1016)

                                                        nnn



80                                                    Chapter 5 - American Recovery and Reinvestment Act of 2009
  HUD OIG reviewed the City of Beaumont, TX’s HPRP to determine whether the City ensured that its
HPRP complied with ARRA and HUD program expenditure and reporting requirements.

   The City should strengthen its controls over its HPRP to better comply with ARRA requirements.
Specifically, it should improve controls over the timely obligation of funds, eligibility of participants, and
monitoring of subrecipients.

    OIG recommended that HUD require the City to provide support or repay approximately $215,000
and implement necessary controls to better manage its HPRP and demonstrate more effectively its
compliance with requirements. Also, OIG recommended that if the City cannot support the obligation of
funds, HUD recapture and rescind the deobligated funds and deposit those funds with the U. S. Treasury
in accordance with ARRA as amended. (Audit Report: 2011-FW-1013)

                                                    nnn

    HUD OIG audited Essex County, NJ’s HPRP to determine whether Essex County officials obligated
and expended HPRP funds within prescribed timeframes and implemented adequate controls to ensure
that grant awards complied with HPRP requirements.

   Essex County officials ensured that HPRP funds were obligated and expended within prescribed
timeframes; however, they had not established adequate controls to ensure that the County’s HPRP
was administered in accordance with program requirements. Consequently, its subrecipient expended
nearly $44,000 contrary to program requirements, disbursed more than $141,000 on behalf of recipients
whose eligibility was not adequately supported, and awarded grants that did not always comply with
administrative requirements. As a result, Essex County officials could not adequately assure HUD that
HPRP funds were expended in accordance with program requirements.

    OIG recommended that HUD instruct Essex County officials to (1) reimburse the HPRP line of credit
for funds expended on ineligible program costs, (2) provide documentation to adequately support the
unsupported disbursements, and (3) strengthen subrecipient monitoring procedures before administrating
future similar HUD-funded programs. (Audit Report: 2011-NY-1015)

                                                    nnn

    HUD OIG audited the HPRP grant awarded to the State of Alabama Department of Economic and
Community Affairs in Montgomery, AL, to determine whether the grantee administered the grant in
compliance with ARRA and other applicable regulations to ensure that (1) it properly reported results on
the Recovery.gov Web site, (2) it properly monitored its subgrantees, and (3) program participants and
activity expenditures were eligible and their eligibility was supported.

    The grantee adequately reported results on the Recovery.gov Web site. However, it did not ensure
that its subgrantees’ program participants and activity expenditures were eligible and their eligibility was
supported. As a result, the grantee missed opportunities to detect and prevent errors by its subgrantees
on a timely basis. Consequently, program funds totaling more than $69,000 were paid for participants
who were not eligible or whose eligibility was not supported.

    OIG recommended that HUD require the grantee to repay the U.S. Treasury account from non-Federal
funds the ineligible costs of more than $1,000 charged to its program and properly support the nearly
$68,000 charged to its program or repay the U.S. Treasury account from non-Federal funds the amount
that it cannot support. (Audit Report: 2011-AT-1019)

                                                    nnn


Chapter 5 - American Recovery and Reinvestment Act of 2009                                                       81
         HUD OIG audited the HPRP at the Georgia Department of Community Affairs in Atlanta, GA, to
     determine whether the Department established policies and procedures to ensure that (1) HPRP
     participants were eligible, (2) HPRP expenditures were supported with adequate documentation, (3)
     HPRP reporting requirements were met, and (4) subgrantees were monitored and trained.

         The Department paid for HPRP services for participants whose eligibility was not supported with the
     required income verification documentation. As a result, 11 of 32 HPRP participants’ files reviewed did
     not include adequate income verification documentation. Consequently, the participants’ eligibility was
     not supported for nearly $67,000 in HPRP services.

         OIG recommended that HUD require the Department to properly support or repay the current amount
     owed in questioned costs, ensure that the subgrantees follow HPRP requirements for verifying and
     documenting participant eligibility, and review a sample of the subgrantees’ files not included in OIG’s
     review to verify the participants’ eligibility. (Audit Report: 2011-AT-1009)

                                                         nnn

        HUD OIG audited the HPRP of the Mid-Willamette Community Action Agency in Salem, OR, to
     determine whether the Agency disbursed HPRP funds and reported data in accordance with ARRA
     requirements.

         The Agency paid for HPRP services without adequate supporting documentation for participant
     eligibility and expenses and did not always enter participant data accurately into the HPRP reporting
     system.

         OIG recommended that HUD require the Agency to provide supporting documentation for participant
     eligibility and expenditures or reimburse its program accounts nearly $65,000 and develop and implement
     a quality control plan to ensure that it verifies and documents the eligibility of HPRP participants and
     expenditures. In addition, OIG recommended that the Agency correct discrepancies in the HPRP reporting
     system and implement procedures to ensure that case managers enter accurate participant data. (Audit
     Report: 2011-SE-1006)

                                                         nnn

       HUD OIG audited the City of Houston, TX’s HPRP to determine whether the City ensured that its
     HPRP complied with ARRA and HUD laws, regulations, and requirements.

         The City did not ensure that its HPRP complied with ARRA requirements. Specifically, it did not ensure
     that subrecipients properly documented eligibility for 13 of the 16 client files reviewed. As a result, it paid
     more than $59,000 in HPRP assistance for tenants whose eligibility was not adequately documented and
     inappropriately paid $300 directly to one tenant.

         OIG recommended that HUD require the City to (1) conduct quarterly onsite monitoring of its
     subrecipient agencies to ensure that they comply with HPRP rules and requirements and ensure that
     the agencies maintain adequate records of client eligibility, (2) provide supporting documentation for 13
     participants lacking adequate documentation or reimburse its HPRP account from non-Federal funds,
     and (3) reimburse its HPRP account from non-Federal funds for ineligible expenses. (Audit Report: 2011-
     FW-1009)

                                                         nnn




82                                                      Chapter 5 - American Recovery and Reinvestment Act of 2009
   HUD OIG audited the HPRP of Special Services for Groups in Los Angeles, CA, to determine whether
Special Services administered its HPRP in accordance with ARRA and other requirements.

    Special Services did not always administer its HPRP in accordance with ARRA and other requirements.
Of 30 participant files reviewed, Special Services approved HPRP assistance for an ineligible participant
and 25 participants whose eligibility was not supported. As a result, OIG questioned the use of nearly
$54,000 in HPRP assistance provided to these participants.

   OIG recommended that HUD require Special Services to (1) reimburse its HPRP more than $2,000 from
non-Federal funds for an ineligible participant whose income exceeded HUD requirements; (2) provide
supporting documentation for 25 participants lacking adequate documentation or reimburse its HPRP
nearly $52,000 from non-Federal funds; and (3) establish and implement sufficient HPRP eligibility and
documentation policies and procedures for income determinations, homelessness, financial resources,
support networks, participant recertification, and subsequent housing options. (Audit Report: 2011-LA-
1009)

                                                   nnn

   HUD OIG audited the HPRP of People Assisting the Homeless (PATH) and three of its subgrantees in
Los Angeles, CA, to determine whether PATH administered its HPRP in accordance with ARRA and other
requirements.

    PATH did not always administer its HPRP in accordance with ARRA and other requirements. OIG
reviewed 30 participant files and determined that PATH and its subgrantees approved HPRP assistance
for 4 ineligible participants and 13 participants whose eligibility was not supported. In addition, 18 of the
30 participant files contained deficiencies such as missing staff affidavit forms and missing participant
household identification documents. As a result, OIG questioned the use of more than $29,000 in HPRP
assistance provided to these participants.

    OIG recommended that HUD require PATH to (1) reimburse its HPRP more than $8,000 from non-
Federal funds for 4 ineligible participants; (2) provide supporting documentation for 13 participants
lacking adequate documentation or reimburse its HPRP more than $21,000 from non-Federal funds;
(3) establish and implement sufficient HPRP eligibility and documentation policies and procedures for
income determination, homelessness, financial resources, support networks, participant recertification,
and subsequent housing options; (4) develop and implement procedures to ensure that its subgrantees
verify and document participant eligibility in accordance with HPRP requirements; (5) ensure that staff
affidavit forms determining eligibility are maintained in each participant file for each person and are
signed by a supervisor; and (6) ensure that it follows its own internal policies when determining HPRP
eligibility. (Audit Report: 2011-LA-1010)

                                                   nnn

    HUD OIG audited the City of Las Vegas, NV’s HPRP, established by ARRA, to determine whether the
City administered and expended its grant in accordance with program requirements.

   The City paid for HPRP services for ineligible participants and participants whose eligibility was
unsupported. It also paid for ineligible activities. OIG reviewed 18 case files and found that 8 participants
were ineligible and 7 did not have adequate documentation to support eligibility. Further, the City did not
have adequate procedures to ensure that HPRP expenditures and activities were accurately tracked and
recorded.




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                      83
         OIG recommended that HUD require the City to (1) reimburse the program nearly $46,000 from non-
     Federal funds for the ineligible participants and activities and determine and reimburse any amounts
     that have been spent since the review for these participants; (2) provide supporting documentation for
     participants’ eligibility or reimburse its program accounts more than $29,000 for participants reviewed
     who lacked adequate documentation and determine and reimburse any unsupported amounts that have
     been spent since the review for these participants; (3) design and implement adequate procedures for
     determining, reviewing, and approving eligibility for participants and activities that will provide reasonable
     assurance that assistance payments are made only for eligible participants and activities; (4) develop and
     implement new controls and procedures to ensure that financial records are accurate and prevent the
     deficiencies identified; and (5) perform a complete review of assistance payments to date and correct any
     errors. OIG also recommended that HUD review additional case files and identify additional questioned
     costs. (Audit Report: 2011-LA-1012)

                                                         nnn

        HUD OIG audited the HPRP administered by the City of Hialeah, FL, to determine whether the City
     administered its program in accordance with HUD and ARRA requirements, specifically, whether (1)
     expenditures were allowable, (2) HPRP participants were eligible, and (3) HPRP reporting requirements
     were met.

          The City demonstrated that the costs were allowable and HPRP participants were eligible. However,
     it did not accurately report the number of jobs created or retained for the quarter ending March 31, 2011,
     on the ARRA Web site. As a result, the public did not have access to transparent information on the
     number of jobs created or retained with ARRA funds.

         OIG recommended that HUD require the City to (1) calculate and maintain documentation to support
     the correct number of jobs created or retained for the quarter ending March 31, 2011, and (2) develop
     and implement procedures to ensure that the City adequately supports and calculates the number of jobs
     created or retained in future periods. (Audit Report: 2011-AT-1016)

     Office of Multifamily Housing Audits and Reviews

     Office of Sustainable Housing and Communities

         HUD OIG audited the implementation of HUD’s partnership with the U.S. Department of Energy (DOE)
     to determine whether HUD multifamily properties were eligible to receive ARRA funding under DOE’s
     Weatherization Assistance Program.

         HUD did not have records regarding which properties had been weatherized. Although HUD entered
     into a memorandum of understanding with DOE to improve energy efficiency in its qualified housing
     properties, it did not require DOE to provide data on which HUD qualified housing properties had been
     selected to be weatherized. Specifically, HUD did not require DOE to report which HUD properties
     participated in the weatherization program. As a result, HUD could not identify improved properties or
     cost savings achieved through reduced energy costs.

        OIG recommended that HUD request reports from DOE that identify which HUD qualified housing
     properties have been weatherized. (Audit Report: 2011-HA-0004)




84                                                     Chapter 5 - American Recovery and Reinvestment Act of 2009
Office of Healthy Homes and Lead Hazard Control Audits and
Reviews

Lead Hazard Reduction Demonstration Program

   HUG OIG audited HUD’s Office of Healthy Homes and Lead Hazard Control’s monitoring of its
ARRA grant recipients to determine whether Healthy Homes monitored its recipients of ARRA grants in
accordance with ARRA and HUD requirements.

     Healthy Homes did not maintain documentation in accordance with its requirements to support
payments to four recipients totaling more than $4.2 million of the nearly $5 million in grant awards.
The payments were made to reimburse the recipients for their claimed grant expenses. Additionally,
Healthy Homes did not review the voucher requests for payment in a timely manner. Documentation to
support the recipients’ voucher requests for payment was either missing or not adequate. Healthy Homes
accepted operating ledgers, billing summaries, email lists, a list of expenditures, budgets showing the
current request by category, and copies of check stubs as support for the voucher requests for payment.
It also did not ensure that recipients’ working files included the required documents and reports.

    OIG recommended that HUD (1) obtain adequate documentation to support the payment of
the unsupported ARRA funds, (2) ensure that recipients’ voucher requests for payment are reviewed
in a timely manner, (3) implement adequate procedures and controls to correct voucher processing
deficiencies, and (4) implement adequate policies and procedures to ensure that recipients’ files contain
the documentation and reports required by Healthy Homes’ issued guidance. (Audit Report: 2011-CH-
0003)

Review of the Overall ARRA Program

Review of HUD’s Compliance With Obligation Deadlines

    HUD OIG audited HUD’s compliance with obligation deadlines and progress toward meeting
expenditure requirements related to eight programs funded by ARRA to determine whether HUD
obligated ARRA funds in accordance with applicable deadlines and to assess HUD’s oversight of grantees’
expenditure of ARRA funds and HUD’s internal requirements.

   OIG determined that (1) $1.6 million in Capital Fund and Native American Housing Block Grant funds,
recaptured after July 21, 2010, must be returned to the U.S. Treasury under the provisions of the Pay It
Back Act and (2) ARRA monitoring and oversight could be better documented in HUD’s funds control
plans.

   OIG recommended that HUD (1) ensure that the recaptured funds are returned to the U.S. Treasury as
required by the Pay It Back Act and (2) establish and implement procedures to ensure the accuracy and
completeness of ARRA funds control plans. (Audit Report: 2011-FO-0005)




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                  85
     Review of Recovery Act Management and Reporting System

          HUD OIG audited HUD’s management procedures, practices, and controls related to RAMPS to assess
     its capability to record and provide data required by ARRA on which HUD is required to report.

         Overall, RAMPS had the capability to record ARRA data and produce the reports necessary for HUD
     to comply with ARRA reporting requirements. However, OIG identified areas in which vulnerabilities
     existed. These vulnerabilities could compromise the validity of the information that is required to be
     disclosed to the public.

         OIG recommended that HUD ensure that (1) reports required by ARRA are accurate and complete,
     (2) access controls over RAMPS adequately protect ARRA data that are required to be disclosed to the
     public, and (3) the RAMPS technical problem reporting process is limited to a single point of contact.
     (Audit Report: 2011-DP-0007)

                                                     nnn




86                                                  Chapter 5 - American Recovery and Reinvestment Act of 2009
Investigations
    Some investigations discussed in this report were generated from leads provided by HUD program
staff or conducted jointly with Federal, State, and local law enforcement agencies. The results of various
significant investigations are described below.

Theft/Embezzlement

    Dori McGeshick, a current HUD Office of Native American Programs employee and former community
planner for the Sokaogon Chippewa Community Housing Department (Sokaogon), an organization
that receives HUD- and ARRA-funded Indian Housing Block Grant funds, was indicted in U.S. District
Court, Milwaukee, WI, for allegedly committing theft from a program receiving Federal funds. Between
December 2009 and January 2010, McGeshick allegedly diverted and personally used $13,000 in Sokaogon
ARRA funds.

                                                   nnn

    Christopher Bender, a landlord for Real Estate Investment Companies, an organization that receives
HUD HPRP funds, pled guilty in U.S. District Court, Harrisburg, PA, to making false statements. From
September to November 2010, Bender created and provided false documents that fraudulently claimed
that HUD HPRP program recipients were homeless. HUD realized losses of $5,450.

                                                   nnn

    Fern Smith, a former social worker for the Louisville Metro Department of Housing and Family Services
(Louisville), an organization that receives HUD HPRP program funds, was indicted in Jefferson County
Circuit Court, Louisville, KY, for allegedly committing theft. From 2007 to 2010, Smith allegedly falsified
documents and personally used about $4,763 in Louisville HPRP funds.

Other Fraud/Crimes
    George and Elias Saad and Kristijan Katjna each pled guilty in U.S. District Court, Boston, MA, to making
false statements, committing a conspiracy to commit wire fraud, submitting false claims, or aiding and
abetting. From 2008 to September 2010, George and Elias Saad, Kristijan Katjna, and other individuals
conspired, recruited straw borrowers, provided false information used by unqualified borrowers to obtain
Federal Housing Administration-insured mortgages, or submitted false claims for ARRA-funded “first-time
homebuyer tax credit.” HUD losses have not yet been determined.

                                                   nnn




Chapter 5 - American Recovery and Reinvestment Act of 2009                                                      87
Chapter 6 - Disaster Grant Programs
     Introduction and Background
          In response to disasters, Congress may appropriate additional funding as Disaster Recovery grants to
     rebuild the affected areas and provide crucial seed money to start the recovery process. Over the past
     several years, disaster funding for the U.S. Department of Housing and Urban Development (HUD) has
     exceeded $29 billion, from which HUD provides flexible grants to help cities, counties, and States recover
     from presidentially declared disasters. These active disaster grants nationwide have approximately $26
     billion in obligations and $20 billion in disbursements. Of the total $29 billion in current HUD disaster
     funds, $19.6 billion was provided for Hurricanes Katrina, Rita, and Wilma. Regarding the $19.6 billion in
     funds provided to Gulf Coast States, $16.3 billion, or 83.2 percent of the funds, has been disbursed for the
     period ending September 30, 2011.

          Keeping up with communities in the recovery process can be a challenging position for HUD. The
     HUD Office of Inspector General (OIG) continues to take steps to ensure that the Department remains
     diligent in assisting communities with their recovery efforts. During the current semiannual period, the
     Office of Audit completed two Katrina audits. For these two audits, OIG questioned costs of $3.1 million
     and provided recommendations for management improvements.

                                                        nnn




90                                                                             Chapter 6 - Disaster Grant Programs
Audit
    During this period, OIG’s Office of Audit issued two new audit reports on HUD’s disaster programs.
The reviews covered the Community Development Block Grant (CDBG) disaster program and the Disaster
Housing Assistance Program (DHAP). HUD provides disaster assistance through the CDBG program, which
is made available from supplemental appropriations for recovery from major disasters declared by the
President. DHAP, which provides housing assistance and case management services for eligible families,
is administered by HUD’s Office of Public and Indian Housing. These reviews were performed by HUD
OIG’s Office of Audit, Gulf Coast Region.

 Key program results                              Questioned costs               Funds put to better use
       Audit                2 audits*                 $3.1 million                        $75,000

* The total disaster grant program audits consist of community planning and development and public and Indian
housing audits. The questioned costs and funds put to better use amounts relate only to disaster-related costs.


   HUD OIG audited the HUD CDBG Supplemental Disaster Recovery program funds administered by the
State of Mississippi, a $5.5 billion CDBG Supplemental Disaster Recovery program grantee, to determine
whether the State ensured that disbursements made under the Homeowner Assistance Elevation Grant
Program were eligible and supported.

    The State generally ensured that disbursements to Program participants were eligible and supported.
However, it disbursed funds to participants who (1) were initially eligible but later defaulted, making the
disbursements ineligible, and (2) received duplicate assistance. As a result, the State paid $90,000 in
ineligible costs.

    OIG recommended that HUD require the State to (1) repay its Program for ineligible costs; (2) reallocate
$75,000 in unreimbursed funds, thereby ensuring that these funds are put to better use; and (3) develop
and implement written policies to assess the need for elevation construction before disbursing funds to
Program participants. OIG also recommended that HUD require the State to consider amending its Program
policy to require (1) staff performing file reviews to document reviews and verify required documentation;
(2) land surveyors, engineers, and architects to submit photographs of properties with the elevation
certificate; (3) periodic site visits to properties to ensure that homes were elevated in accordance with
the Program elevation requirements; and (4) eligibility reviews across its disaster recovery programs to
ensure that different participants did not receive assistance for the same damaged property. (Audit Report:
2011-AO-1005)

                                                     nnn

     HUD OIG audited the Lafayette Parish Housing Authority in Lafayette, LA, regarding the operations of
its public housing program and DHAP to determine whether the Authority operated in accordance with
HUD’s and other requirements. Specifically, OIG wanted to determine whether the Authority (1) complied
with requirements in the procurement and monitoring of its contracts and (2) ensured that its contracts
were reasonable and necessary.

   The Authority neither properly administered its contracting activities nor ensured that its contracts
were reasonable and necessary. It also paid its contractors, including its DHAP contractors, outside of




Chapter 6 - Disaster Grant Programs                                                                               91
     specified contract timeframes, in excess of specified contract amounts, and excessive contract increases.
     As a result, it could not provide reasonable assurance that more than $2.9 million in disbursements from
     its operating and/or capital fund was spent properly; protected from fraud, waste, and abuse; or used to
     benefit program participants.

          The Authority also did not always ensure that its contracts were reasonable and necessary. As a result,
     it could not provide reasonable assurance that HUD funds were used effectively and efficiently or to benefit
     program participants. In addition, HUD funds may have been exposed to fraud, waste, and abuse.

         OIG recommended that HUD require the Authority to (1) support or repay from non-Federal funds
     the portion of the operating and/or capital funds that it cannot support, (2) modify its procurement policy
     to reflect applicable State and local laws and regulations and applicable Federal laws, (3) implement
     additional internal controls related to its procurement and monitoring activities, (4) ensure that its staff
     attends HUD-approved procurement training on contract administration and oversight, (5) ensure that it
     maintains adequate levels of competent staff, (6) immediately stop payments to the DHAP accounting
     specialist working without an executed contract and support or repay any amounts that it cannot support
     from non-Federal funds, and (7) remain under HUD receivership for at least a year or until it can demonstrate
     to HUD that its procurement and other practices consistently meet Federal requirements. After the HUD
     receivership is lifted and an executive director is hired, HUD should place the Authority on a zero dollar
     threshold for at least a year or until it can demonstrate to HUD that its procurement and other practices
     consistently meet Federal requirements.

         In addition, OIG recommended that HUD take appropriate administrative action, up to and including
     debarment, against the former deputy director and require the Authority to (1) perform a cost or price
     analysis in connection with every procurement action and (2) review proposed procurements to avoid
     the purchase of unnecessary or duplicative items. (Audit Report: 2011-AO-0001)

                                                        nnn




92                                                                             Chapter 6 - Disaster Grant Programs
Investigation
    The HUD OIG Office of Investigation continues to pursue HUD disaster assistance crimes with other
law enforcement agencies, including the Federal Bureau of Investigation and other Federal, State, and
local partners. While the majority of prosecutions during this reporting period involved individuals who
obtained disaster assistance through fraud, OIG is vigorously pursuing public corruption, infrastructure,
and procurement crimes. Working with the Louisiana Recovery and Mississippi Development Authorities,
OIG is taking a proactive role to prevent fraudulent disaster-related claim payments and to assist with the
recovery of deceptive or fraudulent grants. In addition, HUD OIG continues to be a dedicated partner in
the National Center for Disaster Fraud Task Force (previously known as the Hurricane Katrina Fraud Task
Force). HUD OIG provides personnel to support the joint command center in Baton Rouge, LA, continues
to support disaster-related investigative efforts throughout the country, and actively participates in the
sharing of information and the receipt and referral of complaints with other law enforcement agencies.

Homeowner Grant Fraud
    Judy Carter pled guilty in U.S. District Court, Gulfport, MS, to committing theft of government
funds. Carter applied for and received $300,000 in CDBG Disaster Recovery Assistance funds through
the Mississippi Development Authority (MDA) and $49,517 in Federal Emergency Management Agency
(FEMA) disaster assistance for hurricane-damaged residential property, but the damaged property was
not her primary residence during Hurricane Katrina.

                                                  nnn

    Ellaine Mullone was sentenced in U.S. District Court, New Orleans, LA, to 5 years probation and ordered
to pay the Louisiana Office of Community Development $150,000, the Small Business Administration (SBA)
$178,113, and FEMA $22,984 in restitution for her earlier guilty plea to committing theft of government
funds. Mullone applied for and received $150,000 in CDBG Disaster Recovery Assistance funds through
the Louisiana Road Home (Road Home) program and $245,676 in SBA and FEMA disaster assistance for
hurricane-damaged residential property, but the damaged property was not her primary residence during
Hurricane Katrina.

                                                  nnn

    Vanessa Jones pled guilty in U.S. District Court, New Orleans, LA, to making false statements. Jones
applied for and received $150,000 in CDBG Disaster Recovery Assistance funds through the Road Home
program for hurricane-damaged residential property, but the damaged property was not her primary
residence during Hurricane Katrina.

                                                  nnn

    James Pizzolato remitted $146,849 to the Louisiana Office of Community Development, entered
into a pretrial diversion filed in U.S. District Court, New Orleans, LA, and agreed to 1-year probation for
his earlier admission to making false statements. Pizzolato applied for and received $146,849 in CDBG
Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged residential
property, but the damaged property was not his primary residence during Hurricane Katrina.

                                                  nnn




Chapter 6 - Disaster Grant Programs                                                                           93
         Ivan Alfonso was charged in U.S. District Court, New Orleans, LA, with allegedly committing theft
     of government funds. Alfonso applied for and received $123,437 in CDBG Disaster Recovery Assistance
     funds through the Road Home program for hurricane-damaged residential property, but allegedly the
     damaged property was not his primary residence during Hurricane Katrina.

                                                      nnn

         Cecile Payne was sentenced in U.S. District Court, New Orleans, LA, to 3 years probation and ordered
     to pay the Louisiana Office of Community Development $102,718 and FEMA $20,121 in restitution for her
     earlier guilty plea to committing theft of government funds. Payne applied for and received $102,718 in
     CDBG Disaster Recovery Assistance funds through the Road Home program and $20,121 in FEMA disaster
     assistance for hurricane-damaged residential property, but the damaged property was not her primary
     residence during Hurricane Katrina.

                                                      nnn

         Vernon Ponder was charged in U.S. District Court, Gulfport, MS, with allegedly committing theft of
     government funds. Ponder applied for and received $100,000 in CDBG Disaster Recovery Assistance
     funds through MDA for hurricane-damaged residential property, but allegedly the damaged property was
     not his primary residence during Hurricane Katrina.

                                                      nnn

         Portia Williams entered into a pretrial diversion filed in U.S. District Court, New Orleans, LA, and
     agreed to pay the Road Home program $96,258. On September 21 and October 1, 2007, Williams admitted
     that she erroneously received $96,258 in Road Home program funds and refused to repay the money after
     the mistake was discovered.

                                                      nnn

         Gerald and Michael Haydel each pled guilty in U.S. District Court, Jackson, MS, to committing theft
     of government funds. Gerald and Michael Haydel applied for and received $92,856 in CDBG Disaster
     Recovery Assistance funds through MDA and $22,373 in FEMA disaster assistance for hurricane-damaged
     residential property, but the damaged property was not their primary residence during Hurricane Katrina.

                                                      nnn

         Hoa Tran Shelton pled guilty in U.S. District Court, Gulfport, MS, to committing theft of government
     funds. Shelton applied for and received $73,848 in CDBG Disaster Recovery Assistance funds through MDA
     for hurricane-damaged residential property, but the damaged property was not her primary residence
     during Hurricane Katrina.

                                                      nnn

         Donna Fowler was sentenced in U.S. District Court, Gulfport, MS, to 6 months incarceration and
     3 years supervised release and ordered to pay MDA $77,994 in restitution for her earlier guilty plea to
     committing theft of government funds. Fowler applied for and received $77,994 in CDBG Disaster
     Recovery Assistance funds through MDA for hurricane-damaged residential property, but the damaged
     property was not her primary residence during Hurricane Katrina.

                                                      nnn



94                                                                          Chapter 6 - Disaster Grant Programs
    Rosalyn Kelsey was sentenced in U.S. District Court, Gulfport, MS, to 6 months home detention
and 5 years probation and ordered to perform 70 hours of community service and pay FEMA $22,369
in restitution for her earlier guilty plea to committing theft of government funds. Kelsey applied for and
received $64,875 in CDBG Disaster Recovery Assistance funds through MDA for hurricane-damaged
residential property, but the damaged property was not her primary residence during Hurricane Katrina.

                                                  nnn

   Annette Stallworth was sentenced in U.S. District Court, Gulfport, MS, to 3 years probation and
ordered to perform 80 hours of community service and pay MDA $53,790 in restitution for her earlier guilty
plea to making false statements. Stallworth applied for and received $53,790 in CDBG Disaster Recovery
Assistance funds through MDA and $38,800 in SBA disaster assistance for hurricane-damaged residential
property, but the damaged property was not her primary residence during Hurricane Katrina.

                                                  nnn

   Carlas Williams was sentenced in U.S. District Court, Baton Rouge, LA, to 3 years probation and
ordered to pay SBA $46,300 in restitution for her earlier guilty plea to making false statements. Williams
provided fraudulent income information when she applied for and received $51,449 in CDBG Disaster
Recovery Assistance funds through the Road Home program and $98,000 in SBA disaster assistance for
hurricane-damaged residential property.

                                                  nnn

   Valinda Pullen pled guilty in U.S. District Court, Gulfport, MS, to making false statements. Pullen
submitted a false elevation certificate when she applied for $30,000 in CDBG Disaster Recovery Assistance
funds through the MDA Elevation Grant program.

                                                  nnn

   Anthony Spears, Sr., pled guilty in U.S. District Court, Gulfport, MS, to committing theft of government
funds and mail fraud. Spears applied for and received $23,452 in CDBG Disaster Recovery Assistance
funds through MDA and $128,858 in SBA and FEMA disaster assistance for hurricane-damaged residential
property, but the damaged property was not his primary residence during Hurricane Katrina.

Civil and Administrative Actions
    Former HUD attorney Diane Walder and her husband James Groomes, who previously pled guilty
in U.S. District Court, Gulfport, MS, to committing theft of government funds, were each debarred from
procurement and nonprocurement transactions with HUD and throughout the Executive Branch of the
Federal Government for 3 years. Walder and Groomes applied for and received $150,000 in CDBG Disaster
Recovery Assistance funds through MDA and $50,000 in SBA disaster assistance for hurricane-damaged
residential property, but the damaged property was not their primary residence during Hurricane Katrina.

                                                  nnn

    LaTanicia McMillan-Rogers and Wayne Rogers, who previously pled guilty in U.S. District Court,
Jackson, MS, to committing theft of government funds, were each debarred from procurement and
nonprocurement transactions with HUD and throughout the Executive Branch of the Federal Government
for an indefinite period. McMillan-Rogers and Rogers applied for and received $91,021 in CDBG Disaster
Recovery Assistance funds through MDA and $156,358 in SBA and FEMA disaster assistance for hurricane-



Chapter 6 - Disaster Grant Programs                                                                           95
     damaged residential property, but the damaged property was not their primary residence during Hurricane
     Katrina.

     HUD and FEMA Disaster Housing Assistance Fraud
         Jefferson Thompson, a Jefferson Parish Housing Authority (Jefferson Parish) Disaster Housing
     Assistance and Housing Choice Voucher program landlord, was sentenced in U.S. District Court, New
     Orleans, LA, to 1 year probation, ordered to pay Jefferson Parish $13,770 in restitution, and fined $1,000
     for his earlier guilty plea to committing theft of government funds. From August 2006 to February 2008,
     Thompson fraudulently obtained $13,770 in dual housing subsidies for a disaster housing assistance
     recipient.

                                                       nnn




96                                                                           Chapter 6 - Disaster Grant Programs
Chapter 7 - Other Significant Audits
and Investigations/OIG Hotline
         In addition to the audits and investigations described in this chapter, the U.S. Department of Housing
     and Urban Development (HUD), Office of Inspector General (OIG), has conducted a number of outreach
     efforts (see chapter 8, page 115).



     Audit
                     Strategic Initiative 4: Contribute to improving HUD’s execution
                         and accountability of fiscal responsibilities as a relevant
                       and problem-solving advisor to the Department’s execution
      Key program results                                  Questioned costs                 Funds put to better use
             Audit                12 audits1                    $6 million                         $27.1 million
              Our                   Page 98          •    Alleged false statements in loan application and scheme
             focus                                        to defraud a financial institution
                                    Page 99          •    Alleged violations of HUD’s real estate-owned owner-
                                                          occupancy program
                                    Page 99          •    Reviews of Office of Chief Procurement Officer
                                   Page 100          •    Office of Healthcare Programs
                                   Page 100          •    Evaluation of Office of Labor Relations’ management of
                                                          Davis-Bacon wage restitution and deposit account
     1
       The total “other” audits, questioned costs, and funds put to better use amounts include any American Recovery and
     Reinvestment Act of 2009 (six audits) type audits conducted in the “other” area. The writeups for these audits are shown
     separately in chapters 5 of this semiannual report.


         HUD OIG’s more significant audits are discussed below.

     Civil Actions

     Alleged False Statements in Loan Application and Scheme To Defraud
     a Financial Institution
         HUD OIG conducted a civil fraud review of IndyMac Bank in Pasadena, CA, to determine whether
     IndyMac followed Federal Housing Administration (FHA) policies and procedures when it originated FHA-
     insured loans.

         OIG focused on loans secured by California properties that were in claim or default status as of February
     12, 2009. Within this group, OIG identified a set of questionable loans originated by IndyMac that had been
     generated by Beechwood Incorporated, a company located in Moreno Valley, CA, that conducts various
     real estate services.

         Based on OIG’s review, the U.S. Attorney’s Office of the Central District of California filed a civil complaint
     against Beechwood and four individuals associated with the company, under the Financial Institutions
     Reform, Recovery, and Enforcement Act, 12 U.S.C. (United States Code) 1833a, alleging that Beechwood
     and the individuals made false statements in support of a loan application and devised a scheme to defraud
     a financial institution.



98                                                       Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
    On June 1, 2011, Beechwood entered into a settlement agreement to pay $100,000 to the U.S. Government
to resolve the complaint. The parties agreed that the settlement agreement was not an admission of
liability or fault on the part of either party and was entered into for the purpose of compromising disputed
claims arising under or related to the complaint and to avoid the expenses and risks of litigation. (Audit
Memorandum: 2011-CF-1803)

Alleged Violations of HUD’s Real Estate-Owned Owner-Occupancy
Program (Report Not Available to the Public)
     HUD OIG reviewed alleged violations of HUD real estate-owned (REO) owner-occupancy program
requirements by the subject (name withheld for privacy reasons). OIG concluded that the subject failed
to comply with the HUD REO program requirement that an individual who purchases an REO home during
its initial offering period must be the owner-occupant of the purchased home for 1 full year. In April 2011,
HUD notified the subject of its intent to seek a false statement charge against the subject under the Program
Fraud Civil Remedies Act. In May 2011, HUD reached a settlement with the subject, who paid $5,000 to
HUD to resolve the matter. OIG has determined that the content of this memorandum is not appropriate
for public disclosure and has, therefore, limited its distribution to selected officials. (Audit Memorandum:
2011-CF-1802)

Reviews of Office of Chief Procurement Officer
    HUD OIG audited HUD’s administration of interagency agreements (IAA). This audit was part of the fiscal
year 2010 audit plan because of congressional hearings on the use and management of IAAs throughout
the Federal Government. The audit objective was to determine whether HUD effectively administered its
IAAs and the costs to procure these products and services were reasonable.

   HUD had improved its administration of IAAs by significantly reducing the backlog of expired IAAs.
However, it must ensure that current IAAs are closed out in a timely manner. In addition, the costs
HUD incurred to procure the products and services via IAAs were reasonable. OIG made no formal
recommendations because HUD had addressed the noted issues based on a previous audit. (Audit Report:
2011-HA-0002)

                                                       nnn

   HUD OIG audited the Office of the Chief Procurement Officer’s procedures for closing out completed
and expired Government National Mortgage Association (Ginnie Mae) contracts in compliance with
applicable regulations. The audit objective was to determine whether HUD performed timely closeouts
on completed and expired Ginnie Mae contracts.

    The procurement office did not (1) obtain documentation from Ginnie Mae to close out completed
and expired contracts in a timely manner, (2) follow the Federal Acquisition Regulation (FAR) and HUD
guidelines for contract closeout procedures, and (3) have access to Ginnie Mae’s financial systems or
data. In addition, Ginnie Mae did not (1) follow HUD’s guidelines for contract closeout and (2) always
retain documentation needed to close aged contracts.

    OIG recommended that HUD’s Chief Procurement Officer (1) ensure that her staff follows the closeout
procedures and the FAR time standards for closing out contracts and (2) clearly define the type and
frequency of financial data Ginnie Mae needs to provide to HUD to close out contracts.




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                             99
         OIG recommended that the President of Ginnie Mae require his staff to (1) follow HUD’s policies and
      procedures for closing out contracts, (2) retain complete contract files until contracts are formally closed,
      and (3) routinely provide the required financial data to HUD. (Audit Report: 2011-HA-0003)

      Office of Healthcare Programs
          HUD OIG reviewed Blue Mountain Hospital to determine whether it had adequate written procedures
      for collecting, dispersing, and accounting for project funds.

           The Hospital did not have adequate written procedures for collecting, disbursing, and accounting for
      project funds. It had only a general finance policy manual, which was developed after operations started.
      It did not have written procedures to guide each of its financial department positions.

          OIG recommended that HUD require that the Hospital establish and implement written procedures for
      the financial department positions involved with collecting, disbursing, and accounting for project funds.
      (Audit Report: 2011-DE-1002)

      Evaluation of Office of Labor Relations’ Management of Davis-Bacon
      Wage Restitution and Deposit Account
          HUD OIG audited HUD’s Office of Labor Relations’ wage restitution and deposit process to gain an
      understanding of the deposit process and determine whether the controls used to administer and distribute
      restitution payments were adequate.

          Labor Relations had weak internal controls over its deposits and wage restitution payments. Complete
      responsibility for managing the deposits, processing payments, and reporting for the deposit account was
      vested in Labor Relations’ senior policy advisor. Its internal controls were deemed weak because only one
      person was designated to manage these duties. This lack of segregation of duties heightened the risk of
      undetected errors and allowed opportunities to misappropriate funds or conceal intentional misstatements
      of wage restitution payments and refunds.

          OIG recommended that HUD (1) reassign and disperse among the Labor Relations regional offices the
      duties of tracking the deposit transactions and certifying payment vouchers, (2) decrease the senior policy
      advisor’s access to HUD’s LR2000 system to a level lower than that of the system administrator, (3) ensure
      that the Director of Labor Relations has final approval authority over all vouchers for payments to workers
      or refunds to depositors, and (4) ensure that the deposit account balance is immediately reconciled with
      the balance reported by the Office of the Chief Financial Officer. (Audit Memorandum: 2011-HA-0801)

                                                         nnn




100                                                 Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
Investigations
               Strategic Initiative 4: Contribute to improving HUD’s execution
                   and accountability of fiscal responsibilities as a relevant
                 and problem-solving advisor to the Department’s execution
    Key program                  Cases                    $           Convictions/pleas/   Admin/civil
       results                   closed               recovered           pretrials         actions

    Investigations                 25                   $10,540               3                13


   The investigation shown below was generated from leads provided by HUD program staff.

    Matt McDermott was sentenced in U.S. District Court, Omaha, NE, to 5 years probation for his earlier
guilty plea to intimidating HUD employees engaged in the performance of their official duties. McDermott
sent threatening emails and voice messages to HUD employees at the National Servicing and Loss Mitigation
Center located in Oklahoma City, OK.

                                                      nnn




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                         101
      Inspections and Evaluations
          The HUD OIG Office of Investigation’s Inspections and Evaluations Division’s activities are designed to
      promote economy, efficiency, and effectiveness in the administration of HUD programs; detect and deter
      fraud and abuse in HUD programs and operations; and ensure compliance with applicable laws and
      regulations. The office conducts inspections and evaluations using various study methods and evaluative
      techniques to provide timely information to improve policies, programs, and procedures.

      Evaluation of HUD’s Governmentwide Purchase Card Program
         HUD OIG evaluated HUD’s Governmentwide Purchase Card Program to determine whether purchase
      card transactions complied with prescribed policies and procedures.

          Cardholders did not always ensure that (1) the availability of funds was properly documented, (2)
      required sources were used, (3) competitive bids were obtained when required, (4) purchase orders were
      used as required, (5) purchase logs were maintained, (6) sales tax charges were not paid, (7) purchase logs
      were reconciled with monthly bank statements, and (8) supporting records were retained for a sufficient
      period. In addition, some purchases were split, apparently to avoid exceeding the micropurchase threshold
      or cardholders’ single-purchase limits.

          OIG recommended that HUD take steps to correct these problems, including ensuring that (1) purchase
      card transactions are conducted in accordance with applicable laws and regulations, (2) managers and
      approving officials perform a thorough review for potential split purchases, and (3) cardholders are properly
      trained. (I&E Report: IED-11-003R)

                                                         nnn




102                                                 Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
OIG Hotline
    The hotline is staffed by OIG employees, who take allegations of waste, fraud, abuse, or serious
mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and the public. The
hotline also coordinates reviews with internal audit and investigative units or with HUD program offices.

    During this reporting period, the hotline received and processed 4,160 complaints -- 23 percent received
by telephone, 12 percent by mail, and 65 percent by email. Every allegation determined to be related to
the OIG mission is logged into a database and tracked.

   Of the complaints received, 344 were related to the mission of OIG and were addressed as hotline cases.
Hotline cases are referred to OIG’s Offices of Audit and Investigation or to HUD program offices for action
and response. The following illustration shows the distribution of hotline case referrals by percentage.



                      Chart 7.1: Hotline cases and non-case referrals opened




                                                                      Non-OIG mission-related referrals, 90%
                                                                      HUD mission-related OIG hotline
                                                                      referrals, 8%
                                                                      OIG mission-related investigation and
                                                                      audit referrals, 2%




     The hotline closed 168 cases this reporting period. The closed hotline cases included 41 substantiated
allegations. The substantiated allegations resulted in 13 administrative sanctions, including action
taken against a tenant for failing to report all income and allowing unauthorized live-ins to reside in her
HUD-subsidized residence. The Department also took 19 corrective actions that resulted in $51,153 in
recoveries of losses and $751,320 in HUD funding that could be put to better use. The recoveries included
repayments of overpaid rental subsidies. Some of the funds that could be put to better use were the
result of cases in which tenants were terminated from public housing or multifamily housing programs
for improperly reporting their incomes or family composition to qualify for rental assistance.




Chapter 7 - Other Significant Audits and Investigations/OIG Hotline                                            103
                                                                                                                  10
                    Chart 7.2: Hotline dollar impact from program offices

                            $669,852

      $800,000


      $650,000


      $500,000


      $350,000

                                                                       $81,468
      $200,000                           $17,781                                    $31,515


           $0          Public and Indian housing                   Multifamily housing

                            Funds put to better use          Recoveries




            Chart 7.3: Substantiated cases by type of complaint received by hotline




                                                                      Mismanagement, 2%
                                                                      Rental fraud and improprieties, 98%




                                                   nnn




104                                         Chapter 7 - Other Significant Audits and Investigations/OIG Hotline
05   Chapter 8 - Outreach Efforts
          To foster cooperative, informative, and mutually beneficial relationships with agencies and organizations
      assisting the U.S. Department of Housing and Urban Development (HUD) in accomplishing its mission, the
      Office of Inspector General (OIG) participates in special outreach efforts. The outreach efforts described
      below complement routine coordination with Federal, State, and local law enforcement agencies; various
      congressional committees or subcommittees; and other OIGs. During outreach efforts, OIG personnel
      present information about HUD OIG’s role and function, provide audit and investigative results, and discuss
      desired goals and objectives..

      Single-Family Housing Programs
          Deputy Assistant Inspector General for Audit (DAIGA) Joan Hobbs, Civil Fraud Division (CFD) Director
      Kim Randall, Regional Inspector General for Audit (RIGA) Edgar Moore, and Supervisory Forensic Auditor
      (SFA) Fran Ranzie met in Brooklyn, NY, with the Civil Division of the U.S. Attorney’s Office for the Eastern
      District of New York. HUD OIG described its Civil Fraud Division as well as the civil enforcement efforts
      being conducted by Office of Audit regional staff. The group discussed mortgage fraud trends, ideas for
      developing HUD-related mortgage cases, and protocols for working cases through parallel proceedings.
      The group also discussed the current status of and plans to complete a large loan origination fraud case
      underway between HUD OIG and the U.S. Attorney’s Office.

                                                         nnn

          DAIGA Joan Hobbs, CFD Director Kim Randall, RIGA Heath Wolfe, and SFA Muhammad Akhtar met with
      the Chief of the Civil Division of the Northern District of Illinois, Eastern Division, in Chicago, IL. DAIGA
      Hobbs described HUD OIG’s new Civil Fraud Division and its pursuit of civil actions, particularly with regard
      to mortgage fraud. The group discussed current and potential cases and the recent focus on foreclosure
      fraud. The HUD OIG staff announced its plan to look for civil action potential with each criminal case and
      to continually look for opportunities to work cases as parallel proceedings.

                                                         nnn

          Special Agent in Charge (SAC) Kenneth Taylor provided an overview of HUD OIG’s mission and described
      foreclosure scams and prevention options at a Fair Housing Workshop sponsored by the Virginia Fair Housing
      Office in Virginia Beach, VA. More than 225 homeowners, landlords, developers, and realtors attended.

                                                         nnn

          SAC Wayne North provided an overview of HUD OIG’s mission and role in mortgage and bank fraud
      investigations at a meeting held for Washington Bank security officials in Seattle, WA. Approximately 65
      financial institution officials attended.

                                                         nnn

         SAC Barry McLaughlin and RIGA Kelly Anderson provided an overview of HUD OIG Offices of Investigation
      and Audit and described regional fraud trends and audit results at a meeting for congressional staffers
      sponsored by HUD in Chicago, IL. Approximately 30 congressional representatives attended.

                                                         nnn

         SAC Wayne North and Special Agents (SA) Bozena Schrank, Dana Papesh, Dan Austin, and Mike
      Radyshewsky provided an overview of HUD OIG and described mortgage fraud trends, red flag indicators,




106                                                                                     Chapter 8 - Outreach Efforts
and OIG’s role in mortgage fraud investigations at three outreach presentations in Puyallup and Northgate,
WA. Approximately 50 real estate agents and others attended.

                                                     nnn

    CFD Director Kim Randall, SFA Frances Ranzie, and Forensic Auditor (FA) Robert Fisher met with the
Civil Division of the U.S. Attorney’s Office for the Middle District of Florida in Tampa, FL. The Civil Division
Chief, stationed in Tampa, and an Assistant U.S. Attorney (AUSA) from the Ft. Myers office held a conference
call with HUD OIG to learn about the Civil Fraud Division and discuss ideas for working together on civil
fraud cases. The group discussed mortgage fraud trends that OIG was seeing in its civil fraud work,
ideas for developing HUD-related mortgage cases, and the attorneys’ particular interest in identifying and
pursuing bad appraisers.

                                                     nnn

    CFD Director Kim Randall met with two AUSAs from the Western District of Missouri, Civil Division, in
Kansas City, MO. The AUSAs specialize in affirmative civil enforcement actions (primarily using the False
Claims Act), civil mortgage fraud, and financial litigation cases. Director Randall described HUD OIG’s new
Civil Fraud Division and its pursuit of civil actions against those that commit fraud against HUD programs,
particularly with regard to mortgage fraud. The attorneys offered their services and expressed their desire
to work with HUD OIG on mortgage fraud cases, emphasizing that the U.S. Department of Justice is also
interested in mortgage fraud cases.

                                                     nnn

    CFD Director Kim Randall and SFA Fran Ranzie met with the Civil Division of the U.S. Attorney’s Office
for the Southern District of New York, in New York City, NY. Director Randall described HUD OIG’s new
Civil Fraud Division and how HUD OIG expected to work civil actions with HUD and the U.S. Department
of Justice. The U.S. Attorney’s Office described its new unit that will handle HUD civil fraud cases and
expressed its desire to focus on mortgage fraud cases. The group also discussed several ongoing civil
cases and the best protocols to employ to bring about effective coordination and outcomes.

                                                     nnn

   Assistant Special Agent in Charge (ASAC) Tony Meeks provided an overview of the Federal Housing
Administration (FHA) and home equity conversion mortgages and discussed current and emerging
mortgage fraud schemes at a Financial Crimes conference sponsored by the Federal Deposit Insurance
Corporation (FDIC) in San Diego, CA. Approximately 300 FDIC and other government agency investigators
and program staff attended.

                                                     nnn

    ASAC James Siwek and Federal Bureau of Investigation (FBI) SA Hillary Sallee provided an overview
of mortgage fraud trends and red flag indicators and discussed mortgage fraud case studies at an Escrow
Association conference in SeaTac, WA. Approximately 150 escrow agents attended.

                                                     nnn

    ASAC Kevin McBride provided an overview of HUD OIG’s mission and role in FHA-insured mortgage
fraud investigations and described current mortgage fraud trends at a National Residential Mortgage
Litigation and Regulatory Enforcement conference sponsored by the American Conference Institute in




Chapter 8 - Outreach Efforts                                                                                       107
      Washington, DC. At the conclusion, a question and answer forum was held for more than 100 mortgage
      industry professionals and attorneys in attendance.

                                                         nnn

          ASAC Jim Siwek and SAs Dan Austin, Charles Grace, and Mike Radyshewsky provided an overview
      of HUD OIG and described mortgage fraud trends, red flag indicators, and OIG’s role in mortgage fraud
      investigations at outreach presentations held for members of the real estate profession in Issaquah, Kent,
      and Seattle, WA. Approximately 100 realtors attended.

                                                         nnn

          ASAC Michael Gibson provided an overview of HUD OIG’s mission and described FHA and home equity
      conversion mortgage fraud trends at a Mortgage and Foreclosure Fraud Awareness workshop sponsored
      by the Fair Housing Lending Center in Ontario, CA. At the conclusion, a question and answer forum was
      held for approximately 100 real estate professionals, government representatives, and members of the
      Riverside County District Attorney’s office in attendance.

                                                         nnn

          ASAC Lisa Gore provided an overview of HUD OIG’s mission and goals; described the functions of the
      Office of Investigation; explained OIG’s role in single-family mortgage fraud investigations; and discussed
      real estate-owned, foreclosure rescue, and sovereign citizen fraud schemes at a meeting with HUD asset
      management contractor HomeTelos in Nashville, TN. Approximately 80 employees attended.

                                                         nnn

          ASAC Brad Geary and Cook County State Attorney Liam Reardon provided an overview of mortgage
      fraud trends and shared potential fraud detection and referral ideas at an Association for Title Information
      Management conference in Chicago, IL. Approximately 60 individuals representing the title industry and
      governmental recorder offices attended.

                                                         nnn

         ASAC Brad Geary described mortgage fraud trends, how mortgage fraud affects the bankruptcy
      process, and the role of bankruptcy trustees in mortgage fraud investigations at a meeting in Chicago, IL.
      Approximately 50 U.S. Bankruptcy Court trustees attended.

                                                         nnn

          ASAC Michael Gibson and SA Murray Stravers provided an overview of current fraud trends that involve
      loan modifications, reverse mortgages, and foreclosure rescue schemes and explained how fraudulent
      appraisals are used in the loan origination process at an Appraisal Institute meeting in Las Vegas, NV. At
      the conclusion, a question and answer forum was held for approximately 45 appraisers in attendance.

                                                         nnn

         ASAC Ray Espinosa and SA Cari Williams provided a presentation, entitled “The Latest Trends in Mortgage
      Fraud,” and described changes in FHA programs, the role of housing counselors, property flipping, deed




108                                                                                    Chapter 8 - Outreach Efforts
theft, short sales, and related criminal statutes at a loss mitigation training seminar sponsored by HUD in
Indianapolis, IN. More than 40 housing counselors attended.

                                                    nnn

   ASAC Brad Geary provided a presentation, entitled “The Latest Trends in Mortgage Fraud,” and described
FHA program vulnerabilities, common fraud schemes, and related criminal statutes at a Mortgage Fraud
Prevention seminar sponsored by Fidelity National Financial in Chicago, IL. Approximately 40 title industry
personnel attended.

                                                    nnn

    ASAC Jim Siwek and SAs Dan Austin and Dana Papesh provided an overview of HUD OIG and described
mortgage fraud trends, red flag indicators, and OIG’s role in mortgage fraud investigations at two “Short Sale
Fraud” presentations in Seattle and Lynnwood, WA. Approximately 30 realtors and short-sale negotiators
attended.

                                                    nnn

    ASAC Eric Bizjak and SAs Steve Tsourkas and Jennifer Ferguson provided an overview of HUD OIG’s
mission, goals, and priorities and described the functions of the Office of Investigation and current mortgage
fraud trends at a meeting held at the Miami Valley Fair Housing Center in Dayton, OH. Approximately 26
individuals attended.

                                                    nnn

     ASAC Brad Geary provided a presentation, entitled “The Latest Trends in Mortgage Fraud,” and
described FHA programs, property flipping, deed theft, short sales, and related criminal statutes at an
Illinois Association of Financial Crime Investigators meeting sponsored by Harris Bank in Chicago, IL.
Approximately 15 financial institution loss prevention specialists attended.

                                                    nnn

    SFA Anthony Putzulu and SAC James Todak met with the Los Angeles Investigations Unit staff of the
Federal Home Loan Mortgage Corporation in Los Angeles, CA. The unit is part of the Enterprise Risk
Management Branch and is responsible for investigations west of the Mississippi River. SFA Putzulu
described OIG’s Civil Fraud Division and its focus on fraud committed against FHA, particularly with regard
to single-family housing programs. The group also discussed mortgage fraud trends, including the recent
increase in short-sale fraud, and ways to work together on mortgage fraud cases.

                                                    nnn

    Assistant Regional Inspector General for Audit (ARIGA) Helen Sparks and Senior Auditor Chad Gagon
gave a presentation to approximately 40 real estate and mortgage professionals at a National Association
of Real Estate Brokers meeting in Las Vegas, Nevada. ARIGA Sparks provided an overview of HUD OIG,
and Senior Auditor Gagon discussed the audit process for single-family audits and what the attendees can
do to avoid mortgage fraud. The event panel consisted of the State of Nevada’s Deputy Attorney General,
legal counsel from the Greater Las Vegas Association of Realtors, and HUD OIG personnel. There was a
question and answer period for the panel members after the presentations.

                                                    nnn



Chapter 8 - Outreach Efforts                                                                                     109
          SFA Muhammad Akhtar and FA Rick Urbanowski met with the Chief of the Civil Division of the U.S.
      Attorney’s Office in Minneapolis, MN. They described OIG’s Civil Fraud Division, including the organization
      and its pursuit of civil actions against those that commit fraud against HUD programs, particularly with
      regard to mortgage and multifamily fraud. The group also discussed working together on current and
      future civil cases involving HUD programs.

                                                        nnn

          SFA Frances Ranzie and FA Dianne Benjamin attended the Mortgage Fraud Working Group meeting in
      New York, NY, with officials from various Federal and State agencies. AUSA Pierre Armand from the U.S.
      Attorney’s Office for the Southern District of New York presented an overview of its case against Deutsche
      Bank (MortgageIT), a case for which the Civil Fraud Division has conducted work and provided support.
      SFA Ranzie and FA Benjamin networked with the group, introduced the Civil Fraud Division to attendees,
      and provided contact information for working together on future civil cases.

                                                        nnn

          Senior Auditor Chad Gagon and Auditor Stacey Andersen gave a presentation to approximately 20
      housing counseling professionals at a loss mitigation training seminar sponsored by HUD in Las Vegas, NV.
      Auditor Andersen provided an overview of HUD OIG, and Senior Auditor Gagon discussed how housing
      counselors can get caught up in mortgage fraud schemes. Senior Auditor Gagon also discussed the results
      of recent HUD OIG audits of housing counseling agencies across the country and how HUD OIG audits
      differ from HUD monitoring reviews. Other presenters included a HUD housing program specialist, a
      HUD senior management analyst, a State of Nevada mediator, and a lawyer from the Legal Aid Center of
      Southern Nevada.

                                                        nnn

          SA Heather Yannello, AUSA Kathleen Lynch, and U.S. Postal Inspector Shelly Carosella provided an
      overview of home equity conversion mortgage fraud schemes and described the Federal Government’s
      response to the increase in elderly targets at two National Association of Protective Services Association
      conferences in Buffalo, NY. More than 245 elder law professionals, social service providers, and consumers
      attended.

                                                        nnn

         SA Savedow provided a presentation, entitled “Government Insured Mortgages and Low-Income
      Housing Investigations,” at a Financial Institution and Law Enforcement seminar sponsored by the Palm
      Beach Economic Crime Unit in Boynton Beach, FL. More than 100 representatives from financial institutions
      and Federal, State, and local law enforcement agencies attended.

                                                        nnn

          SA Heather Yannello and AUSA Kathleen Lynch provided an overview of mortgage and foreclosure
      fraud and described the Federal Government’s response to recent mortgage and foreclosure scams at a
      seminar in Buffalo, NY, sponsored by Empire Justice, Western New York Law Center, and the University
      at Buffalo Law School. Approximately 83 real estate attorneys attended.

                                                        nnn

         SA Heather Yannello and AUSA Kathleen Lynch provided an overview of mortgage and foreclosure fraud
      and described the Federal Government’s response to recent mortgage and foreclosure fraud scams at an


110                                                                                    Chapter 8 - Outreach Efforts
Appraisal Institute of America training conference in Verona, NY. More than 57 residential and commercial
real estate appraisers attended.

                                                  nnn

   SA Stacie Wilson, AUSA Kathleen Lynch, and additional members of the Western New York Mortgage
Fraud Task Force provided an overview of mortgage fraud schemes, illustrated the process of detecting and
preventing fraud, and described the procedures for selecting and conducting investigations at a meeting
with Manufacturer’s and Traders Trust Bank employees in Buffalo, NY. Approximately 15 mortgage
representatives attended.

                                                  nnn

   SAs David Smith and Carissa Barnes provided an overview of HUD OIG’s mission and role at a Foreclosure
Prevention Task Force meeting held in Salt Lake City, UT. Approximately 15 bank employees and HUD-
approved housing counselors attended.

Public Housing and Rental Assistance Programs
    SAC Kenneth Taylor provided an overview of HUD OIG’s mission and role in assisted housing
investigations and described tenant, landlord, and management fraud schemes at a Maryland Association
of Housing and Redevelopment Agencies meeting in Ocean City, MD. Approximately 35 housing officials
attended.

                                                  nnn

     SAC Robert Anderson and ASAC Wyatt Achord provided an overview of HUD OIG’s mission and goals;
described the HUD Enterprise Income Verification system and OIG’s rental assistance initiatives; and
illustrated housing management and tenant fraud schemes at a Crime Reduction and Prevention meeting
in Jefferson, LA. At the conclusion, a question and answer forum was held for approximately 35 local
government representatives, law enforcement personnel, and private citizens in attendance.

                                                  nnn

   RIGA Jerry Kirkland and Senior Auditors Danita Wade and Laura Cantu gave a presentation to about
30 member of the Big Country Housing Association, a group of small housing authority representatives in
Fort Worth, TX. They discussed OIG’s operations, how OIG selects audits, the audit process, the types of
public housing audits conducted, and the audit resolution process.

                                                  nnn

    ASAC Julie de Mello and SA Michael Wagenhauser provided an overview of HUD OIG’s mission and
described rental assistance fraud prevention, detection, and investigations at a West Virginia Multifamily
Rental Housing conference in Charleston, WV. At the conclusion, a question and answer forum was held
for approximately 50 individuals in attendance.

                                                  nnn

   ASAC Kevin Chan and SAs Stephen Huvane and Elizabeth Peralta provided an overview of HUD OIG;
described HUD’s FHA, Community Development Block Grant (CDBG), and Section 8 programs; and
explained the process for selecting and conducting investigations and the methods for detecting and



Chapter 8 - Outreach Efforts                                                                                 111
      preventing housing assistance fraud at a Hudson Valley Association of Housing Authorities meeting in
      Yonkers, NY. Approximately 30 housing officials and administrators attended.

                                                         nnn

          ASAC Gene Westerlind and SA Janine Cotrel provided an overview of HUD OIG’s mission and priorities
      at a Connecticut Housing Authorities workshop sponsored by HUD in Hartford, CT. At the conclusion, a
      question and answer forum was held for approximately 30 housing officials in attendance.

                                                         nnn

          ARIGA Todd Gagon and SAC Michael Powell participated in a Kansas National Association of Housing
      and Redevelopment Officials (NAHRO) conference in Salina, KS. ARIGA Gagon gave an introduction to
      HUD OIG and discussed common audit findings; the importance of developing strong internal controls;
      and their role in preventing fraud, waste, or abuse. SAC Powell discussed different types of fraud in public
      housing and government contracting and the importance of fraud prevention. SAC Powell and ARIGA
      Gagon also discussed the impact of the large amounts of American Recovery and Reinvestment Act of 2009
      (ARRA) funding and the increased risk of fraud, waste, or abuse related to those funds. Approximately 15
      participants attended the presentation.

                                                         nnn

          ARIGA Ron Farrell and Senior Auditor Kim Toler made a presentation to more than 65 housing
      commission executive directors at a joint conference of the Michigan Housing Directors Association
      and NAHRO in Sault Saint Marie, MI. ARIGA Farrell and SA Toler discussed the Public Housing Capital
      Fund program being funded by ARRA. The presentation included ARRA accountability and reporting
      requirements. It also covered the audit process, common findings in public housing agency nonprofit
      development activities, the Office of Public and Indian Housing’s Section 8 Housing Choice Voucher and
      Project-Based Voucher programs, and the Office of Audit’s affirmative civil enforcement initiative.

                                                         nnn

         As part of a presentation to about 40 housing authority grantees at the 2011 Annual Washington Housing
      Authority Accounting Professional Conference in Kennewick, WA, Senior Auditor Lana Monfort and SAs
      Dana Papesh and Dan Austin provided an overview of HUD OIG’s mission, authority, organization, and
      work. They also presented common findings and indicators of fraud in housing authority programs as
      well as examples of investigations and the results of those investigations.

                                                         nnn

          Senior Auditors Laura Cantu and Lynelle Kunst gave a presentation to about 12 housing authority
      officials at the 71st Southwest NAHRO Annual Conference in Albuquerque, NM. They discussed OIG’s
      operations, how OIG selects audits, the audit process, the types of public housing audits OIG conducts,
      and the audit resolution process.

                                                         nnn

         SA Scott Savedow, Florida State Attorney William Minton, and Palm Beach County Sheriff detectives
      Michael Leatherman and Ronald Bloeser, Sr., provided a presentation, entitled “The Impact of Public
      Assistance Fraud - A Partnership to Prevent Crime and Maintain Healthy, Safe, and Secure Government




112                                                                                    Chapter 8 - Outreach Efforts
Housing Communities,” at a national crime prevention conference sponsored by the Florida Attorney
General’s Office and the U.S. Department of Justice in Miami, FL. Approximately 100 housing industry
professionals, law enforcement personnel, and attorneys attended.

                                                  nnn

   SA John Raney and Senior Auditor Beth Archibald provided a presentation, entitled “File Audits: Top
Ten Findings,” and described HUD OIG’s mission and public housing investigations and audits at a Colorado
NAHRO conference in Breckenridge, CO. Approximately 53 public housing officials attended.

                                                  nnn

    SA Amy Durso and Senior Auditor Christy Thomas provided an overview of HUD OIG’s mission;
described public housing and landlord fraud and the avenues available to report waste, fraud, and abuse;
and explained the audit selection process, the importance of internal controls, audit findings in nonprofit
housing developments and the Section 8 program, and the responsibilities of housing authority boards
and executive directors at a Section 8 and Public Housing workshop sponsored by NAHRO in Lake of
the Ozarks, MO. At the conclusion, a question and answer forum was held for approximately 40 public
housing officials in attendance.

                                                  nnn

     SAs Carissa Barnes and David Smith provided an overview of HUD OIG’s mission and function, described
fraud detection and enforcement methods used to successfully prosecute housing investigations, and
illustrated a current housing assistance fraud investigation at a Mountain Plains NAHRO conference in
Park City, UT. Approximately 35 housing officials attended.

                                                  nnn

    SA Keith Williams provided an overview of HUD OIG’s mission and role and described fraud detection
and prevention strategies at a NAHRO conference in Casper, WY. Approximately 20 public housing officials
attended.

Community Planning and Development
    SAC Kenneth Taylor and ARIGA Kimberly Harrison provided an overview of HUD OIG’s mission and
role in community planning and development (CPD) audits and fraud investigations and described specific
CPD audits and investigations at a grantee seminar sponsored by HUD in Richmond, VA. Approximately
75 CPD grantees attended.

                                                  nnn

    SAC Robert Anderson and RIGA Nikita Irons provided an overview of HUD OIG’s mission and role
at a Mississippi Housing and Community Development conference sponsored by HUD in Hattiesburg,
MS. At the conclusion, a question and answer forum was held for approximately nine housing authority
executive directors, local governmental representatives, and housing and social service agency personnel
in attendance.

                                                  nnn




Chapter 8 - Outreach Efforts                                                                                  113
         SAC Kenneth Taylor provided an overview of HUD OIG’s mission and role in CPD fraud investigations
      and described specific CPD investigations at a grantee seminar sponsored by HUD in Baltimore, MD. More
      than 50 CPD grantees attended.

                                                          nnn

          ARIGA Brent Bowen and SAC Barry McLaughlin provided an overview of OIG’s Offices of Investigation
      and Audit, described the False Claims and Program Fraud Civil Remedies Acts, and explained documentation
      requirements and the OIG referral process for subgrantees attending a CDBG agreement workshop
      sponsored by the Cook County Bureau of Economic Development in Chicago, IL. More than 75 individuals
      attended.

                                                          nnn

         As part of a presentation to about 160 CPD grantees attending a Seattle, WA, CPD grantee conference,
      ARIGA Tracey Vargas and SAC Wayne North provided an overview of HUD OIG’s mission, authority,
      organization, and work. They also presented red flags and indicators of fraud in CPD programs as well as
      examples of investigations and the results of those investigations.

                                                          nnn

          ASACs Michael White and Robert Jones and FBI SA Holley Kelley provided an overview of HUD OIG’s
      mission, goals, and priorities; described HUD programs and ARRA funding and OIG initiatives relating to
      single- family, community development, and public and multifamily housing programs; and illustrated joint
      OIG and FBI fraud investigations at an All Texas CPD Grantee seminar in Round Rock, TX. Approximately
      140 CPD grantees and HUD staff attended.

                                                          nnn

          ASAC Wyatt Achord and ARIGA Tracey Carney provided an overview of HUD OIG’s mission and role
      at a meeting held in Slidell, LA, for the City of Slidell mayor, his staff, and a number of HUD employees
      in attendance.

                                                          nnn

         As part of a conference for about 60 CPD grantees attending a Portland, OR, CPD grantee conference,
      ARIGA Tracey Vargas provided an overview of HUD OIG’s mission, authority, organization, and audit process.
      She also presented red flags and indicators of fraud in CPD programs as well as examples of findings in
      CPD audits.

                                                          nnn

          SAs Michael Weinstein and Lisa Carling provided an overview of HUD OIG’s mission, illustrated CPD
      and housing assistance fraud, and disclosed fraud awareness resources for approximately 25 individuals
      attending a Maryland Department of Housing and Community Development workshop in Baltimore, MD.

                                                          nnn

          SA Gail Keller provided an overview of HUD OIG’s mission, goals, and priorities; explained the functions
      of the Offices of Investigation and Audit; and described OIG initiatives relating to single-family, public and
      Indian housing, disaster assistance, and CPD programs at a meeting with members of the Urban League
      in Houston, TX. Approximately 10 individuals attended.



114                                                                                      Chapter 8 - Outreach Efforts
American Recovery and Reinvestment Act
    RIGA Tanya Schulze and ARIGA Vince Mussetter participated in the Region IX Office of Public Housing’s
quarterly Proactive Exchange session in Los Angeles, CA. The participants included HUD and housing
authority staff in the Southern California and Arizona jurisdictions. RIGA Schulze spoke about OIG’s audit
goals and accomplishments, its mission and responsibilities, and the audit process. ARIGA Mussetter
cited some examples of recurring and typical public housing audit findings and deficiencies. Both RIGA
Schulze and ARIGA Mussetter talked about OIG’s priority to conduct ARRA audits, particularly focusing on
recent Public Housing Capital Fund audits.

                                                   nnn

    ARIGA Todd Gagon and SAC Michael Powell participated in the North Dakota/South Dakota Regional
NAHRO conference. SAC Powell introduced HUD OIG, discussed different types of fraud in public housing
and government contracting, and discussed the importance of fraud prevention. ARIGA Gagon discussed
the importance of developing strong internal controls and their role in preventing fraud, waste, or abuse.
They also discussed the impact of the large amounts of ARRA funding and the increased risk of fraud,
waste, or abuse related to those funds. Approximately 30 participants attended the presentation.

                                                   nnn

    ARIGAs Todd Gagon and Carrie Gray met with the new Missouri State Auditor, Thomas Schweich, in
Jefferson City, MO. They introduced State Auditor Schweich to the office and the type of work that OIG
does and discussed the possibility of joint audit efforts. ARIGAs Gagon and Gray discussed the potential
for audits of ARRA funds, disaster relief funds, and other HUD funding sources at the State and local levels.
State Auditor Schweich designated his chief of staff, Matt Beckmann, as the point of contact for coordinating
any future audits of mutual interest.

Law Enforcement Outreach
    ASAC Wyatt Achord provided an overview of HUD OIG’s mission and goals; described the Offices of
Investigation and Audit, rental assistance initiatives and fraud schemes, and HUD’s Enterprise Income
Verification system; and illustrated housing management and tenant fraud schemes at a Louisiana Police
Chiefs conference in Baton Rouge, LA. At the conclusion, a question and answer forum was held for 275
law enforcement personnel in attendance.

                                                   nnn

    ASAC Brad Geary and SA Kevin Maher provided a presentation, entitled “Gangs and Mortgage Fraud,”
and described mortgage fraud schemes involving gangs at a Chicago Intelligence training seminar sponsored
by the U.S. Department of Justice Drug Enforcement Administration in Chicago, IL. More than 100 law
enforcement analysts attended.

Other Outreach
    DAIGA Joan Hobbs and RIGA Tanya Schulze met with five individuals from the Los Angeles City Attorney’s
criminal and civil litigation branches in Los Angeles, CA, to explore possible avenues for referring future
cases for prosecution. DAIGA Hobbs and RIGA Schulze explained their authority and described typical
cases to gain a better understanding of each other’s organizations. They also talked about current obstacles




Chapter 8 - Outreach Efforts                                                                                    115
      and brainstormed on ways in which OIG may be able to refer civil and criminal cases that may otherwise
      go unprosecuted at the Federal level.

                                                       nnn

          ASAC Wyatt Achord and SAs Kevin Leonhardt, Aimee Peralta, Samuel Pickens, Thomas Redmann,
      and Jerry Rogers participated in a 6-mile Special Olympics Torch Run sponsored by the Kenner Police
      Department in New Orleans, LA. More than 100 Federal, State, and local law enforcement personnel
      participated.

                                                       nnn

          Senior Auditor Bob Johnson and Auditor Greg Soames presented “HUD 101 IG” training for the Denver,
      CO, HUD program offices. The presentation included a brief introduction and overview of OIG’s mission,
      role, and function. Eight HUD officials attended, and the presentation will be posted on HUD’s internal
      Web site.

                                                       nnn

        SA Eric Kolb provided an overview of HUD OIG’s mission and functions and described a number of
      HUD programs for Missouri Gaming Commission administrators and Enforcement Division investigators
      meeting in Kansas City, MO.

                                                       nnn

         SA Carissa Barnes and a number of FBI special agents participated in a 192-mile “Wasatch Back Ragnar
      Relay Race” from Logan, UT, to Park City, UT. The proceeds from the race benefit local Utah charities.

                                                       nnn

         ARIGA Tracey Carney provided information and insight on working as an auditor for the Federal
      Government at a career day hosted by Fannie C. Williams Elementary School in New Orleans, LA. More
      than 20 students, faculty, and staff attended.

                                                       nnn

          ARIGA Ed Schmidt and Auditor James Byers gave a presentation to an accounting class at the University
      of Washington in Seattle, WA. ARIGA Schmidt and Auditor Byers discussed the role of inspectors general,
      outlined the mission and organization of HUD OIG, and provided a description of the work performed by
      the Office of Audit. The audience consisted of approximately 20 undergraduates studying not-for-profit
      and governmental accounting at the Foster School of Business.

                                                       nnn




116                                                                                  Chapter 8 - Outreach Efforts
Chapter 9 - Legislation, Regulation,
and Other Directives
          Reviewing and making recommendations on legislation, regulations, and policy issues is a critical part
      of the Office of Inspector General’s (OIG) responsibilities under the Inspector General Act. During the
      reporting period, OIG completed the review of 170 issuances. The draft directives consisted of 26 notices
      of funding availability, 95 mortgagee letters and notices, and 49 other directives. OIG provided comments
      on 32 percent of these draft directives. In addition, OIG did not concur on the proposed rule (5 CFR (Code
      of Federal Regulations) Part 7501, Supplemental Standards of Conduct for Employees of the Department of
      Housing and Urban Development). Such nonconcurrence was due to the deletion of “Inspector General”
      from the definition of agency designee. As a result, OIG recommended that “the Counsel to the Inspector
      General” be substituted for “Inspector General” in the definition of agency designee. This chapter highlights
      some of OIG’s comments for this reporting period.

      Enacted Legislation
         Due to the collapse of the subprime mortgage market and resulting increase in foreclosures, Congress
      and the President approved the Housing and Economic Recovery Act of 2008 (HERA) and the American
      Recovery and Reinvestment Act of 2009 (ARRA). These legislations contained significant new funding
      and programs for the U.S. Department of Housing and Urban Development (HUD). Specifically, the
      Neighborhood Stabilization Program (NSP) was created under HERA and provided an initial $3.9 billion in
      funding to State and local governments for the redevelopment of abandoned and foreclosed-upon homes
      and residential properties. ARRA provided an additional $13.6 billion to existing programs, including an
      additional $2 billion for NSP. The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
      provided the third NSP funding totaling $1 billion.

          On May 20, 2009, the President signed the Helping Families Save Their Homes Act of 2009. This new
      law (1) provided the Federal Housing Administration (FHA) with additional loss mitigation authority to
      assist FHA borrowers under the Making Home Affordable program and (2) expanded the authority to
      use FHA loss mitigation to assist defaulted home buyers in avoiding foreclosure to include those facing
      imminent default. The President also signed the Dodd-Frank Wall Street Reform and Consumer Protection
      Act, which established an office of housing counseling within HUD to boost home ownership and rental
      housing counseling and provided for foreclosure legal assistance. Specifically, the Act authorized a HUD-
      administered program for making grants to provide foreclosure legal assistance to low- and moderate-
      income homeowners and tenants related to home ownership preservation, home foreclosure prevention,
      and tenancy associated with home foreclosure. In addition, the Act provided $1 billion to HUD to implement
      the Emergency Homeowners’ Loan Program, which is under development and will be managed by HUD’s
      Office of Housing Counseling. HUD began accepting applications for the Emergency Homeowners’ Loan
      Program in June 2011. The application deadline ended in mid-September, and only about $432 million of
      the $1 billion will be disbursed to assist homeowners in avoiding foreclosure.

          On September 21, 2010, FHA introduced a new modified version of its home equity conversion mortgage
      (HECM) product through Mortgagee Letter 2010-34. Specifically, FHA designed HECM Saver as a second
      reverse mortgage option for the purpose of lowering upfront loan closing costs for homeowners who want
      to borrow a smaller amount than would be available with a HECM standard loan. This option is available
      for all HECM case numbers assigned on or after October 4, 2010.

          OIG is performing audits of recipients of HERA and ARRA funding. Based on risks identified in HUD’s
      front-end risk assessments, OIG has targeted program areas and will propose regulatory changes, as
      necessary, to control risks in these new program areas. In addition, OIG is conducting foreclosure reviews
      of FHA-insured properties.

          OIG has also participated in a number of meetings with HUD officials regarding these additional funds
      and the programmatic risks of the activities. OIG continues to express concerns in review comments to
      clearance items and directly to HUD officials, about the capacity of many of the HUD grantees.


118                                                          Chapter 9 - Legislation, Regulation, and Other Directives
    The Federal Housing Commissioner continued to propose a number of risk management initiatives
related to HUD’s single-family programs and has started the process of updating its multifamily program
requirements. As part of the issuances reviewed, OIG provided comments on the preliminary rules. Many of
the proposed changes required rule making. On April 20, 2010, HUD issued the final rule on Federal Housing
Administration: Continuation of FHA Reform; Strengthening Risk Management Through Responsible FHA-
Approved Lenders [Docket No. FR 5356–F–02]. This final rule increases the net worth requirements for
FHA-approved lenders, provides for the elimination of FHA approval of loan correspondents, and updates
FHA regulations to incorporate criteria specified in the Helping Families Save Their Homes Act of 2009
designed to ensure that only entities of integrity are involved in the origination of FHA-insured loans. Further,
in Docket No. FR Notice 5404-N-02, FHA announced its final decision on imposing a minimum credit score
of 500 to be eligible for FHA-insured mortgage financing. Borrowers with credit scores at or above 580
will be eligible for maximum financing, while those with scores between 500 and 579 are limited to a 90
percent loan-to-value ratio.

Notices and Policy Issuances
Federal Housing Administration

    In mid-May 2011, HUD submitted for review a notice announcing additional risk management changes
concerning seller concessions. Specifically, HUD announced a two-part proposal with a percentage cap
and dollar limitation. The proposal provides that concessions as offsets to actual closing costs be permitted
on individual loans up to 3 percent of the property value or $6,000, whichever is greater.

    On June 10, 2011, FHA issued Mortgagee Letter 2011-20, which provided instructions on how to process
cases during the phaseout of the HOPE for Homeowners program. The program ended on September
30, 2011. This temporary program was authorized by HERA and was amended by the Helping Families
Save Their Homes Act of 2009.

    On July 7, 2011, FHA issued Mortgagee Letter 2011-23, which temporarily amended the type I special
forbearance program as it pertains to unemployed borrowers. Specifically, this mortgagee letter removed
the requirement that lenders verify that the borrower has a good payment record and stable employment
history and extended the minimum forbearance period to 12 months.

    On August 19, 2011, FHA issued Mortgagee Letter 2011-29, which provided the temporary FHA loan
limits. Specifically, FHA issued loan limits effective between October 1 and December 31, 2011. The FHA
national loan limit “floor” remains at $417,000, whereas the “ceiling” was reduced from $729,750 to $625,500.

    In late August 2011, FHA submitted for review a final rule, updating and enhancing the lender insurance
process through which a majority of FHA-insured mortgages are endorsed for insurance. These changes
also further HUD’s efforts to improve and expand FHA’s risk management activities. One notable announced
decision is the knowing standard for indemnification. Specifically, the final rule provides that the lender
must indemnify HUD for an insurance claim if the lender “knew or should have known” that fraud or
misrepresentation was involved.

Public and Indian Housing

    Partnering With Public Housing on the Proposed Changes to the Demolition and Disposition
    Regulations

   OIG is participating with the Office of Public and Indian Housing (PIH) in the development of revised
regulations for the Demolition and Disposition Program described in 24 CFR Part 970. Under the U.S.
Government Accountability Office’s Government Auditing Standards, OIG’s participation is limited to a purely


Chapter 9 - Legislation, Regulation, and Other Directives                                                           119
      advisory capacity. OIG may provide advice in implementing its audit recommendations and establishing
      internal controls. OIG may also answer technical questions and provide information on best practices;
      however, it does not participate in decision making. Also, any decisions on whether to follow OIG’s advice
      would remain with HUD management officials. These restrictions on OIG’s participation are needed to
      maintain its independence in performing audits as specified in the Government Auditing Standards.

         Changes to the Operating Fund Formula

          HUD has proposed using the operating reserve to fund current-year expenses. The industry has
      estimated that the operating reserves are about $4 billion. HUD suggests that the housing agencies’
      reserves are approximately $1.927 billion in excess of their immediate needs. HUD guidelines are for a
      public housing agency (PHA) to have a reserve level of 4 months (6 months for small agencies). HUD has
      decided for housing agencies with significant “excess reserves” that these agencies will either not receive
      operating subsidies in 2012 or receive a reduced amount. Further, Moving to Work agencies will receive a
      proration equal to the average subsidy reduction of their PHA size peer group. Finally, HUD will not calculate
      final eligibility for 2012 until all adjustment requests have been made and HUD reestimates reserves. HUD
      plans to have reserves calculated for all PHAs by October 31 2011, and will finalize operating fund eligibility
      estimates by December 15, 2011. OIG is concerned that HUD lacks (1) the systems to monitor the reserve
      levels at PHAs to detect any financial destabilizing effects from the offsets and (2) unobligated funds to
      react in a timely manner to any financial destabilization the offset may cause and plans to comment as
      the adjustment process proceeds.

         Regulations Lacking for the Capital Fund and Capital Fund Financing Programs

          In 1996, the Quality Housing and Work Responsibility Act was passed with many changes to the Housing
      Act of 1937, including revisions to the Public Housing Capital Fund program and the establishment of a
      new Capital Fund Financing Program. PIH has not published regulations to implement the changes to
      the Housing Act of 1937. Instead, HUD has used notices to provide operating instructions. The notices
      contribute to inconsistent processing of transactions. One recent example is the statutory mandate that
      the Capital Fund program is precluded from funding energy systems and capital equipment unless they
      are obsolete. PIH did not provide a definition for the term “obsolete” and allows each housing agency to
      determine whether the energy systems and capital equipment are obsolete. OIG detected many transactions
      of premature replacement, but without a standard for obsolete energy systems and capital equipment,
      the statutory mandate cannot be enforced.

      Multifamily Housing

          The Office of Multifamily Housing has updated some of its handbooks and issued updated policies
      and clarifications during this reporting period. In response to findings issued in connection with the
      annual financial audit, the Office of the Chief Financial Officer issued two notices to field offices outlining
      instructions for multifamily staff regarding collecting delinquent debt on Section 202 direct loans and
      collecting delinquent excess income under the Section 236 program. In August, the Office of Multifamily
      Housing submitted a revised version of the Multifamily Accelerated Processing Guide. It had not been
      updated since May 2002. The most significant update to the guide was to incorporate the new closing
      documents discussed in OIG’s last report.

          The Office of Healthcare Programs submitted a handbook for clearance on August 12, 2011. The
      handbook was in response to an audit report issued in 2002 (2002-KC-0002). The responsibility fell to the
      Office of Healthcare Programs when it was created, and responsibility for the Section 232 program was
      transferred to it. The delay was in part related to the delay in completing the multifamily closing documents.
      The audit recommended the creation of new closing documents specifically related to the Section 232




120                                                           Chapter 9 - Legislation, Regulation, and Other Directives
program and regulations limiting the use of project funds. These items are being reviewed by HUD legal
advisors and have not reached departmental clearance.

Community Planning and Development

    On July 2, 2011, HUD, after an article appeared in the Washington Post regarding the HOME Investment
Partnerships Program, proposed revisions to the HOME program. HUD plans to issue proposed rules that
would amend HOME regulations to establish requirements designed to enhance accountability by States
and units of local government in the use of HOME funds by strengthening performance standards and
requiring more timely housing production. OIG suggested additional revisions to portions of the proposed
regulations in such areas as income determinations, eligible project costs and administrative and planning
costs, tenant-based rental assistance, and troubled HOME-assisted rental housing and property standards.

                                                       nnn




Chapter 9 - Legislation, Regulation, and Other Directives                                                    121
Chapter 10 - Audit Resolution
           In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing and
      Urban Development (HUD) management agree upon the needed actions and timeframes for resolving
      audit recommendations. Through this process, OIG hopes to achieve measurable improvements in
      HUD programs and operations. The overall responsibility for ensuring that the agreed-upon changes are
      implemented rests with HUD managers. This chapter describes significant management decisions with
      which OIG disagrees. It also contains a status report on HUD’s implementation of the Federal Financial
      Management Improvement Act of 1996 (FFMIA). In addition to this chapter on audit resolution, see appendix
      3, table B, “Significant Audit Reports Described in Previous Semiannual Reports in Which Final Action Had
      Not Been Completed as of September 30, 2011.”

      Audit Reports Issued Before Start of Period With No Management
      Decision as of September 30, 2011
      HUD Lacked Adequate Controls To Ensure The Timely Commitment and Expenditure of
      HOME Funds, Issue Date: September 28, 2009

          HUD OIG audited HUD’s HOME Investment Partnerships Program (HOME). The OIG report included
      a recommendation that the HUD Office of Community Planning and Development (CPD) establish and
      implement controls to ensure that field offices require participating jurisdictions to close out future HOME
      activities within a timeframe that will permit reallocation and use of the funds for eligible activities in time
      to avoid losing them to recapture by the United States Treasury under provisions of Public Law 101-510.

         OIG rejected two management decisions proposed by CPD to address the recommendation because
      they did not provide for the establishment and implementation of all of the controls that are needed to
      address the recommendation. During the reporting period, OIG followed up with CPD about the need for
      a management decision for this recommendation, but CPD did not provide OIG with another proposed
      management decision.

         OIG also recommended that CPD obtain a formal legal opinion from HUD’s Office of General Counsel
      regarding whether

         •   HUD’s cumulative technique for assessing compliance with commitment deadlines is consistent
             with and an allowable alternative to the 24-month commitment required by 42 U.S.C. (United
             States Code) § 12748 and

         •   HUD’s first-in, first-out (FIFO) method for assessing compliance with HOME expenditure
             requirements is consistent with and an allowable alternative to the 8-year recapture deadline
             pursuant to Public Law 101-510, codified at 31 U.S.C. § 1552.

          CPD obtained a legal opinion from the Assistant General Counsel for Community Development on
      March 5, 2010. The legal opinion supports the Department’s use of the cumulative approach and FIFO
      accounting method. Based on this legal opinion, CPD does not plan to implement OIG’s recommendation
      to discontinue use of the FIFO method to account for the commitment and expenditure of HOME funds
      or the cumulative technique for assessing deadline compliance.

         OIG requested reconsideration of the opinion. On June 10, 2010, HUD’s General Counsel and Chief
      Financial Officer provided additional information regarding HUD’s recapture requirements of the HOME
      program statute and CPD’s use of cumulative accounting and the FIFO method for financial management.

         HUD explained that CPD’s use of cumulative accounting in its financial management represents a
      reasonable interpretation of the statutory duties imposed on the HUD Secretary and addresses the complex



124                                                                                      Chapter 10 - Audit Resolution
administrative challenges inherent in managing the HOME Investment Trust. HUD also explained that
obligations and expenditures under the HOME program are accounted for on a FIFO basis by fund type
instead of by fiscal year and that CPD, in enforcing the obligation and expenditure requirements, looks to
total cumulative obligations and expenditures instead of accounting for them by fiscal year. Based on the
Chief Financial Officer’s financial analysis, given the origin of these requirements and the fundamental
nature of this block grant program, HUD believed that the FIFO accounting method for obligations and
expenditures by fund type was consistent with Federal accounting requirements and had no objection
to the total cumulative obligations and expenditures methods used for assessing compliance with the
24-month commitment and 5-year expenditure requirements.

    OIG continues to disagree that CPD’s use of the FIFO method for recognizing commitments and
expenditures that participating jurisdictions make against their HOME appropriations or its cumulative
accounting is consistent with the legislation under 42 U.S.C. § 12748, requiring recapture of funds not
committed by statutory deadline dates. These methods of accounting also potentially violate the closure
of accounts under 31 U.S.C. § 1552.

    Another issue raised by CPD’s accounting methods is whether its FIFO accounting method complies
with Federal accounting requirements for maintaining the U.S. Standard General Ledger and general
appropriations law. The accounting issues require review for compliance with Federal accounting
standards and appropriation law. Since OIG’s last semiannual report date, in conjunction with its annual
audit of HUD’s financial statements, OIG has continued to discuss the FIFO accounting method with
the U.S. Government Accountability Office (GAO) and requested that GAO determine whether the FIFO
accounting method violates Federal standards for appropriation accounting and whether the cumulative
method is an acceptable alternative to the statutory recapture provision. (Audit Report: 2009-AT-0001)

The City of Binghamton, NY, Did Not Always Administer Its Section 108 Loan Program in
Accordance With HUD Requirements, Issue Date: December 21, 2010

    OIG audited the operations of the City of Binghamton, NY, pertaining to its administration of its
Community Development Block Grant (CDBG) Section 108 Loan Guarantee program. The audit objectives
were to determine whether the City (1) administered its Section 108 loan program effectively, efficiently,
and economically in accordance with applicable rules and regulations; (2) used Section 108 loan proceeds
on eligible activities that met a national objective of the program; and (3) expended additional CDBG funds
for subsequent Section 108 loan repayments and other related costs that were necessary, reasonable, and
in accordance with all applicable contracts, agreements, and Federal regulations.

    OIG found that the City did not ensure that its Section 108 loans and related activities were administered
effectively, efficiently, and economically in accordance with applicable rules and regulations and that loan
proceeds were expended on eligible activities that met a national objective of the program. In addition,
the City did not ensure that additional expenditures of CDBG funds for subsequent Section 108 loan
repayments and other related costs were necessary, reasonable, and in accordance with all applicable
contracts, agreements, and Federal regulations. Consequently, significant CDBG funds were disbursed
for Section 108 debt repayments, and future CDBG funds will be required until the Section 108 debts have
been fully paid. Therefore, the ability to provide program benefit to low- and moderate-income residents
of the City has been diminished.

    OIG recommended that HUD instruct the City to repay from non-Federal funds more than $1.5 million
in hotel sale proceeds that were used for City expenses to the established Section 108 loan repayment
account (recommendation 1D). Further, OIG recommended that the City use the funds from the Section
108 loan repayment account to pay all future Section 108 payments that are due in accordance with the
HUD-approved refinancing agreement. Should the account contain less than the $4.5 million in required
payments, the City should pay the balance from non-Federal funds (recommendation 1F).


Chapter 10 - Audit Resolution                                                                                    125
          Recommendation 1D: HUD proposed a management decision contending that payments made out
      of hotel sale proceeds to satisfy the tax liens were acceptable and that the City will be ordered to repay
      more than $549,000 in hotel sale proceeds unless it can show that the use of funds to operate the hotel was
      necessary to preserve the collateral. Further, HUD contends that had the City initially sought permission
      to use the proceeds from the sale to operate the hotel for this purpose, permission would have likely been
      granted since failure to do so would have resulted in a loss in value of HUD’s lien on the property.

          OIG disagrees and rejected the proposed management decision on April 28, 2011. It is true that the
      City was contractually required to pay operating shortfalls; however, it is not the responsibility of HUD to
      pay for operating losses. The City had agreed to pay for all operating losses when it assumed ownership
      of the hotel in 2008. Since the City did not properly account for the sale proceeds and use them for only
      Section 108 debt, as required by the Section 108 contract, it began using the sale proceeds for operating
      losses. Not only would this practice set a terrible precedent for HUD (i.e., HUD could be responsible for
      virtually unlimited operating costs–not just the Section 108 debt), but HUD could not point to a provision
      of the Section 108 contract whereby sale proceeds can be used for anything other than debt. Further
      explanation of HUD’s justification of the City’s use of the more than $549,000 for daily operating costs at
      the City-owned hotel is needed.

          Recommendation 1F: HUD proposed a management decision agreeing that the City should use all
      available amounts in the Section 108 loan repayment account to make payments on the guaranteed loan.
      However, HUD disagrees that the City should be required to make payments from non-Federal sources if
      the amount of funds in the loan repayment account is insufficient to make the payments.

          OIG disagrees and rejected the proposed management decision on April 28, 2011. Although HUD
      is probably technically correct when referring to the allowable use of CDBG funds for Section 108 debt,
      HUD did not create the default; the City did. OIG agrees that HUD could pursue legal remedies under
      the Section 108 contract and CDBG regulations if HUD determined failure to comply with the Section 108
      contract and the applicable act.

          HUD stated that the City is under a disaster designation due to extensive flooding caused by Hurricane
      Irene, and it has been difficult to contact the Binghamton Community Development office as City personnel
      are continuing to assess the damage, which includes power outages and intermittent telephone service.
      HUD plans to propose revised management decisions shortly for recommendations 1D and 1F. On April
      27, 2011, management decisions were reached on the remaining recommendations 1A-B and 2A-E, and
      recommendations 1C and 1E are closed. (Audit Report: 2011-NY-1004)

      An Underwriting Review of 15 FHA Lenders Demonstrated That HUD Missed Critical
      Opportunities To Recover Losses to the FHA Insurance Fund, Issue Date: March 2, 2011

         OIG conducted an initiative in 2010, known as Operation Watchdog, to review the underwriting of 15
      Federal Housing Administration (FHA) direct endorsement lenders having default and claim rates indicating
      lender performance problems. The initiative took place because the FHA Commissioner had expressed
      concerns regarding the increasing default and claim rates against the FHA insurance fund for failed loans.
      OIG determined that the lenders did not properly underwrite 140 of 284 loans reviewed, or 49 percent,
      because its underwriters did not follow FHA’s requirements. As a result, FHA’s insurance fund suffered or
      could expect to suffer losses of more than $11 million.

           In a larger perspective, OIG determined that HUD did not have a formal process established to review
      all claims paid on defaulted mortgages or at least all claims paid that met high-risk criteria, resulting in
      unrecovered losses to the insurance fund for loans that should not have been insured. Operation Watchdog
      indicated systemic problems in how lenders certified to loans’ being properly underwritten and eligible for




126                                                                                   Chapter 10 - Audit Resolution
FHA insurance when the loans were not eligible. Therefore, when HUD paid claims on defaulted loans
and then did not review the underlying loans for insurance eligibility, it was missing critical opportunities
to recover unnecessary losses from the lenders on the loans that should not have been insured.

    Not all defaults and resulting claims are caused by poor underwriting, as OIG pointed out in the
report. However, poor underwriting played a major role in the 140 ineligible loans identified through
Operation Watchdog. OIG concluded that reviewing loans that have had claims paid by using risk-based
targeting or a statistically valid sample of quickly defaulting loans could provide HUD with an opportunity
to recover unnecessary losses caused by these loans. OIG, therefore, recommended that HUD develop
and implement procedures to review a statistical or risk-based selection of loans, for which FHA paid a
claim on the mortgage insurance within the first 2 years of endorsement, to verify that the loans met FHA
requirements and were qualified for insurance.

    This was not the first time that OIG had expressed concerns about HUD’s unnecessary exposure when
paying FHA insurance claims on loans that did not qualify for insurance. For example, OIG reported in July
2006 (OIG Audit Report No. 2006-SE-0001) that HUD did not independently validate that mortgage loans
insured under the FHA program met requirements after paying billions in insurance claims. HUD paid
the claims, as required by law, but did not review the loan documentation for compliance with program
requirements, fraud, and/or misrepresentations. HUD relied on lender certifications that the loans were
eligible for insurance. In response to the audit, HUD generally disagreed with OIG’s recommendation to
establish procedures to review paid claims associated with early defaulted loans and related costs and
independently verify that loans met FHA requirements and were, therefore, eligible for insurance. HUD
ultimately agreed to review loans that had gone to claim when it performed lender reviews. It further
agreed that if claim file reviews showed inadequate documentation by the lender, it would take appropriate
corrective actions regarding the responsible lender.

    In conjunction with Operation Watchdog, OIG reviewed HUD’s annual risk-based targeting plan,
which included claims, defaults, and compare ratios, among other factors. HUD also used a case-level
tool to select loans for review. HUD asserted that the tool prepared a statistically valid sample of loans
based upon various risk factors, which included claims. However, OIG concluded that this method did
not ensure that all claims were reviewed and may not have targeted sufficient loans with claims paid to
reasonably protect the fund.

    Further, OIG recognized that HUD had recently tightened FHA lending requirements but stated that
those improvements would affect future loans and not the rapidly growing influx of claims from lenders
that had originated loans in the past few years. OIG also commended HUD for taking important steps in
recent years to implement risk-based techniques to identify lenders and loans that pose significant risk to
the FHA insurance fund. OIG encouraged HUD to continue to strengthen its requirements and hold lenders
accountable but pointed out that HUD also needed to quickly confront the problem of billions being paid
for defaulted loans and not being recovered when many loans were not eligible for FHA insurance.

    On February 4, 2011, HUD responded to OIG’s draft report with a description of its multifaceted approach
to minimizing losses to the FHA insurance fund, which it maintained would achieve the intent of OIG’s
recommendation. The majority of the multifaceted approach was proactive and did not indicate an increase
in the review of loans for which claims had already been paid. However, OIG agreed that HUD’s targeting
tools and other recent initiatives generally met the intent of OIG’s recommendation, which was aimed at
protecting the FHA insurance fund from unnecessary costs. Therefore, OIG committed to working with
HUD, through the management decision process, to gain more insight into the risk-based factors used to
select lenders and loans for review, the targeting enhancements that were under development, and the
two new initiatives launched in fiscal year (FY) 2010.




Chapter 10 - Audit Resolution                                                                                   127
          However, no meaningful communication took place between report issuance on March 2, 2011, and
      June 16, 2011, when OIG received the proposed management decision memorandum from HUD, which
      disagreed with OIG’s proposed actions. HUD acknowledged that some of the cases reviewed in the
      Operation Watchdog initiative were not underwritten in accordance with FHA requirements but mainly
      focused its response on HUD’s proactive approach for identifying high-risk lenders and initiating counterparty
      risk initiatives to minimize losses to the FHA insurance fund.

          As a result of providing what it deemed sufficient information to address OIG’s concerns, HUD
      determined that no further action was required. OIG disagreed. On July 5, 2011, OIG notified HUD that
      OIG was rejecting the proposed management decision for further action. OIG maintained that claims
      paid on loans that should not have been insured continued to have a significant, negative impact on the
      FHA insurance fund and HUD needed to do more to identify ineligible loans and pursue recoveries from
      the responsible parties. OIG further expressed concern that despite multiple efforts by OIG to obtain
      sufficient information from HUD to determine whether its current and planned actions sufficiently met the
      recommendation, HUD had not provided sufficient information for OIG to make that determination. OIG’s
      questions and concerns continued regarding what HUD was doing to look into a targeted, meaningful
      portion of paid claims and take appropriate actions against lenders that caused FHA to pay claims on
      ineligible loans.

          By August 11, 2011, HUD had not responded, and, therefore, OIG referred the matter to the Acting
      Assistant Secretary for Housing – FHA Commissioner. On September 30, 2011, the last day of the semiannual
      reporting period, the FHA Commissioner responded with a proposed revised management decision
      that essentially repeated HUD’s stance that it was in HUD’s best interest to take a proactive prospective
      approach that focused on reviewing risky loans as early as possible before claims were filed. The revised
      management decision did not respond to the recommendation in question or provide a target date by
      which the Department believed it would complete the final action to address the issue of claims noted
      in the report. Thus, OIG continues to be at an impasse in obtaining an agreeable management decision.

          OIG maintains that the FHA insurance fund has incurred billions in losses annually that HUD could
      have recovered if more was being done to target and review loans for which claims were paid and pursue
      the lenders that caused these losses. The FHA fund has sustained historical losses in recent years and
      is poised to continue a high level of losses in the near future, which will surely include loans that should
      not have been insured. Without appropriate focus on claims, OIG maintains that FHA is missing critical
      opportunities to recover unnecessary losses. (Audit Report: 2011-CF-1801)

      Significantly Revised Management Decisions
         Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information
      concerning the reasons for any significant revised management decisions made during the reporting period.
      During the current reporting period, there were significant revised management decisions on seven audits.

      Baytown Housing Authority, Baytown, TX, Issue Date: December 13, 2005

           HUD OIG audited the Baytown Housing Authority to determine whether the Authority (1) advanced,
      transferred, or encumbered resources subject to its annual contributions contract to the benefit of other
      entities without HUD approval and (2) equitably distributed salary costs between the Authority’s HUD and
      non-HUD activities in accordance with Federal requirements. The report stated that the Authority violated
      its contract with HUD by inappropriately advancing, transferring, and encumbering public housing funds
      to support its nonprofit and related entities. The report recommended that the Authority repay or provide
      support for improper advances, transfers, and encumbrances. HUD agreed with the recommendations,
      and on March 31, 2007, the Authority entered into a repayment agreement, in which it agreed to repay its



128                                                                                    Chapter 10 - Audit Resolution
HUD programs nearly $951,000 plus simple interest of 3 percent annually. Recently, the Authority asked
to transfer land equal in value to the amount owed to its HUD programs. HUD agreed and expects this
transfer to be completed by December 12, 2012. On September 30, 2011, OIG agreed with the revised
significant management decision. (Audit Report: 2006-FW-1002)

Elders Place II, Incorporated, Did Not Properly Administer HUD Funds in Accordance With
HUD Requirements, Philadelphia, PA, Issue Date: April 19, 2007

    OIG issued an audit report entitled “Elders Place II, Incorporated, Philadelphia, PA, Did Not Properly
Administer HUD Funds in Accordance With HUD Requirements.” Elders Place II was a 40-unit housing
project funded under the Section 202 program. It did not (1) maintain complete and accurate books and
records to support the receipt and disbursement of HUD funds, (2) deposit all HUD funds intended for the
construction of the project into the project’s construction account, (3) maintain adequate control over
the disbursement of project funds, (4) establish an escrow account to cover additional construction costs,
and (5) submit an acceptable cost certification to bring the project to final closing. As a result, it made
ineligible disbursements of nearly $88,000 and unsupported disbursements totaling more than $605,000
and drastically delayed the process of bringing the project to final closing.

    OIG recommended that HUD direct Elders Place II to (1A) repay the project nearly $88,000 from non-
Federal funds for the ineligible costs identified by the audit; (1B) provide documentation to support the
more than $605,000 in questioned costs identified by the audit, and if the costs cannot be supported,
reimburse the project for any unsupported costs from non-Federal funds; (1C) develop and implement
written procedures to ensure that disbursements of HUD funds are eligible and consistent with applicable
HUD and Federal regulations; (1D) establish an escrow account and deposit more than $95,000 or the
amount determined to be due to the contractor from nonproject funds into the account; (1E) take
appropriate action to resolve the amount due to the general contractor; (1F) submit an acceptable cost
certification to account for the project’s funding; (1G) bring the project to final closing; (1H) establish a
functioning board of directors to provide adequate oversight of project operations and controls to ensure
that the board fulfills its responsibilities and documents its actions; and (1I) maintain appropriate books
and records as required by applicable agreements and HUD regulations.

    In the original management decisions, HUD agreed to require the owner to (1A) repay the project the
ineligible costs, (1B) support the questioned costs or repay the project the costs that cannot be supported,
(1C) develop and implement written procedures regarding disbursements of HUD funds, (1D) escrow
the more than $95,000 due to the contractor, (1E) resolve the amount due to the general contractor, (1F)
submit an acceptable cost certification, (1G) bring the project to final closing, (1H) establish a functioning
board of directors, and (1I) maintain adequate books and records.

    HUD stated that the owner was uncooperative in resolving the financial and physical issues at the
project and the lack of cooperation and compliance resulted in a foreclosure action. HUD met and
corresponded with the ownership entity, the board of directors, and the legal representatives of the owner
over a period of several years in an attempt to obtain compliance, to no avail. In addition, all required
regulatory violation and default notices were served on the ownership entity, as legally required, to take
the project to foreclosure. The foreclosure and sale of the project were the remaining actions available
to HUD to recover on the asset. The project was sold on August 24, 2011.

    HUD submitted revised management decisions for recommendations 1A to 1I, stating that it foreclosed
on and disposed of the project. The sale resulted in proceeds of more than $467,000 to the Department for
the purchase of the project. Thus, on September 29, 2011, OIG concurred with the revised management
decisions for recommendations 1A to 1I and to write off the more than $321,000 as uncollectible. (Audit
Report: 2007-PH-1006)



Chapter 10 - Audit Resolution                                                                                    129
      Elders Place, Incorporated, Did Not Administer Project Operating Funds in Accordance
      With HUD Requirements, Philadelphia, PA, Issue Date: March 28, 2008

          OIG issued an audit report entitled “Elders Place, Incorporated, Philadelphia, PA, Did Not Administer
      Project Operating Funds in Accordance With HUD Requirements.” Elders Place, Inc., was a 47-unit
      housing project funded under the Section 202 program. It did not administer project operating funds
      in accordance with HUD requirements. It made nearly $310,000 in unsupported disbursements and
      more than $73,000 in ineligible disbursements and, thereby, did not sufficiently protect HUD’s and the
      residents’ interest in the project. OIG recommended that HUD direct Elders Place, Inc., to (1A) provide
      documentation to support the nearly $310,000 in unsupported costs identified by the audit and, if the
      costs cannot be supported, reimburse the project for any unsupported costs from non-Federal funds;
      (1B) repay the project more than $73,000 from non-Federal funds for the ineligible costs identified by the
      audit; (1C) begin funding the replacement reserve account with the monthly deposit as required by the
      regulatory agreement; and (1D) develop and implement written procedures to ensure that disbursements
      of HUD funds are eligible and consistent with applicable HUD and Federal regulations.

          In the original management decisions, HUD agreed to require the owner to (1A) support the questioned
      costs or reimburse the project from non-Federal funds, (1C) begin funding the replacement reserve
      account, and (1D) develop and implement written procedures to ensure that disbursements of HUD funds
      are eligible and consistent with applicable HUD and Federal regulations. Regarding recommendation
      1B, HUD agreed with nearly $42,000 of the ineligible costs reported. HUD did not agree with nearly
      $32,000 of the ineligible costs reported because payments for management of the property to the sponsor
      organization were eligible to cover the salaries of the employees who allocated time to the property for
      that purpose.

          HUD stated that the owner was uncooperative in resolving the financial and physical issues at the
      project and the lack of cooperation and compliance resulted in a foreclosure action. HUD met and
      corresponded with the ownership entity, the board of directors, and the legal representatives of the owner
      over a period of several years in an attempt to obtain compliance, to no avail. In addition, all required
      regulatory violation and default notices were served on the ownership entity, as legally required, to take
      the project to foreclosure. The foreclosure and sale of the project were the remaining actions available
      to HUD to recover on the asset. The project was sold on August 24, 2011.

          HUD submitted revised management decisions for recommendations 1A to 1D, stating that it foreclosed
      on and disposed of the project. The sale resulted in proceeds of nearly $383,000 to the Department for
      the purchase of the project. Thus, on September 29, 2011, OIG concurred with the revised management
      decisions for recommendations 1A to 1D. (Audit Report: 2008-PH-1005)

      New Phoenix Assistance Center, Chicago, IL, Substantially Failed To Manage Its Supportive
      Housing Program Grants, Chicago, IL, Issue Date: October 24, 2008

           OIG issued an audit report entitled “New Phoenix Assistance Center, Chicago, IL, Substantially Failed
      To Manage Its Supportive Housing Program Grants.” OIG found that the Center (1) materially failed to
      manage its program grants, (2) did not comply with Federal requirements regarding its use of program
      funds, and (3) lacked sufficient documentation to support that it followed HUD’s requirements in providing
      contributions for its program grants. It (1) could not support that it used program funds for appropriate
      program expenses, (2) inappropriately used program funds, and (3) could not support that it followed
      HUD’s requirements in providing contributions for its program grants. Further, it (1) could not support
      its use of more than $574,000 in program funds for appropriate lease payments and more than $72,000
      in program funds for eligible nonlease expenses, (2) used nearly $16,000 in program funds for improper
      nonlease expenses, and (3) could not support that its transfers of $25,000 in program funds among its
      program grants were allowable. Due to the Center’s lack of documentation, HUD could not be assured


130                                                                                 Chapter 10 - Audit Resolution
that the Center provided more than $333,000 in eligible contributions for its program grants.

    OIG recommended that HUD (1) terminate the Center’s three current authorized program grants, (2)
reallocate the nearly $92,000 in remaining program funds, (3) deny the Center’s three applications for nearly
$838,000 in future program funds, (4) require the Center to provide sufficient supporting documentation or
reimburse HUD from non-Federal funds for the unsupported payments and contributions, (5) reimburse
HUD from non-Federal funds for the improper use of program funds, and (6) pursue the appropriate
administrative sanctions against the Center’s officers for their failure to adequately manage its program
grants.

    Before the original management decision on February 20, 2009, HUD allowed the Center to draw
down more than $74,000 in program funds from the three previously authorized grants for leasing,
supportive services, and operating costs. Further, HUD entered into grant agreements with the Center for
leasing and salary costs until HUD could determine an acceptable nonprofit organization(s) to take over
the grant agreements to prevent Chicago Continuum of Care from losing the nearly $838,000 in program
funds. HUD’s original management decision stated that it would determine the allowability of the more
than $74,000 in costs and consider the additional drawdowns when a final amount to be collected from
the Center was determined and recapture the nearly $18,000 in remaining program funds. The original
management decision also stated that HUD would determine an acceptable nonprofit organization(s)
to take over the grant agreements by May 31, 2009. Further, the Center would be required to submit
supporting documentation with its draw request and obtain HUD approval before drawing down program
funds from the three grant agreements. HUD agreed with the remaining recommendations.

   HUD determined that the more than $74,000 in program funds drawn down from the three previously
authorized grants was not for eligible expenses and recaptured the nearly $18,000 in remaining program
funds. Further, HUD allowed the Center to draw down more than $601,000 in program funds from the new
grant agreements and recapture the nearly remaining $237,000 in program funds. After its approval, HUD
determined that the more than $601,000 in program funds drawn down from the new grant agreements
was not for eligible expenses. Effective November 24, 2010, HUD debarred both the Center and its
executive director for a 3-year period.

    As of June 2011, the Center no longer operated and had no owners or assets. Therefore, HUD
submitted a revised management decision and requested the writeoff of nearly $1.7 million and closure
of the recommendations. Thus, on September 29, 2011, OIG concurred with the revised management
decision and wrote off nearly $1.7 million. (Audit Report: 2009-CH-1001)

HUD’s Receivership Did Not Ensure That the Housing Authority of New Orleans Properly
Accounted for Its Fungibility Funding, Monitored and Paid Two of Its Contractors, and Paid
Its Accounts Payable Disbursements, Issue Date: January 29, 2009

    OIG issued an audit report entitled “HUD’s Receivership Did Not Ensure That the Housing Authority of
New Orleans Properly Accounted for Its Fungibility Funding, Monitored and Paid Two of Its Contractors,
and Paid Its Accounts Payable Disbursements.” Among the issues reported was that of 41 financial
operations contract invoices reviewed, the Authority overpaid one of its contractors more than $97,000 in
4 of those invoices. In recommendation 2A, OIG advised the Authority to seek repayment to the Public
Housing Capital Fund program from the contractor for more than $97,000 in unauthorized payments and
overpayments identified in those four invoices.

    At the time of the original management decision, OIG partially disagreed with HUD’s prescribed actions
for this recommendation. OIG communicated its disagreement in writing. Then OIG and HUD met to
discuss the areas of disagreement, and HUD submitted a revised management decision. In the revised
management decision, HUD stated that the Authority was working with OIG regarding the questioned


Chapter 10 - Audit Resolution                                                                                   131
      contract and upon completion of the investigation, would follow any recommendations or other actions
      deemed appropriate.

          After the completion of the investigation, HUD submitted another revised management decision, stating
      that (1) payments deemed unauthorized totaling more than $50,000 had been justified, (2) overbillings
      totaling nearly $11,000 were recovered through offsets, and (3) payments deemed unauthorized totaling
      more than $36,000 were included in the court-ordered restitution paid by the contractor. HUD asked OIG
      for concurrence and closure of the recommendation. OIG worked closely with HUD to obtain and review
      supporting documentation and resolve this recommendation. Thus, on July 6, 2011, OIG concurred with
      the revised management decision for recommendation 2A to reverse more than $50,000 as supported
      and eligible and reflect nearly $47,000 as recovered. (Audit Report 2009-AO-0002)

      The Housing Authority of the City of Terre Haute, IN, Failed To Follow Federal Requirements
      Regarding Its Turnkey III Homeownership Program Units’ Sales Proceeds, Terre Haute, IN,
      Issue Date: September 29, 2009

          OIG issued an audit report entitled “The Housing Authority of the City of Terre Haute, IN, Failed To
      Follow Federal Requirements Regarding Its Turnkey III Homeownership Program Units’ Sales Proceeds.”
      OIG found that under the direction of the former executive director and board of commissioners, the
      Authority did not comply with HUD’s requirements regarding the use of the program proceeds from
      the sale of its program units. The Authority did not maintain documentation to support that the sales
      proceeds were used in accordance with its approved program plan. OIG recommended that HUD require
      the Authority to maintain accurate books of record to account for the activities and expenditures under
      the program and provide adequate supporting documentation for the use of the program proceeds from
      the sale of its program units. If the Authority could not determine the activities and expenditures under
      the program and/or provide supporting documentation, it should reimburse more than $579,000 in sales
      proceeds to the program from non-Federal funds. HUD agreed to require the Authority to reimburse its
      low-rent public housing program in the amount of nearly $580,000.

         The original management decision would not have resulted in the appropriate corrective action that
      was intended. The Authority had already transferred the sales proceeds to its account for its low-rent
      public housing program; however, it did not use the funds in accordance with its approved plan.

          On August 19, 2011, HUD submitted a revised management decision, stating that it would submit
      a proposal to the Office of General Counsel to allow for the approval of a retroactive amended plan to
      permit the transfer of the proceeds from the sale of the Authority’s Turnkey III units to the Authority’s
      account for its low-rent public housing program. OIG concurred with the revised management decision
      but did not write off ffunds totaling nearly $580,000 that were associated with the recommendation since
      actual retroactive approval had yet to be obtained. (Audit Report: 2009-CH-1017)

      Fiscal Year 2010 Review of Information Systems Controls in Support of the Financial
      Statements Audit, Issue Date: January 14, 2011

          OIG issued an audit report entitled “Fiscal Year 2010 Review of Information Systems Controls in Support
      of the Financial Statements Audit.” Among the issues reported was that HUD did not require all users to
      sign and acknowledge the specific rules of behavior form created for HUD’s Integrated Disbursement and
      Information System (IDIS) application. In addition, HUD did not implement a formal user recertification
      process for IDIS. OIG recommended that HUD require IDIS users to complete and sign the IDIS rules
      of behavior form when access is granted and annually at recertification. The original agreed-upon
      management decision was for a paper-based process. HUD now has a new IDIS Online Project Manager,
      and the revised agreed-upon management decision is for HUD to implement an automated process which



132                                                                                  Chapter 10 - Audit Resolution
it believes will expedite the initial user request, reduce costs associated with processing the requests
manually (i.e., paper, mailing, storage, and man-hours), and bring them into further compliance with
the Paper Work Reduction Act 1995. The final action target completion date remains the same. (Audit
Report: 2011-DP-0004)

Significant Management Decision With Which OIG Disagrees
During the reporting period, there were no reports in which the OIG disagrees with the significant
management decision.

Federal Financial Management Improvement Act of 1996
    In FY 2011, HUD did not substantially comply with FFMIA. In this regard, HUD’s financial management
systems did not substantially comply with Federal financial management system requirements.

    During FY 2011, HUD made limited progress in bringing the financial management systems into
compliance with FFMIA. However, HUD’s financial management systems continued to not meet
requirements. HUD’s systems were not operated in an integrated fashion and linked electronically
to efficiently and effectively provide agencywide financial system support necessary to carry out the
agency’s mission and support the agency’s financial management needs.

    HUD’s financial systems, many of which were developed and implemented before the issue
date of current standards, were not designed to provide the range of financial and performance data
required. HUD is in the process of modernizing its financial management systems by developing an
integrated financial management system. The modernization development, HUD’s Integrated Financial
Improvement Project (HIFMIP), was launched in FY 2003 but has been plagued by delays. Originally
planned for implementation in 2006, the contract for HIFMIP was awarded on September 23, 2010.
The 10-year contract plan was established based on the implementation project start date and current
schedule. The Office of the Chief Financial Officer began phase II of the project on September 27, 2010,
and it is scheduled to run through March 26, 2012.

     FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons when
an agency has not met the intermediate target dates established in its mediation plan required by FFMIA.
At the end of 2011, 4 of the 41 financial management systems were not in substantial compliance with
FFMIA. These four systems are the HUD Procurement System (HPS), Small Purchase System (SPS), IDIS,
and Facilities Integrated Resources Management System. The Department acquired a new application,
HUD Integrated Acquisition Management System, to replace HPS and SPS on September 30, 2010, and
it is scheduled to go live in the first quarter of FY 2012. OIG determined that IDIS was not in substantial
compliance with FFMIA. Although 38 individual systems had been certified as compliant with Federal
financial management systems requirements, HUD had not performed independent reviews of all of its
financial management systems in accordance with Office of Management and Budget Circular A-127.
Collectively and in the aggregate, deficiencies continued to exist.

                                                  nnn




Chapter 10 - Audit Resolution                                                                                 133
Appendix 1 - Peer Review Reporting
      Background
          The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law No. 111-203), Section
      989C, requires Inspectors General to report the latest peer review results in their semiannual reports to
      Congress. The purpose in doing so is to enhance transparency within the government. Both the Office of
      Audit and Office of Investigation are required to undergo a peer review of their individual organizations
      every 3 years. The purpose of the reviews is to ensure that the work completed by the respective
      organizations meets the applicable requirements and standards. The following is a summary and status
      of the latest round of peer reviews for both organizations.


      Office of Audit
      Peer Review Conducted on HUD OIG
          The U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
      received a grade of pass (the highest rating) on the peer review report issued by U.S. Treasury Inspector
      General for Tax Administration on September 22, 2009. There were no recommendations included in the
      System Review Report. The report stated:

           In our opinion, the system of quality control in effect for the year ended March 31, 2009, for the
           audit organization of the HUD OIG has been suitably designed and complied with to provide the
           HUD OIG with reasonable assurance of performing and reporting in conformity with applicable
           professional standards in all material respects. Federal audit organizations can receive a rating
           of pass, pass with deficiencies, or fail. The HUD OIG has received a peer review rating of pass.

      Peer Review Conducted by HUD OIG on USDA
          The U.S. Department of Agriculture (USDA) OIG received a rating of pass on the peer review report issued
      by HUD OIG on September 30, 2009. The System Review Report contained no findings or recommendations.


      Office of Investigation
      Peer Review Conducted on HUD OIG
         The most recent peer review of the Office of Investigation was conducted in 2011 by the United States
      Department of Health and Human Services Office of Inspector General. The results of the peer review
      found HUD OIG compliant (the highest rating) with the quality of standards established by the inspector
      general community and the attorney general guidelines.

                                                          nnn




136                                                                              Appendix 1 - Peer Review Reporting
Appendix 2 - Audit Reports Issued
      Internal Reports
      23 Audit Reports
      Chief Financial Officer (2 Reports)
      2011-FO-0005          HUD Can Improve Its Oversight of ARRA Obligation and Expenditure
                            Requirements, 05/20/2011.
      2011-FO-0006          American Recovery and Reinvestment Act of 2009 Grantees Met Initial
                            Expenditure Requirements, but HUD Should Return Recaptured Funds to the U.S.
                            Treasury and Ensure That Grant Closeout Procedures Comply With the Act,
                            09/30/2011.
      Chief Information Officer (2 Reports)
      2011-DP-0007          Review of the National Environmental Policy Act and Core Activity Modules Within
                            the Recovery Act Management and Performance System, 07/22/2011.
      2011-DP-0008          The Disaster Recovery Grant Reporting System that Maintained Recovery
                            Act Information Had Application Security Control Deficiencies, 07/28/2011.
      Chief Procurement Officer (2 Reports)
      2011-HA-0002          HUD Improved Its Administration of Interagency Agreements, 05/25/2011.
      2011-HA-0003          HUD Needs To Obtain Complete Documentation To Close Ginnie Mae Contracts,
                            07/15/2011.
      Community Planning and Development (1 Report)
      2011-KC-0002          HUD’s Region VII Office of Community Planning and Development Complied
                            With HUD’s Monitoring Requirements for Recovery Act Recipients, 06/23/2011.
      Housing (6 Reports)
      2011-CH-0002          HUD’s Oversight of Its Multifamily Housing Subsidy Payment Review Process
                            Needs Improvement, 06/06/2011. Questioned: $830,205; unsupported: $830,205.
      2011-FW-0001          The National Servicing Center Implemented the FHA-HAMP Loss Mitigation
                            Option in Accordance With Rules and Regulations, 04/08/2011.
      2011-FW-0002          The Office of Healthcare Programs Could Increase Its Controls To More Effectively
                            Monitor the Section 232 Program, 04/26/2011. Questioned: $756,833; unsupported:
                            $756,833.
      2011-KC-0001          FHA Has Improved Its Annual Lender Renewal Process, but Challenges Remain,
                            06/14/2011. Questioned: $404,600; better use: $178,600.
      2011-KC-0004          FHA Did Not Prevent Corporate Officers of Noncompliant Lenders From
                            Returning to the FHA Program, 09/26/2011.
      2011-LA-0002          HUD Did Not Always Follow its Requirements for the Preclosing and Postclosing
                            Review of Mortgage Files Submitted by New Direct Endorsement Lenders,
                            04/18/2011.
      Lead Hazard Control (1 Report)
      2011-CH-0003          The Office of Healthy Homes and Lead Hazard Control Needs To Improve Its
                            Monitoring of American Recovery and Reinvestment Act Grant Recipients,
                            09/30/2011. Questioned: $4,247,991; unsupported: $4,247,991.




138                                                                            Appendix 2 - Audit Reports Issued
Office of Sustainable Housing and Communities (1 Report)
2011-HA-0004             HUD Could Not Identify Whether Its Properties Had Been Included in the
                         Recovery Act Weatherization Assistance Program, 09/27/2011.
Public and Indian Housing (6 Reports)
2011-AO-0001             The Lafayette Parish Housing Authority Violated HUD Procurement Requirements
                         and Executed Unreasonable and Unnecessary Contracts, 06/22/2011. Questioned:
                         $2,976,813; unsupported: $2,976,813.
2011-AO-0002             The Lafayette Parish Housing Authority Generally Followed Requirements When
                         Obligating and Expending Its Public Housing Capital Fund Stimulus Recovery
                         Act funds But Did Not Always Comply With Recovery Act Procurement
                         and Reporting Requirements, 08/26/2011.
2011-BO-0001             Office of Public Housing Monitored Recovery Act Grants Awarded to Region 1
                         Public Housing Authority Grantees in Accordance With Applicable Requirements,
                         05/13/2011.
2011-KC-0003             HUD Did Not Ensure That Housing Authorities Resolved Items on the Multiple
                         Subsidy Report in a Reasonable Amount of Time, 09/26/2011. Better use:$340,679.
2011-LA-0003             Office of Public Housing Monitored Recovery Act Grants Awarded to Region IX
                         Public Housing Agency Grantees in Accordance With Applicable Requirements,
                         07/15/2011.
2011-NY-0002             HUD Could Improve Its Financial Reporting Process for Obtaining Information on
                         Public Housing Authorities’ Pension and Other Postemployment Benefit
                         Obligations, 06/27/2011.

Audit-Related Memorandums1
Office of Departmental Operations and Coordination (1 Report)
2011-HA-0801             Interim Memorandum Report on the Office of Labor Relations’ Management of
                         the Davis-Bacon Wage Restitution and Deposit Account, 09/28/2011.
Public and Indian Housing (1 Report)
2011-BO-0801             HUD’s Controls over Energy Audits and Using Recovery Act Funds for Energy
                         Equipment Did Not Warrant Further Audit Testing, 06/14/2011.


                                                         nnn




1
 The memorandum format is used to communicate the results of reviews not performed in accordance with
generally accepted government audit standards, to close out assignments with no findings and recommendations,
to respond to requests for information, to report on the results of a survey, to report results, or to report the results
of civil actions or settlements.




Appendix 2 - Audit Reports Issued                                                                                           139
      External Reports
      91 Audit Reports
      Community Planning and Development (37 Reports)
      2011-AO-1004       The New Orleans Redevelopment Authority Had Not Administered Its Recovery
                         Act NSP2 in Accordance With Federal Regulations, New Orleans, LA, 04/08/2011.
                         Questioned: $178,148; unsupported: $84,372; better use: $8,101,539.
      2011-AO-1005       The State of Mississippi Generally Ensured That Disbursements to Program
                         Participants Were Eligible and Supported, Jackson, MS, 04/18/2011. Questioned:
                         $90,000; better use: $75,000.
      2011-AT-1005       The Nashville Metropolitan Development and Housing Agency Generally
                         Complied With NSP2 Requirements, Nashville, TN, 04/06/2011.
      2011-AT-1006       The Municipality of Mayaguez Did Not Ensure Compliance With HOME
                         Program Objectives, Mayaguez, PR, 04/08/2011. Questioned: $7,292,897;
                         unsupported: $2,586,853; better use: $908,099.
      2011-AT-1007       The City of Miami Gardens Did Not Adequately Support Salary Costs Charged
                         to the Neighborhood Stabilization Program, Miami City, FL, 04/12/2011.
                         Questioned: $426,852; unsupported: $426,852.
      2011-AT-1008       Palm Beach County Did Not Fully Comply With Federal Requirements
                         When Administering Its NSP, Palm Beach, FL, 04/22/2011. Questioned: $1,761,947;
                         unsupported: $10,000; better Use: $211,952.
      2011-AT-1009       The Georgia Department of Community Affairs Paid for Some Unsupported
                         Program Participants, Atlanta, GA, 06/07/2011. Questioned: $66,879; unsupported:
                         $66,879.
      2011-AT-1012       The Office of the Commissioner for Municipal Affairs Did Not Always
                         Ensure Compliance With Block Grant Recovery Act Program Requirements,
                         San Juan, PR, 07/08/2011. Questioned: $135,445; unsupported: $135,445; better
                         use: $42,829.
      2011-AT-1014       Louisville-Jefferson County Metropolitan Government Generally Complied
                         With Recovery Act Requirements for Its Homelessness Prevention and Rapid
                         Re-Housing and CDBG-Recovery Programs, Louisville, KY, 08/11/2011.
      2011-AT-1015       The City of Memphis Did Not Ensure Compliance With All Requirements for
                         Its Homelessness Prevention and Rapid Re-Housing and CDBG-Recovery
                         Programs, Memphis, TN, 08/26/2011. Questioned: $594,114; unsupported:
                         $545,978; better use: $25,000.
      2011-AT-1016       The City of Hialeah Did Not Accurately Report the Number of Jobs Created or
                         Retained on the Recovery Act Web Site for Its Homelessness Prevention and
                         Rapid Re-Housing Program, Hialeah, FL, 09/14/2011.
      2011-AT-1017       Broward County Did Not Accurately Report Recovery Act Grant Information for
                         Its CDBG-R Program, Fort Lauderdale, FL, 09/19/2011.
      2011-AT-1018       The Municipality of San Juan Did Not Properly Manage Its HOME Investment
                         Partnerships Program, San Juan, PR, 09/28/2011. Questioned: $7,839,666;
                         unsupported: $4,809,387; better use: $11,332,341.




140                                                                        Appendix 2 - Audit Reports Issued
2011-AT-1019           The Alabama Department of Economic and Community Affairs Used
                       Homelessness Prevention and Rapid Re-Housing Program Funds for Ineligible
                       and Unsupported Purposes, Montgomery, AL, 09/28/2011. Questioned: $69,036;
                       unsupported: $67,961.
2011-BO-1010           City of Brockton Did Not Implement an Adequate Cost Allocation Plan
                       for Administrative Expenses and Paid Unreasonable Costs for Its Fiscal Year
                       2010 CDBG Audit, Brockton, MA, 09/07/2011. Better use: $32,500.
2011-CH-1008           The State of Michigan Lacked Adequate Controls Over Its NSP Regarding
                       Awards, Obligations, Subgrantees’ Administrative Expenses and Procurement,
                       and Reporting Accomplishments, Lansing, MI, 06/03/2011. Questioned: $685,190;
                       unsupported: $154,060; better use: $188,369.
2011-CH-1014           The City of Cleveland Lacked Adequate Controls Over Its HOME
                       Investment Partnerships Program-Funded Housing Trust Fund Program Home-
                       Buyer Activities, Cleveland, OH, 09/29/2011. Questioned: $815,000; unsupported:
                       $775,000.
2011-CH-1017           Pioneer Civic Services, Inc., Did Not Properly Administer Its Supportive
                       Housing Program and Housing Opportunities for Persons With AIDS Grants,
                       Peoria, IL, 09/30/2011. Questioned: $483,576; unsupported: $93,972; better
                       use: $296,000.
2011-DE-1005           The State of Montana Generally Used Its CDBG-R Funds in Compliance
                       With Requirements but Improperly Negotiated and Serviced Loans, Helena,
                       MT, 09/26/2011.
2011-FW-1009           The City of Houston Did Not Ensure That Its Homelessness Prevention and
                       Rapid Re-Housing Program Complied With Recovery Act Requirements, Houston,
                       TX, 06/02/2011. Questioned: $59,574; unsupported: $59,274.
2011-FW-1012           The City of Tulsa Mismanaged Its Recovery Act Funding, Tulsa, OK, 06/16/2011.
                       Questioned: $49,089; unsupported: $49,089; better use: $2,318,392.
2011-FW-1013           The City of Beaumont Should Strengthen Its Controls Over Its Homelessness
                       Prevention and Rapid Re-Housing Program, Beaumont, TX, 06/30/2011.
                       Questioned: $214,908; unsupported: $214,908.
2011-KC-1003           The Missouri Housing Development Commission Did Not Always Disburse Its
                       Tax Credit Assistance Program Funds in Accordance With Recovery
                       Act Requirements, Kansas City, MO, 04/01/2011. Questioned: $3,610,009;
                       unsupported: $3,472,947.
2011-LA-1009           Special Services for Groups Approved Homelessness Prevention and Rapid
                       Re-Housing Program Assistance for Unsupported and Ineligible Participants, Los
                       Angeles, CA, 04/06/2011. Questioned: $53,931; unsupported: $51,631.
2011-LA-1010           People Assisting the Homeless Did Not Always Ensure That Homelessness
                       Prevention and Rapid Re-Housing Funds Were Used To Assist Eligible and
                       Supported Participants, Los Angeles, CA, 05/17/2011. Questioned: $29,214;
                       unsupported: $21,004.
2011-LA-1012           The City of Las Vegas Did Not Always Ensure That Homelessness Prevention and
                       Rapid Re-Housing Funds Were Used as Required, Las Vegas, NV, 07/06/2011.
                       Questioned: $75,273; unsupported: $29,448.




Appendix 2 - Audit Reports Issued                                                                        141
      2011-LA-1015       Chicanos Por La Causa, Inc., Did Not Always Administer Its NSP2 Grant In
                         Accordance With HUD Requirements, Phoenix, AZ, 07/22/2011. Questioned:
                         $575,947; unsupported: $429,498; better use: $178,451.
      2011-LA-1016       The City of Compton Did Not Administer Its HOME Program in Compliance
                         With HOME Requirements, Compton, CA, 08/18/2011. Questioned: $2,918,290;
                         unsupported: $2,552,473; better use: $81,775.
      2011-NY-1009       The East Orange Revitalization and Development Corporation Did Not Always
                         Comply With HOME Program Requirements and Federal Regulations, East
                         Orange, NJ, 04/07/2011. Questioned: $737,437; unsupported: $737,437; better use:
                         $37,712.
      2011-NY-1010       The City of Buffalo Did Not Always Administer Its CDBG Program in Accordance
                         With HUD Requirements, Buffalo, NY, 04/15/2011. Questioned: $23,310,258;
                         unsupported: $22,842,829; better use: $5,484,308.
      2011-NY-1015       Weaknesses Existed in Essex County’s Administration of Its Homelessness
                         Prevention and Rapid Re-Housing Program, Essex County, NJ, 09/20/2011.
                         Questioned: $185,093; unsupported: $141,260.
      2011-NY-1016       The City of Buffalo Did Not Always Disburse Homelessness Prevention and
                         Rapid Re-Housing Program Funds in Accordance With Regulations, Buffalo,
                         NY, 09/22/2011. Questioned: $432,427; unsupported: $432,427; better use: $97,982.
      2011-PH-1012       The City of Reading Generally Complied With NSP2 Requirements, Reading,
                         PA, 06/30/2011. Questioned: $66,414; unsupported: $58,263.
      2011-PH-1015       Camden County Generally Administered Its CDBG-R Act Funds According
                         to Applicable Requirements, Camden, NJ, 09/22/2011. Questioned: $37,610;
                         unsupported: $37,610; better use: $1,041.
      2011-SE-1005       Oregon Housing and Community Services Did Not Always Disburse Its Tax
                         Credit Assistance Program Funds in Accordance With Program Requirements,
                         Salem, OR, 04/28/2011. Questioned: $100,432; unsupported: $80,098.
      2011-SE-1006       Mid-Willamette Valley Community Action Agency Did Not Always Follow
                         Recovery Act Homelessness Prevention and Rapid Re-Housing Program
                         Requirements, Salem, OR, 06/13/2011. Questioned: $64,608; unsupported: $64,608.
      2011-SE-1008       The Idaho Housing and Finance Association Did Not Always Comply With
                         HOME Investment Partnerships Project and Cost Eligibility Regulations, Boise,
                         ID, 09/23/2011. Questioned: $3,071,846; unsupported: $3,013,845.
      Housing (14 Reports)
      2011-AT-1010       Crossfire Financial Network Did Not Follow HUD Requirements in Approving
                         FHA Loans and Implementing Its Quality Control Program, Miami, FL, 06/24/2011.
                         Questioned: $210,453; better use: $1,142,100.
      2011-AT-1011       Prospect Mortgage, LLC, Did Not Always Comply With FHA Underwriting and
                         Quality Control Requirements, Sherman Oaks, CA, 07/08/2011. Questioned:
                         $550,257; unsupported: $202,655; better use: $1,694,217.
      2011-CH-1007       PNC Mortgage Complied With HUD’s Requirements for Loss Mitigation,
                         Miamisburg, OH, 04/06/2011.




142                                                                         Appendix 2 - Audit Reports Issued
2011-CH-1016           Countrywide Bank, FSB, Did Not Comply With HUD Requirements for
                       Underwriting FHA Loans and Fully Implement Its Quality Control Program In
                       Accordance With HUD’s Requirements, Calabasas, CA, 09/30/2011.
                       Questioned: $730,091; unsupported: $3,211.
2011-DE-1002           Blue Mountain Hospital, a HUD Section 242 Insured Mortgagee, Did Not Have
                       Adequate Written Procedures for Its Project Funds, Blanding, UT, 06/02/2011.
2011-DE-1004           Mountain States Mortgage Center Did Not Follow HUD’s Underwriting, Quality
                       Control, and Advertising Requirements, Sandy, UT, 07/22/2011. Better use: $188,483.
2011-FW-1008           Midland Mortgage Company Generally Complied With FHA-HAMP Rules
                       and Regulations, Oklahoma City, OK, 04/08/2011.
2011-FW-1010           Wells Fargo Home Mortgage Did Not Always Approve FHA-HAMP Loans or Trial
                       Plans in Accordance With Rules and Regulations, Fort Mill, SC, 06/07/2011.
                       Questioned: $127,853.
2011-FW-1016           AmericaHomeKey, Inc. Did Not Follow HUD-FHA Loan Requirements in
                       Underwriting 13 of 20 Manufactured Home Loans, Dallas, TX, 09/23/2011.
                       Questioned: $538,132; unsupported: $23,803; better use: $683,718.
2011-KC-1005           CitiMortgage Did Not Properly Determine Borrower Eligibility for FHA’s
                       Preforeclosure Sale Program, O’Fallon, MO, 09/30/2011. Questioned: $4,942,822.
2011-LA-1011           Multifamily Insured Project Saint Timothy’s Tower Was Not Administered in
                       Accordance With HUD Rules and Regulations, Compton, CA, 06/20/2011.
                       Questioned: $179,990; unsupported: $36,869.
2011-LA-1017           Universal American Mortgage Company Branch Did Not Comply With
                       HUD Regulations in the Origination and Quality Control of FHA-Insured Loans,
                       Las Vegas, NV, 09/21/2011. Questioned: $118,861; better use: $1,188,588.
2011-NY-1012           Ameritrust Mortgage Bankers, Inc., Did Not Always Comply With HUD-FHA
                       Loan Origination and Quality Control Requirements, Lake Success, NY,
                       08/16/2011. Questioned: $187,170; better use: $2,742,810.
2011-NY-1014           All American Home Mortgage Corp. Did Not Always Comply With HUD-FHA
                       Loan Underwriting Requirements, Brooklyn, NY, 09/06/2011. Questioned:
                       $182,195; better use: $1,070,963.
Public and Indian Housing (32 Reports)
2011-AO-1006           The Mississippi Regional Housing Authority VIII Generally Followed Requirements
                       When Obligating and Expending Its Recovery Act Capital Funds but Did Not
                       Accurately Report Recovery Act Grant Information, Gulfport, MS, 08/16/2011.
2011-AO-1007           Jefferson Parish Housing Authority Did Not Always Comply With Public Housing
                       Capital Fund Stimulus Recovery Act Obligation, Procurement, and Reporting
                       Requirements, Marrero, LA, 09/29/2011. Questioned: $109,511; unsupported:
                       $30,000.
2011-AO-1008           The Tennessee Valley Regional Housing Authority Generally Ensured That Its
                       Public Housing Capital Fund Grant Complied With Recovery Act Requirements,
                       Corinth, MS, 09/29/2011.
2011-AT-1013           The Greensboro Housing Authority Needs To Improve Internal Controls for
                       Administering Recovery Act Funds, Greensboro, NC, 07/21/2011. Questioned:
                       $741,848; unsupported: $741,848.




Appendix 2 - Audit Reports Issued                                                                            143
      2011-BO-1008   The Housing Authority of the City of New Haven Could Not Show That It Always
                     Complied With Environmental and Labor Standards Enforcement Requirements,
                     New Haven, CT, 06/10/2011. Questioned: $2,027,656; unsupported: $2,027,656.
      2011-BO-1009   Weymouth Housing Authority Did Not Always Administer Its Housing Choice
                     Voucher Program and Public Housing Program in Accordance With HUD
                     Regulations and Its Annual Contributions Contracts, Weymouth, MA, 08/29/2011.
                     Questioned: $4,017,804; unsupported: $3,846,791.
      2011-BO-1011   Fall River Housing Authority Did Not Always Administer Its Housing Choice
                     Voucher Program in Accordance With HUD Regulations and Its Annual
                     Contributions Contracts, Fall River, MA, 09/09/2011. Questioned: $7,453;
                     unsupported: $7,453.
      2011-CH-1009   The Housing Authority of the City of South Bend Generally Administered Its
                     Public Housing Capital Fund Stimulus Formula Grant (Recovery Act Funded) in
                     Accordance With Applicable Requirements, South Bend, IN, 06/17/2011.
      2011-CH-1010   The Rockford Housing Authority Needs to Improve Its ARRA Contract
                     Administration Procedures, Rockford, IL, 07/25/2011. Questioned: $17,806;
                     unsupported: $17,806.
      2011-CH-1011   Cuyahoga Metropolitan Housing Authority Did Not Operate its Section 8 Housing
                     Choice Voucher Program According to HUD’s Requirements, Cleveland, OH,
                     07/28/2011. Questioned: $649,048; unsupported: $548,654; better use: $9,573,515.
      2011-CH-1012   The Saginaw Housing Commission Did Not Fully Implement Prior Audit
                     Recommendations and Continued To Use Its Public Housing Program Funds for
                     Ineligible Purposes, Saginaw, MI, 08/09/2011. Questioned: $2,875,355;
                     unsupported: $836,207.
      2011-CH-1013   The Youngstown Metropolitan Housing Authority Needs To Improve Its
                     Procurement Process, Youngstown, OH, 08/16/2011. Questioned: $97,705.
      2011-CH-1015   The Springfield Metropolitan Housing Authority Did Not Administer Its Grant
                     in Accordance With Recovery Act and HUD Requirements, Springfield,
                     OH, 09/30/2011. Questioned: $262,580; unsupported: $110,580.
      2011-CH-1018   The Pontiac Housing Commission Did Not Adequately Administer Its American
                     Recovery and Reinvestment Act Capital Fund Grant, Pontiac, MI, 09/30/2011.
                     Questioned: $148,676.
      2011-DE-1003   The Housing Authority of the City and County of Denver Generally Followed
                     Requirements When Obligating and Expending Its Recovery Act Capital Funds
                     But Did Not Accurately Report Recovery Act Grant Information, Denver, CO,
                     06/16/2011.
      2011-FW-1007   Albuquerque Housing Services Mismanaged Its Recovery Act Funding,
                     Albuquerque, NM, 04/07/2011. Questioned: $1,802,128; unsupported: $711,294.
      2011-FW-1011   The San Antonio Housing Authority Generally Administered Its Recovery Act
                     Public Housing Capital Funds Properly, San Antonio, TX, 06/07/2011.
      2011-FW-1014   The Housing Authority of the City of Wichita Falls Generally Ensured That
                     Its Recovery Act Capital Fund Grant Complied with Requirements, Wichita Falls,
                     TX, 07/07/2011. Questioned: $33,399; unsupported: $33,399.




144                                                                     Appendix 2 - Audit Reports Issued
2011-FW-1015           The Housing Authority of the City of Las Cruces Complied With Recovery
                       Act Capital Fund Obligation and Expenditure Requirements but Had
                       Environmental and Reporting Exceptions, Las Cruces, NM, 09/15/2011.
2011-KC-1004           Housing Authority of The City of Mountain Grove Did Not Comply with
                       Procurement Requirements and Improperly Disposed of Property Assets,
                       Mountain Grove, MO, 09/09/2011. Questioned: $11,573; unsupported: $11,573.
2011-LA-1013           The Housing Authority of the County of Los Angeles Generally Administered the
                       Procurement and Contracting of Its Recovery Act Capital Fund Formula Grant in
                       Accordance With HUD Requirements, Monterey Park, CA, 07/14/2011.
2011-LA-1014           The Housing Authority of the County of Monterey Did Not Administer the
                       Procurement and Contracting of Its Capital Fund Recovery Grant
                       Funds in Accordance With HUD Laws and Regulations, Salinas, CA, 07/21/2011.
                       Questioned: $99,900; unsupported: $99,900.
2011-LA-1018           The Tule River Indian Housing Authority Did Not Administer the Procurement
                       and Contracting of Its Recovery Act Native American Housing Block Grant
                       in Accordance With HUD requirements, Porterville, CA, 09/22/2011. Questioned:
                       $132,715.
2011-LA-1019           The Housing Authority of the County of San Bernardino Did Not Adequately
                       Complete All Procurements for Its Recovery Act Capital Fund Grants
                       in Accordance With HUD Requirements, San Bernardino, CA, 09/26/2011.
                       Questioned: $247,834; unsupported: $247,834.
2011-NY-1011           The Housing Authority of the City of Elizabeth Had Weaknesses in Its Capital
                       Fund Program’s Financial Controls, Elizabeth, NJ, 08/04/2011. Questioned:
                       $1,141,387; unsupported: $1,141,387; better use: $1,239,832.
2011-NY-1013           Long Branch Housing Authority Generally Complied With Capital Fund Program
                       Regulations, Long Branch, NJ, 09/01/2011. Questioned: $1,052,935; better use:
                       $1,474,109.
2011-PH-1010           The Philadelphia Housing Authority Failed To Support Payments and Improperly
                       Used Funds From the ARRA, Philadelphia, PA, 05/17/2011. Questioned: $957,742;
                       unsupported: $957,742.
2011-PH-1011           The Wilmington Housing Authority Generally Administered Its Public Housing
                       Capital Fund Recovery Act-Funded Formula and Competitive Grants in
                       Accordance With Applicable Requirements, Wilmington, DE, 06/24/2011.
2011-PH-1013           The Housing Authority of the City of Camden Did Not Ensure That Its Section
                       8 Housing Choice Voucher Program Units Met Housing Quality Standards,
                       Camden, NJ, 07/19/2011. Questioned: $29,791.
2011-PH-1014           The Allegheny County Housing Authority Did Not Always Procure Goods and
                       Services or Obligate Funds According to Recovery Act and Applicable HUD
                       Requirements, Pittsburgh, PA, 08/10/2011. Questioned: $1,873,279; unsupported:
                       $1,771,255.
2011-PH-1016           The Philadelphia Housing Authority Did Not Have Conflicts of Interest Related
                       to Recovery Act Rehabilitation but Failed To Comply With Financial Disclosure
                       Requirements, Philadelphia, PA, 09/28/2011.
2011-SE-1007           King County Housing Authority Generally Complied With Recovery Act Capital
                       Fund Competition Grant Requirements, Tukwila, WA, 07/20/2011.




Appendix 2 - Audit Reports Issued                                                                       145
Audit-Related Memorandums1
Community Planning and Development (2 Reports)
2011-NY-1801            The City of East Orange Did Not Always Comply With HOME Program
                        Requirements, Federal Regulations, and HOME Grant Agreements, East Orange,
                        NJ, 04/07/2011. Questioned: $279,865; better use: $51,720.
2011-NY-1802            The City of Dunkirk Used CDBG Recovery Act Funding for an Ineligible Activity,
                        Dunkirk, NY, 07/14/2011. Questioned: $134,654; better use: $18,866.
General Counsel (2 Reports)
2011-CF-1802            Final Civil Action, HUD Real Estate-Owned Program Violations, Lake in the Hills, IL,
                        08/01/2011. Questioned: $5,000.
2011-CF-1803            Final Civil Action, Beechwood Incorporated, Alleged Violations of the Financial
                        Institutions Reform, Recovery, and Enforcement Act of 1989, Moreno Valley,
                        CA, 09/29/2011. Questioned: $100,000.
Housing (1 Report)
2011-SE-1801            Pierce Commercial Bank Did Not Properly Underwrite a Selection of FHA Loans,
                        Tacoma, WA, 09/30/2011.
Public and Indian Housing (3 Reports)
2011-KC-1801            Housing Authority of the City of Mountain Grove Improperly Disposed of Housing
                        Authority Assets, Mountain Grove, MO, 05/16/2011.
2011-LA-1802            The Housing Authority of the City of Los Angeles Charged Its Recovery Act Program
                        Without Applying Cost Reductions or Credits Related to Insurance Reimbursements,
                        Los Angeles, CA, 05/05/2011. Questioned: $75,370; better use: $8,018.
2011-NY-1803            The Housing Authority of Long Branch Needs To Strengthen Its Accounting for
                        Transactions with Affiliated Entities, Long Branch, NJ, 09/01/2011. Better use: $66,223.


                                                         nnn




1
 The memorandum format is used to communicate the results of reviews not performed in accordance
with generally accepted government auditing standards, to close out assignments with no findings and
recommendations, to respond to requests for information, to report on the results of a survey, or to report the
results of civil actions or settlements.




146                                                                                   Appendix 2 - Audit Reports Issued
Appendix 3 - Tables
                                                 Table A
                               Audit reports issued before the start of period
                          with no management decision as of September 30, 2011
                    *Significant audit reports described in previous semiannual reports
                 Report number                     Reason for lack of             Issue date
                    and title                     management decision

      * 2009-AT-0001 HUD Lacked Adequate         See chapter 10, page 124.        09/28/2009
      Controls to Ensure the Timely
      Commitment and Expenditure of HOME
      funds

      2011-NY-1004 The City of Binghamton,       See chapter 10, page 125.        12/21/2010
      NY, Did Not Always Administer
      Its Section 108 Loan Program in
      Accordance With HUD Requirements

      2011-CF-1801 An Underwriting Review of     See chapter 10, page 126.        03/02/2011
      15 FHA Lenders Demonstrated That HUD
      Missed Critical Opportunities to Recover
      Losses to the FHA Insurance Fund




148                                                                                  Appendix 3 - Tables
                                           Table B
                Significant audit reports in which final action had not been completed
                                within 12 months after the date of the
                                      Inspector General’s report
    Report                      Report title                   Issue      Decision         Final
    number                                                      date       date           action

 2002-AT-1002     Housing Authority of the City of Tupelo,   07/03/2002   10/31/2002     07/01/2015
                  Housing Programs Operations, Tupelo, MS

 2002-KC-0002     Nationwide Survey of HUD’s Office of       07/31/2002   11/22/2002      Note 2
                  Housing Section 232 Nursing Home
                  Program

 2004-DP-0002     Application Control Review of the Tenant   02/25/2004   07/14/2004     12/31/2011
                  Rental Assistance Certification System

 2005-AT-1004     Housing Authority of the City of Durham,   11/19/2004   03/15/2005     03/15/2015
                  NC

 2005-CH-1002     Washington Mutual Bank, Underwriting of    11/29/2004   01/28/2005      Note 2
                  FHA-Insured Loans, Downers Grove, IL

 2005-NY-1005     The Housing Authority of the City of       05/26/2005   09/23/2005     10/11/2011
                  Newark Bond Financing Activities and
                  Section 8 Housing Choice Voucher
                  Administrative Fee Reserves, Newark, NJ

 2005-AT-1013     Corporacion Para el Fomento Economico      09/15/2005   01/11/2006      Note 1
                  de la Ciudad Capital Did Not Administer
                  Its Independent Capital Fund in
                  Accordance with HUD Requirements, San
                  Juan, PR

 2006-CH-0001     Real Estate Assessment Center’s Physical   11/30/2005   01/10/2006     12/31/2011
                  Condition Assessment Was Compromised

 2006-NY-1003     The Housing Authority of the City of       02/14/2006   08/17/2006     09/13/2012
                  Newark’s Controls Over Bond Financing
                  Activities, Obtaining Supporting
                  Documentation, and Legal Settlements
                  Require Improvement, Newark, NJ

 2006-KC-1013     The Columbus Housing Authority             08/30/2006   10/17/2006     11/30/2012
                  Improperly Expended and Encumbered
                  Its Public Housing Funds, Columbus, NE

 2006-DP-0802     Assessment of HUD’s Compliance with        09/21/2006   11/24/2006     09/30/2014
                  OMB Memorandum M-06-16, “Protection
                  of Sensitive Agency Information”



Appendix 3 - Tables                                                                                   149
        Report                     Report title                    Issue      Decision         Final
        number                                                      date       date           action

      2007-DP-0003   Review of HUD’s Procurement Systems         01/25/2007   05/25/2007    10/15/2011

      2007-KC-0002   HUD Can Improve Its Use of Residual         01/29/2007   01/29/2007      Note 2
                     Receipts To Reduce Housing Assistance
                     Payments

      2007-KC-0003   HUD Did Not Recapture Excess Funds          04/30/2007   08/27/2007      Note 1
                     from Assigned Bond-Financed Projects

      2007-SE-0001   HUD’s Oversight of the Section 8 Project-   06/07/2007   10/05/2007      Note 1
                     Based Contract

      2007-FW-1011 Capmark Finance, Inc., Misrepresented         07/02/2007   10/23/2007      Note 2
                   Asbury Square Apartments’ Financial and
                   Physical Condition When Underwriting
                   the $9.098 Million Loan, Tulsa, OK

      2007-AT-1010   The Cathedral Foundation of Jacksonville    08/14/2007   12/03/2007      Note 1
                     Used More Than $2.65 Million in Project
                     Funds for Questioned Costs, Jacksonville,
                     FL

      2007-DP-0006   Review of HUD’s Personal Identity           08/28/2007   12/20/2007      Note 1
                     Verification and Privacy Program

      2007-AT-0001   HUD Needs To Improve Controls Over Its      09/19/2007   09/19/2007      Note 1
                     Contract Administration Processes

      2007-KC-0801   Lenders Submitted Title II Manufactured     09/24/2007   03/11/2008      Note 2
                     Housing Loans for Endorsement without
                     the Required Foundation Certifications

      2008-LA-0001   The Los Angeles Multifamily Hub Did Not     11/05/2007   03/03/2008      Note 1
                     Properly Monitor Its Performance-Based
                     Contract Administrator, Los Angeles
                     LOMOD

      2008-LA-1003   Home for Life Foundation Did Not            12/18/2007   02/26/2008    04/01/2013
                     Properly Administer Its Supportive
                     Housing Program Grants, Los Angeles, CA

      2008-AT-1005   The City of Fort Lauderdale Did Not         01/11/2008   05/05/2008    05/01/2012
                     Properly Administer Its CDBG Program,
                     Fort Lauderdale, FL

      2008-NY-1003   The City of New York’s Department of        01/23/2008   05/21/2008      Note 1
                     Housing Preservation and Development
                     Had Administrative Weaknesses in Its
                     HOME Program, New York, NY


150                                                                                    Appendix 3 - Tables
    Report                      Report title                  Issue      Decision       Final
    number                                                     date       date         action

 2008-AO-1002     State of Louisiana, Road Home Program,    01/30/2008   05/12/2008    Note 1
                  Funded 418 Grants Coded Ineligible or
                  Lacking an Eligibility Determination,
                  Baton Rouge, LA

 2008-KC-0002     HUD Did Not Ensure That Housing           03/24/2008   07/22/2008   10/01/2011
                  Authorities Properly Administered the
                  Community Service and Self-Sufficiency
                  Requirement

 2008-AO-0801     Review of Duplication of Participants     03/28/2008   08/01/2008    Note 1
                  Benefits under HUD’s Katrina Disaster
                  Housing Assistance Program and Disaster
                  Voucher Program

 2008-PH-1005     Elders Place, Incorporated, Did Not       03/28/2008   07/23/2008   04/27/2012
                  Administer Project Operating Funds in
                  Accordance with HUD Requirements,
                  Philadelphia, PA

 2008-AT-0003     HUD Lacked Adequate Controls over the     05/14/2008   09/10/2008   09/30/2012
                  Physical Condition of Section 8 Voucher
                  Program Housing Stock

 2008-BO-0002     Maintenance of Effort Requirements Are    05/21/2008   10/02/2008    Note 1
                  Needed to Ensure Intended Use of CDBG
                  Program Funds

 2008-CH-1010     The City of Cincinnati Lacked Adequate    06/11/2008   10/09/2008    Note 2
                  Controls over Its System Reporting and
                  Rental Rehabilitation Projects for Its
                  HOME Investment Partnerships Program,
                  Cincinnati, OH

 2008-DP-0004     Review of Selected FHA Major              06/12/2008   10/08/2008    Note 1
                  Applications’ Information Security
                  Controls

 2008-LA-1012     The Housing Authority of the City of      07/01/2008   10/14/2008   12/31/2013
                  Calexico Did Not Comply with Public
                  Housing Program Rules and Regulations,
                  Calexico, CA

 2008-CH-1014     The City of Cincinnati Did Not Adequately 09/26/2008   01/22/2009    Note 2
                  Manage Its HOME Investment Partnerships
                  Program, Cincinnati, OH




Appendix 3 - Tables                                                                                151
        Report                     Report title                 Issue      Decision         Final
        number                                                   date       date           action

      2009-FO-0003   Additional Details to Supplement Our     11/14/2008   03/19/2009    12/31/2011
                     Report on HUD’s Fiscal Years 2008 and
                     2007 Financial Statements

      2009-FW-1002 The Owner of Ebony Lake Healthcare         11/25/2008   03/25/2009    10/01/2011
                   Center Violated Its Regulatory Agreement
                   with HUD, Brownsville, TX

      2009-DP-0003   Review of the Centralized HUD Account    01/09/2009   04/30/2009      Note 1
                     Management Process

      2009-NY-1008   The City of Newburgh Did Not Always      02/24/2009   06/11/2009      Note 1
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Newburgh, NY

      2009-AO-1001   State of Louisiana, Road Home Program,   05/05/2009   09/16/2009      Note 1
                     Did Not Ensure That Road Home
                     Employees Were Eligible to Receive
                     Additional Compensation Grants, Baton
                     Rouge, LA

      2009-AO-1002   State of Louisiana, Road Home            05/05/2009   09/16/2009      Note 1
                     Program, Did Not Ensure That Multiple
                     Disbursements to a Single Damaged
                     Residence Address Were Eligible, Baton
                     Rouge, LA

      2009-CH-1008   The City of East Cleveland Did Not       05/11/2009   09/08/2009    07/31/2014
                     Adequately Manage Its HOME Investment
                     Partnerships and CDBG Programs, East
                     Cleveland, OH

      2009-NY-1012   The City of Rome Did Not Administer      05/20/2009   09/23/2009      Note 2
                     Its Economic Development Activity in
                     Accordance with HUD Requirements,
                     Rome, NY

      2009-FW-0801 Tenant Confirmation for Disaster Housing   05/28/2009   09/25/2009    10/01/2011
                   Assistance Program for March and April
                   2009

      2009-DP-0005   Review of Implementation of Security     06/11/2009   11/17/2009    12/31/2014
                     Controls over HUD’s Business Partners

      2009-LA-1011   City of Los Angeles Housing Department   07/01/2009   10/21/2009    02/15/2012
                     Did Not Ensure That the Buckingham
                     Place Project Met HOME Program
                     Requirements, Los Angeles, CA


152                                                                                 Appendix 3 - Tables
    Report                      Report title                   Issue      Decision       Final
    number                                                      date       date         action

 2009-CH-1011     The Housing Authority of the City of       07/31/2009   11/24/2009   01/01/2030
                  Terre Haute Failed to Follow Federal
                  Requirements and Its Employment
                  Contract Regarding Nonprofit
                  Development Activities, Terre Haute, IN

 2009-KC-0001     HUD Subsidized an Estimated 2,094 to       08/14/2009   03/31/2011   12/31/2011
                  3,046 Households That Included Lifetime
                  Registered Sex Offenders

 2009-CH-0002     The Office of Affordable Housing           08/28/2009   12/26/2009    Note 2
                  Programs’ Oversight of HOME Investment
                  Partnerships Program Income Was
                  Inadequate

 2009-LA-1018     DHI Mortgage Company, LTD’s Scottsdale     09/10/2009   01/08/2010   11/30/2011
                  and Tucson, AZ, Branches Did Not Always
                  Follow FHA-Insured Loan Underwriting
                  and Quality Control Reaquirements

 2009-LA-1019     The Owner of Park Lee Apartments           09/15/2009   01/13/2010   09/30/2012
                  Violated Its Regulatory Agreement with
                  HUD, Phoenix, AZ

 2009-DE-1005     Adams County Did Not Have Adequate         09/17/2009   01/15/2010    Note 2
                  Controls over Its Block Grant Funds,
                  Westminster, CO

 2009-AO-1003     Louisiana Land Trust, As the State of      09/23/2009   01/26/2010    Note 2
                  Louisiana’s Subrecipient, Did Not Always
                  Ensure That Properties Were Properly
                  Maintained, Baton Rouge, LA

 2009-DE-1801     Adams County Had Weaknesses That           09/24/2009   01/14/2010    Note 2
                  Could Significantly Affect Its Capacity
                  to Administer Its Recovery Act Funding,
                  Commerce City, CO

 2009-LA-1020     The Housing Authority of the City of       09/24/2009   12/29/2009   10/01/2012
                  Richmond Did Not Follow Procurement
                  Requirements and Had Internal Control
                  Weaknesses, Richmond, CA

 2009-AT-1012     The Municipality of Río Grande Needs       09/25/2009   01/22/2010   10/04/2011
                  to Improve Administration of Its CDBG
                  Program and Its Recovery Act Funds, Rio
                  Grande, PR




Appendix 3 - Tables                                                                                 153
        Report                     Report title                     Issue      Decision         Final
        number                                                       date       date           action

      2009-AT-0001   HUD Lacked Adequate Controls to Ensure       09/28/2009   03/18/2011      Note 3
                     the Timely Commitment and Expenditure
                     of HOME Funds

      2009-AT-1013   The City of Atlanta Entered Incorrect        09/28/2009   11/05/2009      Note 2
                     Commitments into HUD’s Integrated
                     Disbursement and Information System for
                     its HOME Program, Atlanta, GA

      2009-CH-1017   The Housing Authority of the City of         09/29/2009   01/22/2010    04/06/2012
                     Terre Haute Failed to Follow Federal
                     Requirements Regarding Its Turnkey III
                     Homeownership Program Units’ Sales
                     Proceeds, Terre Haute, IN

      2009-DP-0006   Review of HUD’s Web Application              09/29/2009   12/17/2009      Note 2
                     Systems

      2009-CH-1019   The Michigan State Housing Development       09/30/2009   01/27/2010    02/01/2012
                     Authority Failed to Operate Its Section
                     8 Project-Based Voucher Program
                     According to HUD’s and Its Requirements,
                     Lansing, MI

      2009-CH-1020   The City of Flint Lacked Adequate            09/30/2009   01/27/2010      Note 2
                     Controls over Its Commitment and
                     Disbursement of HOME Investment
                     Partnerships Program Funds, Flint, MI

      2010-NY-1002   Jersey Mortgage Company Did Not Always 10/09/2009         03/19/2010      Note 2
                     Comply with HUD/FHA Loan Underwriting
                     Requirements, Cranford, NJ

      2010-LA-0001   HUD’s Performance-Based Contract             11/12/2009   03/12/2010      Note 2
                     Administration Contract Was Not Cost
                     Effective

      2010-FO-0002   Audit of the FHA’s Financial Statements      11/13/2009   03/05/2010      Note 2
                     for Fiscal Years 2009 and 2008

      2010-FO-0003   Additional Details to Supplement Our         11/16/2009   04/02/2010      Note 2
                     Report on HUD’s Fiscal Years 2009 and
                     2008 Financial Statements

      2010-CH-1003   The Grand Rapids Housing Commission          11/24/2009   03/22/2010    11/30/2011
                     Needs to Improve Its Administration of Its
                     Section 8 Project-Based Voucher Program,
                     Grand Rapids, MI




154                                                                                     Appendix 3 - Tables
    Report                       Report title                     Issue      Decision       Final
    number                                                         date       date         action

 2010-AO-0801     HUD Needs to Ensure That the Housing          12/15/2009   04/19/2010   04/30/2012
                  Authority of New Orleans Strengthens
                  Its Capacity to Adequately Administer
                  Recovery Funding

 2010-NY-1005     The City of Paterson Did Not Always           12/18/2009   03/19/2010    Note 2
                  Administer Its CDBG Program in
                  Accordance with HUD Requirements,
                  Paterson, NJ

 2010-AO-1002     State of Louisiana Did Not Always             01/04/2010   05/14/2010    Note 2
                  Ensure Compliance Under Its Recovery
                  Workforce Training Program, Baton
                  Rouge, LA

 2010-NY-1007     The City of Jersey City Needs To              02/02/2010   04/05/2010    Note 2
                  Strengthen Its Controls To Ensure That
                  It Will Be Able To Effectively Administer
                  CDBG-R Funds, Jersey City, NJ

 2010-KC-1001     The State of Iowa Misspent CDBG Disaster      03/10/2010   09/13/2010   10/31/2012
                  Assistance Funds and Failed To Check for
                  Duplicate Benefits, Des Moines, IA

 2010-LA-1009     DHI Mortgage Company, LTD’s Scottsdale,       03/19/2010   07/16/2010   11/30/2011
                  AZ, Branches Did Not Follow FHA-Insured
                  Loan Underwriting Requirements

 2010-KC-1003     The City of East St. Louis Did Not Properly   03/26/2010   07/22/2010    Note 2
                  Allocate Salary and Building Expenses or
                  Properly Document Its Process to Secure
                  a Consulting Services Contract, East St.
                  Louis, IL

 2010-CH-0001     The Office of Block Grant Assistance          03/29/2010   07/27/2010    Note 2
                  Lacked Adequate Controls Over the
                  Inclusion of Special Conditions in NSP
                  Grant Agreements

 2010-AT-1003     The Housing Authority of Whitesburg           04/28/2010   08/26/2010   11/29/2035
                  Mismanaged Its Operations, Whitesburg,
                  KY

 2010-AO-1003     The State of Louisiana’s Subrecipient         04/30/2010   08/27/2010    Note 2
                  Generally Ensured Costs Were Supported
                  Under Its Tourism Marketing Program,
                  Baton Rouge, LA




Appendix 3 - Tables                                                                                    155
        Report                     Report title                    Issue      Decision         Final
        number                                                      date       date           action

      2010-PH-1008   Sasha Bruce Youthwork, Incorporated,        05/11/2010   11/03/2010    12/30/2011
                     Did Not Support More Than $1.9 Million in
                     Expenditures, Washington, DC

      2010-CH-1007   The Michigan State Housing Development      05/14/2010   09/08/2010    05/31/2012
                     Authority Needs To Improve Its Controls
                     Over Section 8 Project-Based Housing
                     Assistance Payments, Lansing, MI

      2010-FW-1004 The Georgetown Housing Authority Used         06/02/2010   08/20/2010      Note 2
                   $195,855 for Ineligible and Unsupported
                   Expenditures, Georgetown, TX

      2010-LA-1011   Sacramento Housing and Redevelopment        06/02/2010   02/22/2011    12/16/2011
                     Agency Did Not Always Administer the
                     NSP in Accordance With HUD Rules and
                     Regulations, Sacramento, CA

      2010-AT-1006   The Puerto Rico Department of Housing       06/11/2010   10/08/2010    10/31/2011
                     Failed To Properly Manage Its HOME
                     Investment Partnerships Program, San
                     Juan, PR

      2010-CH-1008   The DuPage Housing Authority                06/15/2010   10/08/2010    12/31/2012
                     Inappropriately Administered Its Section
                     8 Project-Based Voucher Program,
                     Wheaton, IL

      2010-NY-1012   The City of Jersey City’s CDBG Funds        07/01/2010   01/25/2011    01/15/2012
                     Used for a Float Loan Did Not Comply
                     With Applicable Regulations, Jersey City,
                     NJ

      2010-LA-1013   The City of Montebello Did Not Comply       07/08/2010   11/04/2010    11/01/2011
                     With HOME Requirements, Montebello,
                     CA

      2010-FW-1005 The Texas Department of Housing and           07/20/2010   11/16/2010    11/15/2011
                   Community Affairs Did Not Fully Follow
                   Requirements or Best Practices in the
                   Acquisition of Its Disaster Recovery-
                   Funded Program Management Firm,
                   Austin, TX

      2010-CH-1807   Birmingham Bancorp Mortgage                 07/21/2010   11/12/2010    11/04/2011
                     Corporation Did Not Properly Underwrite
                     a Selection of FHA Loans, West
                     Bloomfield, MI




156                                                                                    Appendix 3 - Tables
    Report                       Report title                     Issue      Decision       Final
    number                                                         date       date         action

 2010-CH-1808     Mac-Clair Mortgage Corporation Did Not        07/22/2010   10/26/2010   11/01/2011
                  Properly Underwrite a Selection of FHA
                  Loans, Flint, MI

 2010-LA-1803     Alacrity Lending Company Did Not              07/26/2010   12/21/2010   12/21/2011
                  Properly Underwrite a Selection of FHA
                  Loans, Southlake, TX

 2010-AT-1007     The Housing Authority, City of Wilson,        07/27/2010   11/24/2010   11/27/2013
                  Lacked the Capacity To Effectively
                  Administer Recovery Act Funds, Wilson,
                  NC

 2010-BO-1006     Waltham Housing Authority Needs to            07/27/2010   11/24/2010   10/14/2011
                  Improve Controls Over Its Interprogram
                  Fund Transactions, Procurement, and
                  Travel for Its Housing Choice Voucher and
                  Low-Income Public Housing Programs,
                  Waltham, MA

 2010-CH-1010     The Housing Authority of the City of          07/27/2010   12/07/2010   12/31/2011
                  Terre Haute Substantially Mismanaged
                  Its Capital Fund Program and Lacked
                  Capacity To Adequately Administer Its
                  Recovery Act Funds, Terre Haute, IN

 2010-CH-1810     Dell Franklin Financial, LLC, Did Not         07/30/2010   12/10/2010   11/01/2011
                  Properly Underwrite a Selection of FHA
                  Loans, Millersville, MD

 2010-LA-1014     The Retreat at Santa Rita Springs Did Not     08/02/2010   11/29/2010   11/01/2011
                  Comply With HUD Rules and Regulations
                  and Other Federal Requirements, Green
                  Valley, AZ

 2010-AO-1005     The State of Louisiana’s Subrecipient         08/04/2010   01/13/2011   12/01/2011
                  Did Not Always Meet Agreement
                  Requirements When Administering
                  Projects Under the Orleans Parish Long
                  Term Community Recovery Program,
                  Baton Rouge, LA

 2010-CH-1811     D&R Mortgage Corporation Did Not              08/04/2010   12/22/2010   12/16/2011
                  Properly Underwrite a Selection of FHA
                  Loans, Farmington Hills, MI

 2010-CH-1011     The State of Illinois Needs To Improve        08/05/2010   11/27/2010   11/01/2011
                  Its Capacity To Effectively and Efficiently
                  Administer Its NSP, Chicago, IL


Appendix 3 - Tables                                                                                    157
        Report                     Report title                    Issue      Decision         Final
        number                                                      date       date           action

      2010-LA-1804   Assurity Financial Services, LLC, Did Not   08/05/2010   12/03/2010    12/02/2011
                     Properly Underwrite a Selection of FHA
                     Loans, Englewood, CO

      2010-LA-1805   Americare Investment Group Did Not          08/06/2010   12/16/2010    12/16/2011
                     Properly Underwrite a Selection of FHA
                     Loans, Arlington, TX

      2010-AT-1009   The Puerto Rico Public Housing              08/13/2010   10/29/2010    10/29/2011
                     Administration Needs To Improve Its
                     Procurement Procedures, San Juan, PR

      2010-AT-1011   The Puerto Rico Department of Housing       08/25/2010   12/06/2010    11/30/2011
                     Did Not Ensure Compliance With HOME
                     Program Objectives, San Juan, PR

      2010-FW-0003 HUD Was Not Tracking Almost 13,000            08/25/2010   12/03/2010    12/03/2011
                   Defaulted HECM Loans With Maximum
                   Claim Amounts of Potentially More Than
                   $2.5 Billion

      2010-LA-1015   The Housing Authority of the City           08/31/2010   12/20/2010    11/30/2011
                     and County of San Francisco Did Not
                     Effectively Operate Its Housing Choice
                     Voucher Housing Quality Standards
                     Inspections, San Francisco, CA

      2010-SE-1001   Washington State Did Not Disburse Its       08/31/2010   12/07/2010    06/30/2012
                     Homelessness Prevention and Rapid
                     Re-Housing Funds in Accordance With
                     Program Requirements, Olympia, WA

      2010-NY-1805   Webster Bank Did Not Properly               09/01/2010   02/09/2011    09/01/2012
                     Underwrite a Selection of FHA Loans,
                     Cheshire, CT

      2010-LA-1807   Alethes, LLC, Did Not Properly Underwrite   09/08/2010   01/04/2011    01/04/2012
                     a Selection of FHA Loans, Lakeway, TX

      2010-KC-1007   The Missouri Housing Development            09/10/2010   01/07/2011    01/07/2012
                     Commission Did Not Always Obtain
                     Required Documents and Properly Report
                     on the Tax Credit Assistance Program
                     Funded Under the Recovery Act, Kansas
                     City, MO

      2010-LA-0002   HUD’s Office of Single Family Housing’s     09/15/2010   01/13/2011    01/12/2012
                     Management Controls Over Its Automated
                     Underwriting Process


158                                                                                    Appendix 3 - Tables
    Report                      Report title                    Issue      Decision       Final
    number                                                       date       date         action

 2010-NY-1806     Security Atlantic Mortgage Company, Inc.,   09/22/2010   02/09/2011   01/20/2012
                  Did Not Properly Underwrite a Selection
                  of FHA Loans, Edison, NJ

 2010-NY-1807     First Tennessee Bank, N.A., Did Not         09/27/2010   02/17/2011   01/04/2012
                  Properly Underwrite a Selection of FHA
                  Loans, Memphis, TN

 2010-AT-1014     Polk County Did Not Comply With             09/28/2010   03/16/2011   03/01/2012
                  Procurement and Contract Requirements
                  in Its NSP and HOME Program, Bartow, FL

 2010-KC-0003     HUD’s Written Policies and Procedures    09/28/2010      02/03/2011    Note 2
                  for Loan Indemnifications Were Generally
                  Adequate, But Did Not Include Procedures
                  for Pursuing Signed Indemnification
                  Agreements From Lenders

 2010-KC-1008     The City of East St. Louis Awarded Block    09/28/2010   01/26/2011   05/12/2012
                  Grant Program Funds to Recipients
                  Without Adequately Verifying Their
                  Eligibility, East St. Louis, IL

 2010-NY-1808     Pine State Mortgage Corporation Did Not     09/29/2010   02/11/2011   02/09/2012
                  Properly Underwrite a Selection of FHA
                  Loans, Atlanta, GA

 2010-CF-1801     Final Civil Action, Anchor Mortgage         09/30/2010   02/18/2011   02/17/2012
                  Corporation, Loan Origination Fraud
                  - Violations of the False Claims Act,
                  Chicago, IL

 2010-DP-0004     Security Weaknesses on HUD’s Network        09/30/2010   12/02/2010   12/02/2011
                  Devices

 2010-FW-0004 HUD’s Oversight of the Hurricane Ike            09/30/2010   12/30/2010   12/31/2011
              Disaster Housing Assistance Program in
              Texas Needed Improvement

 2010-HA-0003     HUD Needs To Improve Controls Over Its      09/30/2010   01/27/2011    Note 2
                  Administration of Completed and Expired
                  Contracts

 2010-NY-1809     Sterling National Mortgage Company, Inc.,   09/30/2010   02/03/2011   01/31/2012
                  Did Not Properly Underwrite a Selection
                  of FHA Loans, Great Neck, NY




Appendix 3 - Tables                                                                                  159
                        Significant audit reports issued within the past 12 months
                           that were described in previous semiannual reports
                               on which final action had not been completed
                                         as of September 30, 2011

        Report                     Report title                   Issue      Decision         Final
        number                                                     date       date           action

      2011-DP-0001   HUD Did Not Properly Manage HITS           10/06/2010   02/03/2011    11/30/2012
                     Contracts and Contractors To Fully
                     Comply With Contract Requirements and
                     Acquisition Regulations

      2011-CH-1001   The City of Flint Lacked Adequate          10/13/2010   02/03/2011    02/03/2012
                     Controls Over Its HOME Program
                     Regarding Community Housing
                     Development Organizations’ Home-Buyer
                     Projects, Subrecipients’ Activities, and
                     Reporting Accomplishments in HUD’s
                     System, Flint, MI

      2011-FW-1001 The Housing Authority of the City of       10/14/2010     03/29/2011    04/01/2012
                   Shreveport Mismanaged Its Recovery
                   Act Funds by Entering into Imprudent
                   Contracts to Meet the Obligation Deadline,
                   Shreveport, LA

      2011-NY-1001   The Jersey City Housing Authority Had      10/19/2010   02/15/2011    02/15/2012
                     Administration Weaknesses in Its Capital
                     Fund Programs, Jersey City, NJ

      2011-AT-1001   Nationwide Home Loans Did Not Follow       10/25/2010   02/22/2011    10/25/2011
                     HUD Requirements in Approving FHA
                     Loans and Implementing Its Quality
                     Control Program, Miami, FL

      2011-LA-1001   The City of Los Angeles Housing            10/25/2010   02/22/2011    02/22/2012
                     Department Did Not Always Effectively
                     Administer Its Homelessness Prevention
                     and Rapid Re-Housing Program, Los
                     Angeles, CA

      2011-AO-1002   The State of Louisiana Did Not Always      10/29/2010   02/25/2011    02/25/2012
                     Ensure That Disbursements Under Its
                     First Time Homebuyer Program Complied
                     With Federal Regulations and Program
                     Requirements, Baton Rouge, LA




160                                                                                   Appendix 3 - Tables
    Report                       Report title                     Issue      Decision       Final
    number                                                         date       date         action

 2011-LA-1002     The Housing Authority of the City of          11/04/2010   01/26/2011   11/30/2011
                  Los Angeles Generally Had Capacity;
                  However, It Needs To Improve Controls
                  Over Its Administration of Its Capital Fund
                  Grant Awarded Under The Recovery Act
                  Program, Los Angeles, CA

 2011-FO-0002     Audit of the FHA’s Financial Statements       11/05/2010   03/23/2011   10/31/2011
                  for Fiscal Years 2010 and 2009

 2011-CH-1002     ACORN Associates, Inc., Materially            11/08/2010   01/19/2011   11/29/2011
                  Failed To Use Its Lead Elimination Action
                  Program Grant Funds Appropriately, New
                  Orleans, LA

 2011-PH-1002     The City of Scranton Did Not Administer       11/08/2010   03/08/2011   10/22/2011
                  Its CDBG Program in Accordance With
                  HUD Requirements, Scranton, PA

 2011-PH-1003     The Pennsylvania Housing Finance              11/08/2010   03/08/2011    Note 2
                  Agency Generally Administered Its Tax
                  Credit Assistance Program Funded Under
                  the Recovery Act in Accordance With
                  Applicable Requirements, Harrisburg, PA

 2011-NY-1002     The City of Bayonne Did Not Adequately        11/12/2010   03/11/2011   03/08/2012
                  Administer Its Economic Development
                  Program, Bayonne, NJ

 2011-FO-0003     Additional Details to Supplement Our          11/15/2010   08/08/2011   06/30/2012
                  Report on HUD’s Fiscal Years 2010 and
                  2009 Financial Statements

 2011-CH-0001     HUD Can Improve Its Oversight of Public       11/16/2010   03/10/2011   06/30/2012
                  Housing Agencies’ Section 8 Project-
                  Based Voucher Programs

 2011-NY-1003     The Irvington Housing Authority Did Not       11/24/2010   03/23/2011   03/23/2012
                  Administer Its Capital Fund Programs
                  in Accordance With HUD Regulations,
                  Irvington, NJ

 2011-DP-0003     HUD Did Not Fully Comply With the             12/03/2010   05/05/2011   12/31/2013
                  Requirements of OMB Circular A-127

 2011-FO-0004     Annual Evaluation of HUD’s Compliance         12/07/2010   08/01/2011   11/18/2011
                  With Presidential Executive Order 13520,
                  Reducing Improper Payments




Appendix 3 - Tables                                                                                    161
        Report                     Report title                   Issue      Decision         Final
        number                                                     date       date           action

      2011-BO-1002   Brockton Housing Authority Needs to        12/13/2010   03/17/2011    10/28/2011
                     Improve Controls over its Interprogram
                     Fund Transactions and Housing Choice
                     Voucher Program Procurements,
                     Brockton, MA

      2011-FW-1003 WR Starkey Mortgage, LLP, Did Not Follow     12/17/2010   03/31/2011    12/17/2011
                   HUD Underwriting Requirements for 13 of
                   14 Loans Reviewed, Plano, TX

      2011-LA-1005   The City and County of San Francisco Did   12/21/2010   04/20/2011    10/28/2011
                     Not Always Ensure That Homelessness
                     Prevention and Rapid Re-Housing Funds
                     Were Used as Required, San Francisco,
                     CA

      2011-PH-1005   The District of Columbia Did Not           12/23/2010   04/22/2011    11/30/2011
                     Administer Its HOME Program in
                     Accordance With Federal Requirements,
                     Washington, DC

      2011-CH-1003   The City of Cleveland Lacked Adequate      12/27/2010   04/26/2011    04/18/2012
                     Controls Over Its HOME Investment
                     Partnerships Program and American
                     Dream Downpayment Initiative-Funded
                     Afford-A-Home Program, Cleveland, OH

      2011-DP-0004   Fiscal Year 2010 Review of Information     01/14/2011   05/13/2011    03/15/2012
                     Systems Controls in Support of the
                     Financial Statements Audit

      2011-SE-1002   Washington State Housing Finance           01/19/2011   04/15/2011      Note 2
                     Commission Did not Always Disburse Its
                     Tax Credit Assistance Program Funds in
                     Accordance With Program Requirements,
                     Seattle, WA

      2011-LA-0001   HUD Did Not Provide Adequate Oversight 01/21/2011       05/20/2011    02/04/2012
                     and Guidance During the Technical
                     Review of the Retreat at Santa Rita Springs

      2011-FW-1005 The Housing Authority of the City of Port    01/25/2011   05/19/2011    12/01/2011
                   Arthur Mismanaged Its Recovery Act
                   Funding, Port Arthur, TX

      2011-AT-1802   The Municipality of Arecibo Charged        01/27/2011   05/26/2011    02/28/2012
                     the HOME Program With Expenditures
                     That Did Not Meet Program Objectives,
                     Arecibo, PR


162                                                                                   Appendix 3 - Tables
    Report                       Report title                     Issue      Decision       Final
    number                                                         date       date         action

 2011-CH-1004     The State of Indiana’s Administrator          01/31/2011   05/25/2011   04/30/2012
                  Lacked Adequate Controls Over the
                  State’s HOME Investment Partnerships
                  Program and American Dream
                  Downpayment Initiative-Funded First
                  Home/PLUS Program, Indianapolis, IN

 2011-NY-1005     The Lower Manhattan Development               02/07/2011   06/20/2011   06/20/2012
                  Corporation CDBG Disaster Recovery
                  Assistance Funds, New York, NY

 2011-KC-1001     The City of East St. Louis Did Not Properly   02/09/2011   06/09/2011   05/15/2012
                  Manage Housing Rehabilitation Contracts
                  Funded by the CDBG Program, East St.
                  Louis, IL

 2011-DP-0005     Although HUD Continued to Make                02/10/2011   05/10/2011   12/30/2011
                  Improvements to Its Entity Wide
                  Security Program, Challenges Remained
                  in Its Efforts to Comply with Federal
                  Information Security Requirements

 2011-PH-1007     The Philadelphia Housing Authority Did        03/10/2011   06/07/2011   05/31/2012
                  Not Comply With Several Significant HUD
                  Requirements and Failed To Support
                  Payments for Outside Legal Services,
                  Philadelphia, PA

 2011-NY-1008     The Jersey City Housing Authority Did Not     03/18/2011   07/11/2011   07/09/2012
                  Always Obligate or Disburse Replacement
                  Housing Factor Capital Fund Grants in a
                  Timely Manner, Jersey City, NJ

 2011-PH-1008     The West Virginia Housing Development         03/21/2011   07/19/2011   12/31/2011
                  Fund Generally Administered Its Tax
                  Credit Assistance Program Funded Under
                  the Recovery Act in Accordance With
                  Applicable Requirements, Charleston, WV

 2011-PH-1009     Deutsche Bank Berkshire Mortgage, Inc.,       03/22/2011   07/20/2011   07/11/2012
                  Acquired a $45.6 Million Loan That Was
                  Not Properly Underwritten in Accordance
                  With HUD’s Multifamily Accelerated
                  Processing Program, Bethesda, MD

 2011-CH-1006     The DuPage Housing Authority                  03/23/2011   07/28/2011   12/31/2012
                  Inappropriately Administered Its Section
                  8 Housing Choice Voucher Program,
                  Wheaton, IL


Appendix 3 - Tables                                                                                    163
        Report                      Report title                   Issue       Decision         Final
        number                                                      date        date           action

      2011-DP-0006   HUD’s Controls Over Selected               03/24/2011     07/18/2011    06/30/2012
                     Configuration Management Activities
                     Need Improvement

      2011-LA-1008   The Hawthorne Housing Authority Failed     03/28/2011     07/20/2011    11/30/2011
                     To Maintain an Adequate Financial
                     Management System, Hawthorne, CA




      Audits Excluded:                                        Notes:

      86 audits under repayment plans                         1 Management did not meet the target date.
                                                              Target date is over 1 year old.
      24 audits under debt claims collection
      processing, formal judicial review,                     2 Management did not meet the target date.
      investigation, or legislative solution                  Target date is under 1 year old.

                                                              3 No management decision




164                                                                                     Appendix 3 - Tables
                                                Table C
                          Inspector General-issued reports with questioned and
                               unsupported costs as of September 30, 2011
                                              (thousands)
                        Audit reports                          Number of         Questioned       Unsupported
                                                              audit reports        costs             costs

    A1 For which no management decision had been                    26              $73,912             $29,421
       made by the commencement of the reporting
       period
    A2 For which litigation, legislation, or investigation           3               $5,419             $3,305
       was pending at the commencement of the
       reporting period
    A3 For which additional costs were added to                      -               $3,786             $1,001
       reports in beginning inventory
    A4 For which costs were added to noncost reports                 0                 0                  0
    B1 Which were issued during the reporting period                74              $93,548             $66,265
    B2 Which were reopened during the reporting                      0                 0                  0
       period
                                         Subtotals (A+B)            103            $176,665             $99,992
    C For which a management decision was made                      451             $81,014             $26,605
      during the reporting period
        (1) Dollar value of disallowed costs:
                - Due HUD                                           11              $41,035             $7,234
                - Due program participants                          32              $39,111             $18,571
        (2) Dollar value of costs not disallowed                     52              $868                $800
    D For which management decision had been                         3               $6,618             $3,305
      made not to determine costs until completion
      of litigation, legislation, or investigation
    E   For which no management decision had been                  55             $89,033           $70,082
        made by the end of the reporting period                  <140>3          <$74,815>3        <$56,007>3




1
  16 audit reports also contain recommendations with funds to be put to better use.
2
  3 audit reports also contain recommendations with funds agreed to by management.
3
  The figures in brackets represent data at the recommendation level as compared to the report level.
See Explanations of Tables C and D.




Appendix 3 - Tables                                                                                               165
                                                      Table D
                              Inspector General-issued reports with recommendations
                               that funds be put to better use as of September 30, 2011
                                                     (thousands)
                                Audit reports                               Number of               Questioned
                                                                           audit reports              costs

          A1 For which no management decision had been made                       12                  $819,358
             by the commencement of the reporting period
          A2 For which litigation, legislation, or investigation was              2                    $15,521
             pending at the commencement of the reporting
             period
          A3 For which additional costs were added to reports in                   -                         $1
             beginning inventory
          A4 For which costs were added to noncost reports                        0                          0
          B1 Which were issued during the reporting period                        34                   $78,150
          B2 Which were reopened during the reporting period                      0                          0
                                                      Subtotals (A+B)             48                  $913,030

          C For which a management decision was made                             171                  $766,471
            during the reporting period
              (1) Dollar value of disallowed costs:
                      - Due HUD                                                    3                  $761,781
                      - Due program participants                                  14                   $4,690
              (2) Dollar value of costs not disallowed                            0                          0
          D For which management decision had been made                           2                    $15,521
            not to determine costs until completion of litigation,
            legislation, or investigation
          E   For which no management decision had been                         29                    $131,038
              made by the end of the reporting period                          <40>2                 <$68,755>2




      1
       16 audit reports also contain recommendations with questioned costs.
      3
       The figures in brackets represent data at the recommendation level as compared to the report level.
      See Explanations of Tables C and D.




166                                                                                                 Appendix 3 - Tables
Explanations of Tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report
cost data on management decisions and final actions on audit reports. The current method of reporting at
the “report” level rather than at the individual audit “recommendation” level results in misleading reporting
of cost data. Under the Act, an audit “report” does not have a management decision or final action until
all questioned cost items or other recommendations have a management decision or final action. Under
these circumstances, the use of the “report” based rather than the “recommendation” based method of
reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For
example, certain cost items or recommendations could have a management decision and repayment (final
action) in a short period of time. Other cost items or nonmonetary recommendation issues in the same
audit report may be more complex, requiring a longer period of time for management’s decision or final
action. Although management may have taken timely action on all but one of many recommendations
in an audit report, the current “all or nothing” reporting format does not take recognition of their efforts.

    The closing inventory for items with no management decision on tables C and D (line E) reflects figures
at the report level as well as the recommendation level.

                                                   nnn




Appendix 3 - Tables                                                                                             167
  For congressional and media inquires related to HUD
OIG, please contact Kathleen Hatcher, Director of External
   Affairs, at khatcher@hudoig.gov or (202) 402-8323.

                           nnn

    Report fraud, waste, and mismanagement in HUD
              programs and operations by

          Faxing the OIG hotline: 202-708-4829

            Sending written information to
    Department of Housing and Urban Development
           Inspector General Hotline (GFI)
                  451 7th Street, SW
               Washington, DC 20410

      Emailing the OIG hotline: hotline@hudoig.gov
    Internet: http://www.hudoig.gov/hotline/index.php

             All information is confidential,
            and you may remain anonymous.

                           nnn
Semiannual Report to Congress
April 1, 2011, through September 30, 2011

www.hudoig.gov

No. 66
